<html>
<title> - A 21st CENTURY TRANSPORTATION SYSTEM: REDUCING GRIDLOCK, TACKLING CLIMATE CHANGE, AND GROWING CONNECTICUT'S ECONOMY</title>
<body><pre>[Senate Hearing 111-158]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-158
 
                 A 21st CENTURY TRANSPORTATION SYSTEM: 
 REDUCING GRIDLOCK, TACKLING CLIMATE CHANGE, AND GROWING CONNECTICUT'S 
                                ECONOMY 

=======================================================================

                             FIELD HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

     EXAMINING THE REFORM OF THE FEDERAL GOVERNMENT'S APPROACH TO 
TRANSPORTATION POLICY AND BRINGING NEW FEDERAL TRANSPORTATION RESOURCES 
                      TO THE STATE OF CONNECTICUT

                               __________

                             APRIL 16, 2009

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


      Available at: http: //www.access.gpo.gov /congress /senate/
                            senate05sh.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

53-565 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 
















            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

               CHRISTOPHER J. DODD, Connecticut, Chairman

TIM JOHNSON, South Dakota            RICHARD C. SHELBY, Alabama
JACK REED, Rhode Island              ROBERT F. BENNETT, Utah
CHARLES E. SCHUMER, New York         JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   MIKE CRAPO, Idaho
ROBERT MENENDEZ, New Jersey          MEL MARTINEZ, Florida
DANIEL K. AKAKA, Hawaii              BOB CORKER, Tennessee
SHERROD BROWN, Ohio                  JIM DeMINT, South Carolina
JON TESTER, Montana                  DAVID VITTER, Louisiana
HERB KOHL, Wisconsin                 MIKE JOHANNS, Nebraska
MARK R. WARNER, Virginia             KAY BAILEY HUTCHISON, Texas
JEFF MERKLEY, Oregon
MICHAEL F. BENNET, Colorado

                 Colin McGinnis, Acting Staff Director

              William D. Duhnke, Republican Staff Director

                  Mitch Warren, Senior Policy Advisor

          Shannon Hines, Republican Professional Staff Member

                       Dawn Ratliff, Chief Clerk

                      Devin Hartley, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                  (ii)















                            C O N T E N T S

                              ----------                              

                        THURSDAY, APRIL 16, 2009

                                                                   Page

Opening statement of Chairman Dodd...............................     1

                               WITNESSES

John DeStefano, Jr., Mayor, New Haven, Connecticut...............     5
    Prepared statement...........................................    46
Joseph F. Marie, Commissioner, Connecticut Department of 
  Transportation.................................................     7
    Prepared statement...........................................    48
Howard Permut, President, MTA Metro-North Railroad...............    10
    Prepared statement...........................................    51
Joe McHugh, Vice President, Government Affairs and Corporate
  Communications, Amtrak.........................................    13
    Prepared statement...........................................    54
Ron Kilcoyne, Chief Executive Officer, Greater Bridgeport Transit    16
    Prepared statement...........................................    55
James S. Butler, Executive Director, Southeastern Connecticut 
  Council of Governments.........................................    29
    Prepared statement...........................................    58
Karen Burnaska, Coordinator, Transit for Connecticut.............    32
    Prepared statement...........................................    60
Philip Madonna, Jr., Chairman, ATU Connecticut State Legislative
  Conference Board...............................................    34
    Prepared statement...........................................    62
Eric J. Brown, Associate Counsel, Connecticut Business and 
  Industry
  Association....................................................    35
    Prepared statement...........................................   106
David Kooris, Connecticut Director, Regional Plan Association
    Prepared statement...........................................   107

                                 (iii)


   A 21st CENTURY TRANSPORTATION SYSTEM: REDUCING GRIDLOCK, TACKLING 
           CLIMATE CHANGE, AND GROWING CONNECTICUT'S ECONOMY

                              ----------                              


                        THURSDAY, APRIL 16, 2009

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                     New Haven, CT.
    The Committee met at 10 a.m., in the Hall of Records, 200 
Orange Street, Senator Christopher J. Dodd (Chairman of the 
Committee), presiding.

       OPENING STATEMENT OF CHAIRMAN CHRISTOPHER J. DODD

    Chairman Dodd. All right. Good evening. Come to order. I 
want to thank all of you for being here today. We will begin by 
thanking our witnesses. We'll have two panels this morning of 
witnesses, and for all of you who gathered in the room here, we 
thank you as well. I know many of you have a deep and long-
standing interest on the subject of public transit, and we're 
delighted you're here this morning to participate in this 
formal hearing of the Banking Committee of the U.S. Senate.
    The Banking Committee has jurisdiction over a lot of 
issues. One of them happens to be transit issues, and this year 
with the what we call the authorization, I'm calling the 
authorization of the Surface Transportation Bill, which expires 
in September of this year, the Congress is charged with 
responsibility of coming up with a new version of that 
proposal. And so I thought it would be worthwhile to get a good 
Connecticut perspective on these issues given our locale and 
the importance of these issues questions and the related issues 
of congestion, environmental, housing issues that are all 
associated with the question of transit. It would be worthwhile 
to hear from folks not only from our State, but those that are 
involved in our issues that impact our State very directly.
    I want to recognize who is in the audience. He won't be 
able to stay very long with us, but the Attorney General of 
Connecticut, we thank you very much, Richard Blumenthal is here 
today. Thank you, Richard, for stopping by this morning as 
well. The title of our hearing is ``A 21st Century 
Transportation System: Reducing Gridlock, Tackling Climate 
Change, and Growing Connecticut's Economy'' and again my thanks 
to all of you. I want to recognize Mitch Warren of my staff who 
is here someplace. Mitch, where did you go?
    Mr. Warren. Over here.
    Chairman Dodd. Mitch, There you go. Shannon Hines is the 
staff director for Senator Shelby, my ranking Republican Member 
and former Chairman of the Banking Committee from Alabama. 
Richard and I have been great friends for many, many years, and 
served in the House and in the Senate together and, Shannon, we 
thank you very much for joining us as well from Senator 
Shelby's staff this morning.
    So I'm pleased we are in New Haven this morning to talk 
with so many of Connecticut's transportation leaders about how 
we can improve America's productivity and quality of life by 
reforming the way the Federal Government approaches 
transportation policy and bringing new Federal transportation 
resources to our State.
    I want to thank Mayor DeStefano, John DeStefano, for 
hosting today's hearing and providing this opportunity to use 
these facilities for this hearing this morning. It's no 
coincidence that we are holding a transit hearing in New Haven. 
We are at the heart of Connecticut's transportation system. New 
Haven is Connecticut's hub city in many ways. It is here where 
two major interstate highways, I-95 and I-91, converge; where 
Metro-North and Shoreline East commuter rails start and end, 
start and end; and Amtrak trains can take you to Vermont or 
throughout the Northeast corridor; and all of this comes in 
addition to the State's busiest seaport, the port of New Haven, 
Tweed New Haven Airport, Greater New Haven Transit, and future 
plans for a street car, I might add as well. I should also add 
that this is the home of the world's finest pizzas in the 
world, for those of you who are not from Connecticut. The 
Secretary of Housing and Urban Development was here in the 
State on Monday, and he insisted that he would only come to New 
Haven if he could have a pizza in New Haven. So we took care of 
the Secretary's demands.
    The people of New Haven, as in cities and communities 
across our Nation, understand the problems we are facing today. 
Infrastructure is aging, as all of you know, congestion is 
worsening as all of you are painfully aware of, and the threat 
of climate change, of course, is growing as well. When the 
interstate highway system was created in the 1950s by Dwight 
Eisenhower, its construction over the next half century quite 
literally paved the way for decades of growth and prosperity in 
our country helping to cement our Nation's place as a global 
economic powerhouse in transforming the economy of the United 
States.
    Today, however, rather than being a catalyst for economic 
growth, global competitiveness, and a better quality of life, 
our transportation system, I think we would all agree, has 
become part of problem rather than the solution. With the deep 
recession, another 20,000 layoffs that will occur today before 
the day ends, and every day the people of this State and across 
the country are insisting on real change. Fortunately, we have 
an opportunity this year to lay the groundwork for an 
integrative 21st century transportation system that meets these 
challenges as the Banking Committee helps write the next 
Surface Transportation Bill.
    As Chairman of the Senate Banking Committee, which has 
jurisdiction over Federal transit and housing programs, I 
intend for the Committee to lead the discussion about how we 
can create a transportation system that doesn't add to our 
problems but, as we all hope, will help solve them. If anyone 
can testify to the toll traffic congestion takes on 
productivity and the quality of life, it is certainly the 
people of Connecticut.
    Connecticut residents spend too many hours, as we all know, 
as many of you know, sitting in traffic. Those hours aren't 
spent with their families or at work. They are literally, 
completely wasted hours given the congestion that occurs in our 
highway systems. Every year the current Federal Transportation 
Bill delivers more than $600 million in Federal funding to 
Connecticut. As critical as that funding is, the people of 
Connecticut and the country have a right to expect better 
results from their hard-earned tax dollars. If we want to get 
our economy moving, then we've got to make the kind of 
investments that will get us moving, and no investment will be 
more important than those in public transportation.
    Already transit ridership nationally is at record levels. 
Last year Americans took 10.7 billion trips on our Nation's 
buses and rail lines. Here at home the New Haven Line had the 
largest number of customers in Metro-North operation history in 
2008, 38 million riders, making it one of the busiest rail 
lines in the entire country. Public transit saves, and these 
numbers need to be repeated over and over again to people who 
question whether or not we are on the right track by pursuing 
more investment in public transportation.
    The public transportation saves over four billion gallons 
of gasoline annually, and reduces carbon emissions by some 37 
million metric tons a year. That's equivalent to the 
electricity used by almost 5 million households. Transit 
reduces congestion on our roads, which costs us five times as 
much as wasted fuel and time as it did only 25 years ago. 
Despite these obvious benefits, too often over the past half 
century transit has taken a backseat to funding of our roads 
and highways. For far too long our Nation's investments and 
highway capacity were not paired with similar investments in 
mass transit. In my view that must change.
    Public transit is the glue that holds our transportation 
systems together. As Connecticut is showing, it can be the 
building block of economic growth for our region. As Members of 
the Committee, the Banking Committee, know I have been pushing 
for the development of a new commuter service along the 62 
miles of existing rail line between New Haven, Hartford, and 
Springfield.
    As proposed, service along the tri-city corridor would have 
stops at eight smaller cities and towns creating transit 
villages linking and revitalizing local economies, integrating 
local transit systems and commuter rail lines and Amtrak's 
inner-city service from the seaport. From the seaport of New 
Haven to the airport in Windsor Locks, we could become truly a 
transit-oriented State.
    I have spoken with Commissioner Marie who is here with us. 
I want to commend you as well for the tremendous job he's 
doing. I want to thank Governor Rell as well for having the 
wisdom to ask you to do this job. He is a strong supporter of 
this corridor as well, as I think we'll hear this morning. He 
and Transportation Secretary LaHood, we have talked about the 
New Haven/Hartford/Springfield line, and my staff has been 
working closely with ConnDOT, Amtrak, and the U.S. Department 
of Transportation to make sure that each of these key players 
is on the same page, and working closely to create commuter 
rail service and enhance inner-city service to New York and 
Boston along this corridor. I know that this is also a priority 
for Commissioner Marie, as I said a moment ago, and I look 
forward to working closely with him and his staff on this issue 
as well.
    For many communities a critical part of the transportation 
puzzle is how to creatively put historic structures to use, 
redevelop land, and spur economic development. We are seeing 
these types of sustainable developments pop-up throughout 
Connecticut. In Hartford, plans to develop the historic Colt 
factory for residential and commercial use is moving forward. 
The Harbor Point Project in Stamford's south end is a model of 
transit-oriented development. Another is in the Town of 
Redding, Connecticut, where the innovative Georgetown 
Redevelopment Project is currently in the pipeline to create a 
transit-oriented neighborhood development.
    The key is an intermodal transit facility connected to the 
Danbury branch of the New Haven line within walking distance of 
400 residential units, 330,000 square feet of commercial space 
for restaurants, banks, and retail businesses that are the 
staples of any vibrant community. In all the project is 
expected to employ 800 construction workers, and create some 
1,500 permanent jobs. Thankfully, we have a strong partner in 
the Obama Administration, I might add.
    Secretary Ray LaHood, the new Secretary of Transportation, 
is talking about livable communities, and he and HUD Secretary 
Donovan and myself are closely in sync on these issues. We are 
closely coordinating with HUD and U.S. DOT on national policy, 
and I never hesitate to remind them of our needs here in 
Connecticut as well. I'm confident that our close working 
relationship on these issues will payoff with the Nation as 
well and especially, of course, for people here in our home 
State by reforming transportation policy to create national 
goals and measure performance by insisting on transparency and 
accountability; by better coordinating transportation, housing, 
land use, energy, and environmental policies; and by investing 
in public transportation.
    I firmly believe that we can transform our economy. Instead 
of being part of that problem, I mentioned at the outset of 
these remarks our transportation systems literally, not 
figuratively but literally, can and will be a central part of 
the solution. The moment has arrived to bring transportation 
policy into the 21st century, getting our economy moving again, 
and addressing the challenges we are going to face for decades 
to come.
    Seizing the moment has already begun. As I mentioned, my 
efforts occurring in cities like New Haven under the leadership 
of John DeStefano, and other communities in our State. It has 
started here in New Haven and other communities and I welcome, 
again, for those of you here this morning, those who will 
testify, for sharing with us your ideas and thoughts on how can 
we move forward aggressively to see to it these ideas become 
actualities in the very near future.
    Let me begin by introducing our first panel. I want to 
thank John DeStefano again for hosting our gathering here. I 
think all of you in the room know the mayor, elected the first 
time in 1993, elected seven times to be the mayor of this city, 
and has done a remarkable job in instigating a number of bike 
path policies as well as the trolley car system and ways of 
making greening technology in the city and we shared yesterday 
a couple of hours in the morning with the new housing project 
here in New Haven, which was great news for the people of this 
city as well. So, Mayor, we thank you immensely for what you've 
done and what you're doing.
    Sitting next to the mayor is Joe Marie, who is the 
Commissioner of Connecticut's Department of Transportation who 
I referred to already. Recently named the chair of the Standing 
Committee on Public Transportation for the American Association 
of State Highway and Transportation Officials. He has worked on 
transit agencies in Arizona, Minnesota, Pennsylvania, and 
Massachusetts. Welcome home, by the way, because I know your 
roots are here in Connecticut and I meant it earlier when I 
said we have already met a number of times and chatted, and I 
am very, very impressed, Joe, in what your commitments are to 
these issues and so we're very fortunate indeed to have you 
head up this effort in this State and look forward to 
continuing our working with you.
    We are then going to hear from Henry Permut, Howard Permut, 
rather, who is the President of MTA Metro-North Railroad; next 
to him is Joe McHugh, who is the Vice President of Government 
Affairs for Amtrak who is with us; and finally, we're going to 
hear from Ron Kilcoyne, who is the Chief Executive Officer of 
the Greater Bridgeport Transit Authority and, Ron, we thank you 
for joining us as well.
    With that, Mayor, we'll begin with you this morning, and by 
the way, all of your testimony and supporting documents and 
information I'll make a part of the record, the permanent 
record of the Banking Committee, so we welcome your thoughts 
and ideas. Welcome, Mayor.

STATEMENT OF JOHN DeSTEFANO, JR., MAYOR, NEW HAVEN, CONNECTICUT

    Mr. DeStefano. Chairman Dodd, thank you for holding this 
here in New Haven. It's good to be up here with my colleagues 
on the panel and this audience in front of you, and I look 
forward now to the opportunity to share our experience here in 
New Haven and to make the case for national support for an 
integrated and sustainable transportation framework. You know, 
in so many ways Connecticut land use mirrors the rest of the 
Nation.
    We grew dramatically in our cities with the Industrial 
Revolution, and over time we settled further and further from 
the central core, first to the suburbs then to the edge cities. 
Today over 80 percent of Connecticut workers now drive alone to 
work, and overall vehicle miles traveled on Connecticut's 
heavily congested local roads have increased nearly 50 percent 
from 1986 to 1995.
    From a climate change perspective, the cumulative effect of 
our land use decisions is truly staggering. Transportation 
accounts for 40 percent of Connecticut's greenhouse gas 
emissions.
    In New Haven I'm pleased to report a far more positive 
story. Over the past decade New Haven has made terrific strides 
with dramatic improvements in the health of the people who live 
here. Community indicators ranging from public safety to 
education and from economic growth to quality of life indicate 
positive change and long term sustainability.
    The downtown remains strong as evidenced by the 500-unit 
transit-oriented residential development now under construction 
at 360 State Street across from Commissioner Marie's State 
Street rail station. Sustainable transportation systems are one 
of the many factors contributing to New Haven's success in 
recent years. In fact, more people live in downtown New Haven 
than in the downtowns of many larger cities including Denver, 
Detroit, and Charlotte.
    Nearly half of the city's population does not drive alone 
to work, and by percentage, more people walk to work here in 
New Haven than in any other New England city including Boston. 
We do have two passenger rail systems and a major bus system, 
and many in New Haven simply do not need or want to own a car. 
Rather on any given day like today you'll see cyclists and 
motorists and pedestrians all sharing the city streets in a 
real balance of how streets should be used.
    Two of our leading institutions and employers are Yale 
University and Yale-New Haven Hospital. They are global leaders 
and this elevates New Haven's measure on itself. Our 
competitive advantages are in three basic economic sectors here 
in the city, advanced fabrication, research and development, 
and higher education. Since these economic sectors are 
concentrated in the central business district and medical 
district areas, the city recently released Downtown Crossing, a 
20-year development framework for the city.
    A focus of that, a central focus of that effort is to 
reconnect the city and build a critical mass of transit-
oriented land use by converting route 34 from a traditional 
highway to an at-grade boulevard, and from there, to initiate a 
fixed street railcar system, which will extend pedestrian 
mobility from the Yale campus to the medical district, and 
weave together the city seamlessly in a more organic-pedestrian 
friendly environment.
    I would say something about each of the next two things. 
First, the Oak Street connector, Route 34, was conceived in the 
1950s as a link from commuters in the city to the Naugatuck 
Valley, and was intended to increase traffic volumes. This 
section of Route 34 between the Air Rights garage and 
interstate 95 was opened in 1959. Additional right-of-way was 
acquired to the west, but this section was improved only with a 
pair of frontage roads.
    During the period from project inception in the 1950s to 
its closure, the Oak Street/Route 34 effort displaced over 880 
families and cleared 350 buildings and fractured three 
neighborhoods. The new concept plan restores these 
neighborhoods by converting route 34 to a community scale urban 
boulevard, and by converting excess right-of-way for new homes 
and businesses. Likewise, the project encourages sustainable 
transportation systems through a balance of bicycle and 
pedestrian improvements and public enhancements.
    The city intends to complement that effort, second, in 
cooperation with Yale University, we are proposing a new fixed 
rail street car line generally along the College Street 
corridor of the University's central campus. The entire line is 
four miles connecting the central campus with Yale University 
and Yale-New Haven Hospital medical district on the other side 
of the existing Route 34.
    The street car project would fill a gap in the local public 
transportation system. There is no public transportation system 
currently serving a heavy pedestrian corridor running between 
the central campus and the medical district. As in Portland, 
Seattle, and other cities, the street car works from the 
national model of fixed rail transit in support of high-density 
mixed use development. In New Haven, new growth is concentrated 
at the edges of the corridor and at the northern end where Yale 
is planning to construct two new residential colleges which, 
when complete, will expand the undergraduate enrollment at the 
University by about 15 percent. It is also next door to Science 
Park, where over one million square feet are planned or under 
construction on the site of the abandoned Winchester Repeating 
Arms factory.
    In summary, I would just point out that here in Connecticut 
and in the Nation we're faced with decisions on how to reduce 
congestion and how to dramatically cut greenhouse gas emission. 
New Haven argues for a sustainable transportation system that 
accomplishes both objectives. The Committee is encouraged to 
focus on the goals to compete effectively in the global economy 
and reduce sustainability of the Nation's greenhouse gas 
emissions, investing in sustainable transportation systems, 
particularly ones that link residential neighborhoods with the 
region's basic economic centers. This is a pathway to reach 
both those goals.
    With that in mind, I want to thank the Chairman for his 
support of transit-oriented projects, for the opportunity to 
speak, and for joining us here today in New Haven. Thank you.
    Chairman Dodd. Thanks, Mayor, very, very much and, again, I 
thank you for the leadership in the city and demonstrating how 
this will work. Just having examples where this can happen, I 
think, becomes contagious; that other communities see what 
works, and you see them duplicating the efforts that you've 
made here as well, so I commend you for that effort. 
Commissioner, thank you for joining us.

    STATEMENT OF JOSEPH F. MARIE, COMMISSIONER, CONNECTICUT 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Marie. Good morning, Senator Dodd. Thank you very much 
for convening this hearing. I'm pleased also to be joined with 
my fellow panelists this morning who we work with very closely 
on a daily and weekly basis. The reason why we're here is 
because we have great transportation challenges, but far more 
importantly, the connection between transportation and the 
larger economic challenges that confront us all.
    Overcoming or transportation challenges is a key to 
overcoming our economic problems and integral to the well-being 
of our citizens. What are our challenges? We are a multi-modal 
Connecticut DOT so let me start a little bit first with our 
preservation challenges. I know we're here to talk about public 
transportation, but I wanted to put it in some context for 
Connecticut and our regional friends.
    In Connecticut the average age of our bridges is 50 years 
old, and many of them are beyond functional obsolescence and 
some have indeed approached structural deficiency. The density 
and congestion on the I-95 corridor is considerable. In 
reality, we cannot expand or grow the capacity on the I-95 
corridor, maybe on a marginal basis. This is not just true for 
Connecticut, but also for our colleagues here in New York.
    One bridge program can eat up our State budgets and our 
State share on major projects. Or many, many years. We have a 
big project here, the Q Bridge, the Moses Wheeler Bridge that 
are sucking hundreds of millions of dollars of State money that 
are integral to the regional success of this great part of 
country. On the public transportation side, our rail network, 
we have tremendous ridership gains in recent years. That's not 
so much a problem but a challenge and an opportunity at the 
same time to actually continue to grow that ridership. On our 
Shoreline East lines, ridership is up over 18 percent. On our 
Metro-North lines we are seeing riderships--we have ridership 
levels we haven't seen in 50 years and this is a National 
issues as well. According to APTA, ridership is up to its 
highest levels in over five decades.
    The age of our infrastructure continues to be a challenge, 
not only our roads and bridges but also for our system's 
infrastructure. I am talking about the rail track itself, the 
signal system, the catenary system much of which is here on the 
corridor is old and reaching that time where it has to be more 
modernized or replaced. Parking along our rail line continues 
to be a considerable constraint and chokepoint. The truth of 
the matter is we are going to add 300 new railcars on our 
Metro-North system very soon with our friends at Metro-North in 
partnership with them in New York, but the choking point on the 
system now appears to be parking, and we are doing as much as 
we can to deal with that.
    We also have a very outdated rail yard here in New Haven 
that serves not only our commuter rail services to the New York 
Grand Central terminals, but also serves Shoreline East 
operations up north to New London and Old Saybrook. On our bus 
network the average age of our bus fleet is now approaching 
mid-life crises. We are using some stimulus monies as a down 
payment to try to bring that average age down, but over the 
next six to 7 years we'll have to replace 600 buses in the 
State of Connecticut.
    In order to improve and expand our service and connectivity 
of the modes, we'll need to modernize our bus fleet and also 
improve the fare collection system on our buses, which is 
rather old and antiquated. We need to move to a more regionally 
based smart car type of system in partnership with Metro-North 
and Amtrak so that we have a truly integrated fair collection 
system in the Northeast region.
    All of these represent not only challenges to the State of 
Connecticut but this region and also the country. What are we 
doing about it? First and foremost, we need to make sure that 
we maintain our systems in good repair. As Senator Shelby at 
our Senate testimony hearing last March pointed out to us, we 
must maintain what we have before we can build new, and I think 
he hits the mark head-on. We need to make sure we maintain our 
infrastructure in good working order.
    In Connecticut we've invested $150 million with the State's 
Fix It First Program to repair our roads and bridges. We're 
going to invest hundreds of millions of dollars in the Q Bridge 
and Moses Wheeler Bridge over the next six to eight, but these 
represent major drains for us. So for our State in Connecticut 
where we already have the highest per capita investment in 
public transportation in the Nation, according to APTA, 
Governor Jodi Rell and our legislature have led a major public 
transportation initiative.
    We are investing $660 million of State money on new train 
equipment, which will start arriving later this year from our 
railcar manufacturer. We'll be investing upwards of a billion 
dollars on the New Haven rail yard to be able to improve the 
overall appearance of our fleet and the reliability of our 
network. We're going to expand service to New London on 
shoreline running our existing trains that end in Old Saybrook 
up further north to, east rather, to New London.
    We also have ongoing signal and catenary replacement 
programs. These are not $1 million or $2 million jobs, but the 
work that we're doing now to replace catenary are $10, $100 
million jobs. The job to replace our signaling system not only 
on our main line but also on our branch lines will cost 
hundreds of millions of dollars in order to get the system to 
the point where we can actually expand capacity and increase 
ridership.
    We're also increasing parking opportunities in Fairfield, 
West Haven, and Branford, and we work closely now with new 
Haven and Stamford to create transit-oriented development 
opportunities in New Haven and Stamford. We also have a program 
in the New Starts Program right now, the New Britain/Hartford 
busway, which will do well to relieve congestion on I-84. What 
more can did we do? Let's talk about our preservation 
challenge.
    Last month, when we testified before the Senate, we talked 
about the state of the big seven rail systems in the country 
and the infrastructure and capital costs associated with 
modernizing those systems. It's rather exorbitant. It's going 
to cost lots of money to get them back into the type of shape 
we need to have them; and for Connecticut establishing New 
Haven/Springfield rail services is an absolute priority.
    I had a great breakfast with Joe McHugh this morning and 2 
weeks ago with Joe Boardman, the new president of Amtrak, to 
talk about our partnership on that, and I'm very optimistic as 
we move forward. We have ongoing branch line service and 
studies where we're seeing great ridership increase on the 
Danbury, Waterbury, and New Canaan services, but they are 
fundamentally single-track operations that really require 
investment in signalization and electrification in order for us 
to grow ridership on those lines.
    The role of the Federal Government, as we go forward 
particularly as it relates to authorization, you can read my 
testimony but the numbers are significant. Growing the pot for 
all of our modes of transportation is critical. Streamlining 
processes for new starts, no easy answers there, but I think as 
you heard secretary LaHood testify, the FTA is looking at their 
procedures, and we're all encouraged by what we are seeing at 
the FTA level now.
    Policies aimed at reducing VMT are important. Policies 
aimed at performance measures and accountability. We want to be 
accountable for the monies we spend, particularly taxpayer 
money. If we are going to invest in the infrastructure, then we 
need to show a rate of return. Greater balance and equity 
between the modes of transportation, more investment in public 
transportation is clearly needed. Public programs aimed at 
capital improvement and modernization for us and our regional 
partners would help, and absolutely support of intercity rail 
programs. Amtrak particularly on the corridor is absolutely 
vital. We need to assure a strong national carrier and continue 
our investment with our partner, Amtrak.
    Last, before I close, I would like to say that Connecticut 
is really working hard to spend stimulus monies wisely. We have 
already obligated much of our money. We continue open bids and 
as I walked down Constitution Avenue with my family on Monday 
doing a little visit, we saw the President's motorcade go by, 
and the President was visiting Secretary LaHood and DOT, and 
mentioned one of our projects in Connecticut, and we're really 
proud to see that, and the good news is that bids are coming in 
lower than we expected, so we're hopeful to be able to do a 
little bit more with those stimulus monies that we all need. So 
thank you for having me here today.
    Chairman Dodd. Did he stop the car and say hello to you?
    Mr. Marie. I think there were many others he was probably 
interested in seeing him.
    Chairman Dodd. I'm sure you waved at----
    Mr. Marie. We did, we did.
    Chairman Dodd. Howard, thank you for being with us.

STATEMENT OF HOWARD PERMUT, PRESIDENT, MTA METRO-NORTH RAILROAD

    Mr. Permut. Thank you. Good morning, Chairman Dodd. I'm 
Howard Permut, President of Metro-North Railroad, and I 
appreciate the opportunity to testify here today. I've 
submitted a full written version of my testimony for the 
record, and I would like to share with you some of the 
highlights of that statement.
    I was appointed President of Metro-North in July of 2008, 
but I'm by no means a newcomer to Metro-North. In fact, I was 
part of the original Metro-North management team, and have seen 
firsthand what is necessary to create a viable transportation 
system and how that system, in turn, can help create a vibrant 
regional economy. Metro-North service has made it possible for 
this region to remain strong. We have developed a reverse and 
intermediate commutation market that allows expansion into both 
sections of New York and Connecticut that once were considered 
bedroom communities only. More than 50 percent of our customers 
every year are traveling either to work locations outside the 
city limits or taking discretionary trips to theater, museums, 
and summer homes, trips that help fuel the rest of the region's 
economy.
    The railed is also a lifeline to control mobility while 
reducing reliance on the automobile. Every day almost 4,000 
people travel to New Haven from points, I'm sorry, to Stamford 
from points east. Without Metro-North service to carry these 
people, you would need to have one lane in each direction on I-
95 to handle the additional cars on the road.
    Chairman Dodd. Why don't you repeat that line? We talked 
about this before the hearing started and that's a stunning 
statistic. Why don't you say that again?
    Mr. Permut. Right, OK. That Metro-North every day carries 
4,000 people who travel to Stamford from points east, and 
without those people on the trains, we would have to add one 
extra lane in I-95 in each direction to carry that volume of 
people. Investing in a safe, reliable and efficient railroad to 
do this work and reduce traffic seems like a better bet.
    Before I go further, however, let me put Metro-North's role 
here into some context. Metro-North is a wholly owned 
subsidiary of the MTA New York. We operate the New Haven line 
under a comprehensive and complex service agreement with the 
Connecticut Department of Transportation, and it's one I would 
like to say that is one that's been fair and very workable to 
the parties over the years as we worked on this, and this 
agreement in varying forms has been in place about 40 years.
    In 1983, when Metro-North was created to operate the three 
commuter lines in the area, service on the Hudson, Harlem, and 
New Haven lines looked and performed like they were on the 
brink of disaster. Today we would all agree there are still 
improvements to be made to Metro-North and the New Haven line. 
Our infrastructure is undeniably in better shape than we've 
ever seen. Last year's record setting ridership and customer 
satisfaction levels and consistently high on-time performance 
are a testament to that.
    Metro-North has become an important part of the community 
it serves. However, it would be dangerous to take our 
contribution to the region's economy and mobility for granted. 
In my experience you need certain ingredients to become and 
remain successful. First, you need good partners like the one 
we enjoy with the Connecticut Department of Transportation who 
share our same goals. Second, you need a committed workforce. 
We have 5,800 employees in Metro-North. Over 1,500 Connecticut 
State residents. Almost 1,400 work within the State borders. 
Couple that with a high performance, and I would say we show an 
interest in doing our best. Third, you need a plan that's 
strategic, comprehensive, and moves your organization toward 
achieving what's important; and when you prepare to execute 
your plans, you better have the money to make it happen.
    A stable, sufficient, multi-year funding stream makes 
everything possible. Our experience in Metro-North is the 
example. Since 1983 we committed ourselves to identifying and 
executing investments that allow us to reduce the maintenance 
needs, operate as efficiently as possible, and reduce reliance 
on taxpayer subsidies. Our fair operating ratio has gone from 
38 percent to 55 percent, which means that more than half of 
our expenses are now covered from fares, one of the highest 
ratios in the entire United States.
    We are also fortunate to have benefited from visionary 
leadership in New York that created a dedicated stable means of 
funding infrastructure investment in 5-year increments. In all, 
we've invested $6.3 billion in all aspects of our system, but 
we can't be fooled into believing that we are finished. We are 
far from it. In an unconstrained world, we just recently 
estimated that we will need to invest approximately $12 billion 
in the next 20 years to meet the basic needs of the railroads. 
Let me repeat that again. That's $12 billion just to meet the 
basic needs of the railroad before we talk about expanding the 
system.
    In the 10 to 20-year timeframe alone, we are looking to 
fund projects totaling approximately $1.9 billion. Of that, 
almost 90 percent of that amount is required either to bring us 
to a state of good repair or to replace equipment and 
infrastructure that is at the end of its useful life. So 
approximately of the remainder, about 7 percent has been 
identified for projects that will help us increase ridership 
and add capacity to carry additional riders, and at this point 
I want to emphasize here, as Joe mentioned and you mentioned so 
eloquently in your testimony, that Metro-North ridership is at 
historic highs. It's the highest that's ever ridden on any of 
these lines in the history of these lines, which go back 160 
years or so; that our needs are so great just to maintain what 
we have, we can't dedicate much of our resources to expanding 
upon that.
    Further, these numbers don't include the billions of 
dollars required to expand our region and further improve 
mobility in the region providing service from here to Penn 
Station, New York, building its public transit system across 
the Tappanzee Bridge, and the I-287 corridor or adding service 
to Stewart Airport are examples of additional needs.
    When we turn to Connecticut, we see the potential for 
further rebirth of commuter rail service. Metro-North has just 
completed a study of our communications and signal systems to 
determine how to meet the New Haven line service requirements 
including Amtrak service route 2030. The design and 
construction of in-system east of Greenwich requires additional 
funds. Metro-North and ConnDOT will also have to secure funding 
for the federally legislated mandate to install, to design and 
install positive train control to our signal system by 2015. 
Additional estimates put the cost of this system in the half a 
billion dollar range. Frankly, we will be looking at sources at 
the Federal level to help us meet this mandate.
    Other essential projects that are underway and require 
additional funding are the catenary replacement for the 
Connecticut portion of the New Haven line, the option to buy 
additional cars beyond the 300 on order, to expand service, and 
investing in modern repair and storage facilities in New Haven 
and in Bridgeport. A full funding strategy and project 
limitation plan are being formulated by ConnDOT for all these 
improvements. Similarly, we await legislative movement in New 
York on the funding of our next 5-year infrastructure 
investment.
    I'm optimistic these plans will be approved and funded 
soon. I'm convinced that our elected officials and business 
leaders understand how important public transportation is to 
the region's economy. Likewise, many of your residents, our 
customers, consider it a lifeline. It's a lot of money to 
invest, but by doing so we are also investing the region's 
economic health and quality of life that it provides. Metro-
North's history is illustrative of that fact. In this case 
history must repeat itself or we will all be poorer for it. We 
look forward to working with you, Mr. Chairman, your staff, and 
other partners in Congress to address some of the issues in the 
upcoming Surface Transportation Reauthorization Bill later this 
year, and on behalf of the Metro-North and our MTA family, I 
want to thank you for your interest and your support.
    Chairman Dodd. Well, thank you very much.
    Mr. Permut. Thank you.
    Chairman Dodd. You're not new to the work, but new to the 
job you have, and we look forward to working with you.
    Mr. Permut. Thank you.
    Chairman Dodd. We appreciate your testimony. Mr. McHugh, 
welcome.

STATEMENT OF JOE McHUGH, VICE PRESIDENT, GOVERNMENT AFFAIRS AND 
                   CORPORATE COMMUNICATIONS,
                             AMTRAK

    Mr. McHugh. Thank you, sir.
    Chairman Dodd. Why don't you bring that microphone a little 
closer to you. The people in the back of the room might not 
hear as well.
    Mr. McHugh. I think that's better, thank you. Thank you 
very much for your leadership today for holding this hearing 
and for the good work that your staff does each and every day 
in helping us at Amtrak and over the years, Senator, thank your 
for you abiding support for Amtrak. You have really been there 
for us, and I would like to thank you on behalf of all of our 
employees.
    Chairman Dodd. Thank you.
    Mr. McHugh. We are also experiencing record ridership this 
year. Our last year closed with the single biggest increase in 
ridership, 28.3 million nationwide, and despite the economic 
problems the country is suffering, we're still pretty much on 
pace with last year. We are just 4.3 percent lower overall 
across the system with our ridership. The Northeast corridor 
has been down slightly, but we see that picking up now. Our on-
time performance this month through April is 97 percent on-time 
performance on the Northeast corridor, and ironically it's our 
long distance trains which are pacing ahead of last year, about 
2.5 percent ridership-wise over the last year, so we've sort of 
held our own through these problems.
    Touch briefly today on five topics. I want to talk 
generally about our partnership with Connecticut, some 
statistics on your Springfield line here, the opportunities 
thereto, opportunities for the main line, and some of the 
guiding principles the company will be looking to move forward 
with in partnership with the States that support us and where 
we have service, and I would also like to extend my welcome and 
privilege to be with these transportation professionals on this 
panel today.
    We operate 46 daily trains on the Northeast corridor 
through Connecticut and the Springfield line each day. Ten of 
the 12 stations in Connecticut are intermodal stations and have 
connections with other forms of transportation. For those 
traveling in Connecticut, and about 1.6 million Connecticut 
people boarded on stations in Connecticut last year, they have 
an unparalleled range of travel choices here. It's a very good 
place to do business and in terms of transportation for Amtrak.
    We employ 544 residents of the State. Last year between our 
payroll and the purchases of goods and services, about $100 
million were spent here in Connecticut by Amtrak, and last year 
we're very proud to have completed a major replacement of one 
of our aging draw spans, the Thames River Bridge, which is now 
a vertical lift bridge, and by doing that, it's a State good 
repair project, but it also brought us greater reliability in 
terms of our operations on the north end of the corridor.
    We will be investing stimulus funds in Connecticut. Next up 
is the Niantic River Bridge. We will get started on that, and 
we would not be doing that but for the stimulus funding. That's 
about a hundred million dollar project. Two other bridges, one 
in Stonington and one at the Miamicog River, will also be 
replaced. The work will begin in September of this year. Bids 
will be out on the street in May. We will be doing ADA 
compliance at a number of stations in Connecticut. Our total 
ARRA investment is $14 million.
    With regard to the Springfield line, Amtrak operates 22 
daily trains on this route. Those are two Amtrak regional 
trains, eight shuttles, our Vermonter service, which goes up to 
St. Albans for a total of 12 Amtrak trains. Ten freights also 
share the corridor. It is 62 miles long. It is single track. It 
has good passing siding and it is cab signaled. It was formerly 
double tracked, but the second track was lifted in the late 
1980s, unfortunately.
    This year we will be up there with our track laying 
machine. Actually, we will be up there with our track laying 
forces completing what will be an 130,000 tie replacement 
project. This will be the second year of a 2-year project; and 
when we do that, we will be able to lift 14 speed restrictions, 
we will have improved grade crossings, and we will be able to 
raise our speed slightly on routes so that we can have a 
consistent 79 mile an hour operation.
    The two big challenges down the road for the Engineering 
Department will be replacement of the Hartford viaduct, which 
was built during the administration of Grover Cleveland. That 
is about a $40 to $45 million project, and to get double 
tracking back, which is a goal for us and the commissioner, it 
will have to be done to sustain the weight of the double track. 
We are also going to replace the Connecticut River Bridge near 
Windsor Locks, which dates to 1904. That's a $20 million 
project, and again, we are going to get started on the work, 
the planning work for that, and we hope to move on those in the 
next couple of years.
    The Springfield line will need continued investment, but 
according to our Engineering Department, its track and 
structures after we get the tie replacement done this summer, 
will be in pretty good shape, we are very proud of the 
Springfield line. It is a designated as a high-speed corridor, 
and it has a potential for high-speed rail funding under both 
the Prea Bill and hopefully under the Stimulus Bill.
    We have been working closely with the State, with Howard's 
group in terms of defining overall state of good repair needs 
for the entire Northeast corridor and just this week we are 
sending that report to Congress. It is one of the requirements 
of the Prea legislation.
    With regard to opportunities, you know, I think we view the 
Springfield line as really a successor to the work we did in 
Harrisburg, the Harrisburg line.
    Chairman Dodd. Yeah.
    Mr. McHugh. That is also an Amtrak-owned line. There are 
differences. Harrisburg is electrified, Springfield is not. 
Harrisburg is double tracked. We have a single track operation 
here. We have 40 grade crossings on this route. We have four on 
the Harrisburg line. Here we do 79. There we did 90, but we 
moved it up to 110 after our track work was completed. It is 
part of our system. It is part--we own it and we have an 
obligation to bring it up to as a level of utility as possible. 
We will turn to these challenges.
    We have been meeting regularly with the State. We have a 
good relationship with Joe Marie and his staff, and I can't 
begin to tell you how much we hope that that will bear the 
fruit of the goals we set forward in our testimony. So we hope 
to include, expand and improve the passenger service on that. 
We know that the State wants to bring computer rail there. 
That's very important for us. We think it will be part of the 
community of service that's offered there.
    With regard to the Connecticut to the main line service 
between New Haven and New London carries a substantial amount 
of inner-city and commuter traffic. Shoreline East service, 
which is funded by ConnDOT but is operated by Amtrak, we do 
both the operation and the mechanical work on that. There are 
16 weekday roundtrips between New Haven and Old Saybrook. As 
Joe said, one of them extends to New London.
    We currently operate 308 daily trains along this route. 
There are limitations. We are limited to the number of trains 
we can operate over the bridges in Connecticut. It's a DEP 
regulation, and it ties to the number of moveable bridges, and 
the need to open and close them for the boating community here 
in Connecticut. We continue to work through that to try to find 
creative ways to address their needs but also increases to 
service.
    We also work closely with Metro-North commuter rail, and we 
hope to have an even more engaging relationship in the coming 
months and years as we move forward on Prea requirements of 
reducing trip time on the north end.
    Springfield line offers a microcosm of what Amtrak would 
like to do in coming years across the United States. No two 
corridors are alike, but there are common threads such as the 
need to find true intermodal connections. We must make our 
stations intermodal centers. We can go where buses can't go and 
vice versa. We are in natural alliance with the bus community.
    We want to push for faster service. We think 110 miles per 
hour is a good threshold for speed increases on most of these 
corridors. They are feasible. They are doable. We can realize 
them in our lifetime. They don't require a big bang approach, 
and they will, overall, will increase our service portfolio. We 
would like to move to class 6 track for our 110 mile per hour 
operation. That will require some signaling improvements, but 
the combination of those two will give us greater ability to 
increase frequencies and to increase, reduce trip time.
    We will look to stimulus funding, Amtrak reauthorization 
funding. We believe that there will be a national rail policy. 
Just 2 hours ago the President was in the White House. He and 
Secretary LaHood announcing what he would like to do with the 
$8 billion, and making it a lasting legacy of his 
administration.
    Chairman Dodd. That's high-speed. Is that high-speed?
    Mr. McHugh. It is the high-speed part, but there's money in 
there for----
    Chairman Dodd. But this could actually--Hartford/
Springfield could qualify for that.
    Mr. McHugh. Yes, it could, and we would look to that as a 
possible funding----
    Chairman Dodd. He made that announcement already? I thought 
he was going to do it this afternoon. He did it this morning?
    Mr. McHugh. He did it this morning.
    Chairman Dodd. He must have known we were having the 
hearing here this morning.
    Mr. McHugh. Exactly. So it's a historic day in many ways 
for real policy. We look forward to our continuing relationship 
with you and with our colleagues here in New England. Thank 
you.
    Chairman Dodd. Thanks very much for that and you've touched 
on, raised a lot of questions, too, but I appreciate you 
dwelling on some of the major issues we have in the State as 
well.
    Mr. McHugh. Thank, you sir.
    Chairman Dodd. And we look forward to having a, really an 
ongoing, very consistent relationship with you here to move 
forward on these things.
    Mr. McHugh. Very good.
    Chairman Dodd. Ron, thank you for being here with us.
    Mr. Kilcoyne. Thank you, Senator.
    Chairman Dodd. Bring that mic closer. I can just--I'm 
having a hard time hearing you here. I am worried about the 
people in the back of the room hearing you as well so----
    Mr. Kilcoyne. OK, is this better?
    Chairman Dodd. It's better. You really have to speak into 
it, and I can see people straining and moving up here closer.
    Mr. Kilcoyne. All right.
    Chairman Dodd. You may have the entire audience hovering 
over your shoulder here.

  STATEMENT OF RON KILCOYNE, CHIEF EXECUTIVE OFFICER, GREATER 
                       BRIDGEPORT TRANSIT

    Mr. Kilcoyne. It'll be nice and cozy. Thank you for the 
opportunity to offer testimony at this morning's hearing, and 
also I want to thank you for your efforts on our behalf. Your 
commitment to public transportation can be seen throughout our 
system.
    My testimony will focus on the overarching benefits of 
public transportation in many areas of critical importance to 
the future of national, State, and local levels, and more 
importantly, I would like to focus on the capital and operating 
needs of public transportation and how these may be considered 
and addressed in upcoming legislation and I will--the need for 
increased investment in public transportation has never been 
greater. Public transportation will necessarily play an 
increasing role in addressing some of the Nation's most 
pressing issues including the reducing dependence of foreign 
oil, improving our environment, increasing demand on 
nonrenewable sources, helping people get back to work, 
providing access to essential community services for all, for 
people of all walks of life, provide an immediate alternative 
for those not wanting to join congested highways, and for 
economic development and job growth.
    Investment in public transportation in Bridgeport has led 
to new services to major employment centers, extended service 
vans, helping second and third shift workers, and our services 
are heavily utilized. We have experienced 11 percent growth in 
ridership in the last 6 months of 2008, and that growth 
continues, and for every hour of service we put on the street, 
we carry over 30 customers.
    My written testimony goes into more detail on the benefits 
and the reasons why we need to invest in public transportation. 
I will not get into that, discuss that in my oral testimony. 
The city of Bridgeport is engaging on a sustainability plan. 
It's the aim of the Mayor to have Bridgeport to be the greenest 
city in New England; and as part of that element, we want to 
reduce the carbon footprint of transportation, and we also want 
to sustain compact dense growth in lieu of sprawling 
development that is both environmentally and energy 
inefficient.
    The city is reducing minimum parking requirements, and is 
looking at ways to reduce the barriers for developing the 20 
percent of vacant land and buildings in the city to 
environmentally sustainable infield growth. But this infield 
growth, while it's located along the existing transit routes, 
will increase the demand for transit. We will have to run our 
services more frequently; and in doing that, we will need more 
buses, and we will need a larger maintenance facility. 
Therefore, we have significant capital needs. We have 
significant operating needs; and as I go through my testimony, 
I'll try to talk about how we look at how the upcoming 
authorization bill may be able to address those capital needs 
and operating needs. Certainly Bridgeport is just an example. 
You can translate that, those needs throughout the country, but 
as far as capital and operating needs are necessary.
    You know, before the infusion of capital funding under the 
AARA, it was difficult to secure a local match for projects 
other than rolling stock and facilities to be funded under FTA 
formula or discretionary programs and additional--once the AARA 
vending is used up, additional Federal funding and additional 
local match are going to be required to continue to meet 
current and future capital needs.
    Transit agencies struggle with the inability to plan 
service improvements and expansions on a predictable and 
reliable schedule. There have been occasions where additional 
operating investments are proposed without the required capital 
investment, and there have been occasions where capital 
investment is made available with no associated operating 
funding.
    One of the things we would like to see in the next 
Authorization Bill is a way to encourage or leverage more State 
and local investment in transit operations. This could be done 
in a number of ways. I have provided more detail in my written 
testimony but, again, in the interest of time, I will not go 
into the great details of the minutiae there, but there could 
be incentives to incur to States and regional governments to 
invest more heavily in transit investment. There can be 
conditions placed on the receipt of new funding streams. There 
can be modifications to existing programs and regulatory 
requirements. Increases in local operating funds can be used as 
a local match for capital or there could be and probably the 
best way would be a combination of these alternatives to have 
the biggest impact.
    Another challenge to increasing transit's role is the 
difficulty accessing transit. Even though Bridgeport is a dense 
and older city, it has sidewalks. There are many areas where it 
is unsafe or virtually impossible to actually walk to or access 
bus service; and if it's impossible to walk or access bus 
service, it is impossible just to walk for other short trips. 
For example, within Bridgeport, over 20 percent of the people 
who live and work within Bridgeport live within one mile of 
their job yet in many cases they can't walk and that--and so it 
goes--the improving access to transit not only increases 
transit use, it also reduces vehicles by encouraging more 
nonmotorized trips.
    So, once again, we would look to the next Authorization 
Bill to include incentives that could and other policy 
statements that it could encourage localities to improve and to 
focus on improving access to public transportation services. 
Some of the--some other specific recommendations that we would 
have for the upcoming bill, in the case of capital funding at 
the State level there is a need to commit to longer term 
capital planning and funding for facilities and rolling stock. 
Consideration should be given to longer term authorization with 
annual appropriations and minimum guarantees. This would allow 
for steady and efficient growth of the State's transportation 
infrastructure.
    I touched on the need for increasing operating funds and to 
illustrate this, within Connecticut, Transit for Connecticut, 
which is a coalition of businesses, environmental and social 
services organizations, has conducted a study, which evaluated 
the need for additional capital and operating investment needed 
for public transportation just here in the State of 
Connecticut. This study concluded that we would need to operate 
an additional 1.8 million hours of bus service a year just to 
reach optimum ridership levels and to get optimum benefit from 
public transportation. That translates into about $63 million 
of operating funds as well as an additional $215 million in 
capital necessary to do this.
    I explained in the Bridgeport case where we needed 
additional service and expand our facility, but if you 
translate those needs and expand them statewide, we have that 
need and, once again, every State, the commissioner mentioned 
that we were one of the highest per capita investments in 
transit to begin with yet we do not invest enough in transit 
even at that level. You multiply this by 50 States and you see 
the need.
    As far as capital on a national level, the upcoming 
authorization, we agree with APTA's position that over the 
course of 6 years the capital, the transit program should be no 
less than $123 billion or about double what it currently is, 
and this should be guaranteed funding; and as I mentioned, 
there also needs to be a need to ensure steady and predictable 
funding from the Highway Trust Fund or new revenue, streams of 
revenues from Federal motor fuels taxes as Federal motor fuels 
taxes decline.
    And finally, flexibility. While under the authorization of 
all transportation should grow at the same time, we would like 
to see some level of flexibility in 53-10, which is a 53-16 and 
53-17, which is the Jobs Access money and New Freedoms money 
into a combined program that will grow, but it'll be a combined 
program, because many of the needs of these programs overlap, 
and this would help in that area.
    So I would--hopefully I've stressed the case that transit--
and my written testimony goes into greater detail. The transit 
offers many benefits to address many, many issues at one time 
and--but in order to achieve and to achieve optimum benefit, we 
do need to increase investment. We do need to find a way to 
cover both the capital needs as well as incentives to encourage 
more stable local investment to partner with the Federal 
dollars so that we can increase the need, increase transit 
investment. Thank you.
    Chairman Dodd. Thank you. Now that was very, very 
comprehensive, and you go into some detail in your written 
testimony which was very, very helpful, as well, as we look at 
the upcoming legislation and incorporating the incentive ideas 
as well, and how can we can utilize because the issue--many of 
you raised the issue of parking or at least one of the 
difficulties of parking. Obviously the intermodal connections 
where you can, where that becomes less of a necessity, and 
that's one of the major problems we have in Stamford/
Bridgeport. We had people who couldn't get--there was no public 
transit to get to the public transit, and so trying to find out 
ways in which we promote that connection is going to be 
critical as well. You raised a lot of issues this morning.
    Let me begin, Mayor, if I can, in asking you it's pretty 
comprehensive. What are your--what are the biggest 
transportation challenges? I mean, aside from the money issue, 
obviously, which is important, and let me use the opportunity 
as well as someone who has authored along with Warren Rudman, 
the former Senator from New Hampshire, and Bob Carey of 
Nebraska, this idea of an infrastructure bank idea, which the 
mayor of New York, the Governor of California, the Governor of 
Pennsylvania, and, in fact, the President had spoke about it 
during the campaign, but also has submitted some budgetary 
requests for an infrastructure bank idea.
    Because candidly, as I listen to all of you here about the 
needs just to maintain systems let alone expand them, the costs 
are prohibitive in many ways, and we are already lowering 
deficits in the Highway Trust Fund, and that will be one of the 
battles we will face this year, about $65 billion, I think, is 
the deficit number, and the question is how do we--what 
mechanisms do we have in order to provide the resources for 
capital, which you need for operating costs.
    In the capital area the infrastructure bank idea of 
leveraging private dollars with public monies, which has been 
done in Vancouver, Canada, and other places, is one of the more 
creative ideas of how you get additional resources to bring 
them to bear for infrastructure generally. I mean, this is, 
obviously, one major area, whether you are talking about water 
systems, sewer systems, highway system, bridges, whatever else 
we are talking about here, we will not be able to just go to 
appropriation process or just to raise taxes all the time in 
order to meet these need. We've got to find more creative 
ideas, and the infrastructure bank idea, I invite you to take a 
look at it, is one of the proposals out there to try and come 
up with a creative means and mechanisms by how we would be able 
to attract--and one of the benefits is even sovereign wealth 
funds. We are always somewhat hesitant about sovereign wealth 
funds coming to the United States. One of the benefits of 
getting sovereign wealth funds, other nations who want to 
invest in this country investing in infrastructure, is for 
whatever reason they change their minds next week, they can't 
pick up the transit system and move it back to where they come 
from.
    So one of the ideas of attracting sovereign wealth funds 
for infrastructure particularly in the area of transit has and 
added benefit. You can't take away your investment once you've 
made it in this country; and as I just raise it for you, it's 
something to talk about. But, Mayor, would you just maybe begin 
and talk about what you see are the biggest challenges in this 
area, and then ask each of you to kind of--because it is going 
to be prioritizing this to some degree. We would love to do all 
the things you are talking about, but I'm going to need to get 
some sense of priority as we look at this transit proposal.
    Mr. DeStefano. I would say it in a way that where I think 
you can be effective, but it's not directly under Federal 
Government's influence, which is land use policy. I think to 
the extent to which funds could be targeted in ways that 
support development along transit corridors would be critical 
rather than sprawl development; and, frankly, I think the ways 
to do that are to do that through funding RPOs, the region plan 
organizations that exist in all of the States, but 
additionally, to target funds to areas that have said and are 
placing a value around smart, economic growth, around transit 
facilities, and I think, frankly, in Connecticut we have three 
large transportation corridors to my point of view, I-95, I-91, 
and I-84, and supporting those corridor developments and 
targeting funds there are useful for two ways.
    I think one, it supports density along corridors where 
there is already the vast amount of the infrastructure of the 
State. Second, it preserves what I think is incredible added 
value of this State, which is the open space and rural 
character in many parts of the State, which are being gobbled 
up by development right now. So I would target the money to 
corridors, frankly, irrespective of how you raise it.
    Chairman Dodd. Well, it's a great point. I spoke in North 
Carolina, Governor Hunt has an annual meeting called Emerging 
Issues, which he invites, I think, well over a thousand people, 
and this year was transportation was the subject matter, and I 
was the keynote at the event, and did some work on it. I just 
looking at North Carolina, in Charlotte, North Carolina, the 
light rail system that they built in Charlotte, defied all 
earlier predictions of what would happen to land values along 
that corridor, and actually land values increased by over $2 
billion contrary to what the old thinking might be that 
actually development along a rail corridor would decline 
property values.
    In fact, they increased in value. The people saw it as a 
highly desirable area to be, the transit being the piece that 
attracted that kind of growth so--and this New Haven to 
Springfield, Massachusetts, corridor, again, is the classic 
example where you have an infrastructure in place. We have that 
kind of development that's already there, it seems to me, and 
yet you have a tremendous congestion. I don't need to tell you 
obviously here, it happens to be I-95 and 91 here, but going 
north of Hartford as well during rush hours coming in and going 
are just staggering going on. So the idea of providing that 
along with the stops makes a tremendous amount of sense to me. 
I don't if you want to comment, any of you want to comment on 
that?
    Mr. Marie. Yes, Senator Dodd, I think that the Charlotte 
example is a very good one. I think the most----
    Chairman Dodd. You have to speak up, Joe.
    Mr. Marie. The most comprehensive analysis that has been 
done was done in Dallas, the Metroplex area, where it was 
determined that the real estate properties and property values 
around the light rail that was built in Dallas improved by 56 
percent greater anywhere else in the Dallas-Fort Worth 
Metroplex which, you know, was a real sort of study where they 
have control, you know, study. So it was really indicative of 
how successful it was in the economic impact.
    The same thing happened in Phoenix recently with the 
opening of the Phoenix light rail system, $1.2 billion 
investment in light rail generated a $6 billion investment in 
private investment along the 20 mile right-of-way between 
Phoenix and Mesa. So it did have the economic benefits that 
people had hoped. They were exceeded, more precisely.
    I think you raise an important point about what priorities 
would be. From our standpoint we have to draw a distinction 
between, you know, sort of the regular maintenance activities 
and sort of modernization to sort of extend the useful life and 
the lifecycle of our assets. I think most of us agree we do a 
very good job on, you know, the maintenance of our assets to 
keep them in a good state of repair, but what we're really 
choking on right now, and I think all of the sort of large 
industrial areas and the big cities, you know, the Washington, 
the New York's, the Boston's, the Chicago, Philadelphia, is 
that the age of our infrastructure is sort of, as we talked 
about, reached a midlife crises where it requires a lot of 
money to keep it in a state of good repair, and that's the 
thing that's really hurting us and putting the sort of 
financial pressure.
    You know, our revenues are declining because some of us 
depend on, you know, special gas tax funds. Operating costs are 
going up because of medical costs. Preservation and 
modernization needs are going up, and at the same time the 
desire for our services is going up, because people, once they 
have been attracted to public transportation and away from 
their automobiles even--you saw that late last year with gas 
prices falling, riderships continued to go up on public 
transportation. So we have an opportunity to keep that 
ridership and expand upon it, but the only way we are going to 
be able to do that is invest in that capacity by, you know, 
improving the systems that we do have to increase the level of 
service that we have out there.
    Chairman Dodd. Let me ask you, Howard, on Metro-North, 
because, again, there's a deficit in New York City.
    Mr. Permut. Right.
    Chairman Dodd. They are talking about cutting back 
services, raising fees. There's some talk about a 25 percent 
increase in fees.
    Mr. Permut. Right.
    Chairman Dodd. It seems to me we are going in exactly the 
opposite direction.
    Mr. Permut. Yeah, I think--let me speak--I would like to 
speak to that.
    Chairman Dodd. Bring that closer to you, yeah, the 
microphone.
    Mr. Permut. Yeah, sure. I would like to speak to that as 
well as well talk a little bit on the needs and on the 
development that the other, that Joe and the mayor spoke to. 
The most immediate issue is the issue you just raised, that 
there is a fundamental financial crisis that is affecting the 
MTA, which Metro-North is a part of, and that crisis has been--
it's, if you will, the perfect storm of a couple of different 
things that have been put together.
    Part of it is is that in the 1990s the decision was made to 
fund the capital investments that were absolutely needed, to 
fund them with debt service and that debt service, the amount 
of debt service that is now needed to pay back those bonds we 
are now paying that back and it's escalating at a very, very 
high rate. That requires more care. At the same time with the 
loss--much of the MTA is funded by tax revenues that are very 
sensitive to the economy particularly real estate taxes; and 
with a almost complete collapse of the real estate market, 
those revenues have gone down dramatically.
    And so what we sit with today is a huge financial hole, 
because the costs have gone up because of debt service, and the 
revenues have gone down, because these nonpassenger revenue 
subsidies have gone down. The revenue from the riders has 
actually gone up, because the ridership on all the MTA systems 
is at historic levels, so we are faced with a true financial 
crisis.
    You may be aware that the Governor appointed Richard 
Ravich, who is a previous chairman of MTA. He had a commission. 
The commission made an series of recommendations, had a host of 
public hearings, and those are now and have been under public 
debate in Albany for the better part of four or 5 months; and 
as we sit here today, we are not sure of that outcome. We are 
still optimistic that something, we will get positive some 
financial support that will help us provide the necessary 
monies, and those monies--what's not always fully understood, 
it's not only we are facing service cuts and high fare 
increases, which I agree, we would agree are absolutely what we 
don't want to do, and are antithical to what we have done at 
Metro-North.
    We also do not have a steady source of capital funding 
after this year, and one of the successes for Metro-North has 
been having, in the whole MTA, but I will speak to Metro-North, 
having a stable, sufficient fund source so we could invest over 
time to modernize the system. So we're faced with truly a huge 
issue that will affect the New Haven line. It will affect the 
rest of Metro-North and the higher MTA, which is an operating 
budget out of balance. It is not sustainable even with all 
these cuts and service increases. There would have to be 
further on increases and cuts as well as no capital investment 
and we all know when--I can tell you that personally, you know, 
from being at Metro-North many years, the results of no capital 
investment is what Metro-North inherited, which is a system 
that was collapsing when we took it over in 1983. So it's a 
road we absolutely don't want to go down but we're faced with. 
And hopefully something will come of it. I remain optimistic 
that we will get a solution. We don't want to end up down that 
road, because I think that would be a terrible road both for 
New York and for Connecticut, because we do have a partnership 
here, and the two States have to work together. I would just 
add very briefly just two other things.
    Chairman Dodd. Are we talking to you about this? I mean, 
Joe are we involved in this conversation?
    Mr. Marie. Absolutely. In fact, I am going to be in New 
York this afternoon and again tomorrow afternoon meeting with 
Howard talking about these issues. We're in constant dialog and 
we need to--this is indicative why this is a regional problem 
and regional problems require regional solutions, so we have 
ongoing dialog.
    Mr. Permut. If I may just quickly, when we talk about--to 
echo what Joe and the mayor said and what you said as well in 
terms of economic benefit of investing in public transport, 
when you look just on the Metro-North system where you look 
where the investments have been made up and down the line, 
you'll fine that they are almost invariably right next to the 
train station. So be it Stamford, be it in what's being talked 
about in New Haven, what's being built at State Street. You go 
to Yonkers, New York, the development, the high-rises next to 
the station. New Rochelle is the highest apartment buildings in 
Westchester County, the 50-story buildings they are next to the 
train station. They were put there because people--that's the 
access both to and from Manhattan, and the lifeline is Metro-
North.
    And so we have at least 10 different places where it's 
already been done. We have a number of places underway where 
people want to develop next to train stations, and I think on 
the Federal side what can be done to support that, be it either 
legislatively or financially, would be a huge benefit. I think 
that could help structure more of these and make this not so--I 
think the ingredients are there, but it's based on local 
funding and what developers want to do, and I think with a 
Federal role we could greatly increase and expedite those types 
of developments and the number we have.
    And the last point here, the issue of priorities, I think 
that we have to stay focused on maintaining our system, the 
basic system. They are expensive. There's no question they are 
expensive, but the alternatives are much more expensive. And 
even where we sit here today in Connecticut, as an example, the 
catenary in the State of Connecticut was built in 1910 so it's 
a hundred years old, and we are trying to operate the New Haven 
lines, the biggest rail line in the United States. More people 
ride the New Haven line between Amtrak and Metro-North than 
anywhere else in the country. We are operating both high-speed 
critical Amtrak service, critical commuter service, and we are 
running on a system that is now a hundred years old, and so I 
think we can't lost sight of the fact that there are still 
significant investments that must be done so we can reliably 
provide the service that we need on the railroad.
    Chairman Dodd. That's well put, too, and that's--and by the 
way, I don't want this hearing to turn into--this is not an 
anti-highway hearing, by the way. It's obviously critically 
important as well, and we are talking about transit here, but 
obviously having a mix, but there are obviously disadvantages. 
I mean, the way these formulas work a State or locality gets 80 
percent funding if a highway is involved. You get 20 percent, 
30 percent or 40, in some cases, if there's transit funding. 
You don't have to have a Ph.D. in economics to understand 
you're going to do better by building a highway financially 
than you are if you run a transit system and we need to--I want 
to get us as close to that mode neutral where States and 
communities can start making decisions based on what their 
needs are rather than incentivizing it in a way that just, you 
know, guarantees an outcome that might not be the wisest at 
all, in fact, may be counterproductive in terms of what you're 
tying achieve. Now, I don't anticipate I am going to win that 
battle this year, but we ought to start down that road and get 
to that point where you have that sort of mode neutral approach 
so that people can start making decisions about these issues.
    And what I find encouraging, too, and I think I talked with 
some of you about this, historically we have seen this as kind 
of an East Coast/West Coast issue with interest in Chicago, and 
so forth, about it. What I have found among Senate colleagues 
of mine is that some of the greatest concern about transit 
issues come from western States where you have the utmost 
urbanized State in America. It's always a fun trivia question 
to ask, what's the more urbanized State in the United States of 
American and the answer is Nevada, which people usually never 
answer, but you have about 98 percent of the population live in 
one county, Clark County, around Las Vegas.
    Senator Bob Bennett of Utah is deeply entrenched with 
transit issues in Salt Lake. Richard Shelby, my colleague on 
the Committee, cares about these issues in his communities as 
well, so this issue is getting more attention across the 
country; not just in the highly dense population States but in 
areas where you have a lot of dense population in concentrated 
areas. So I'm optimistic there is a growing constituency for 
these issues as we try to look forward to how we balance the 
needs back and forth.
    Let me if I can raise, Mr. McHugh, the issue, because you 
have a lot on your plate, obviously, and obviously we've got 
some real issues here, and I want to say, by the way, whether 
it's in May or when we can do this, Joe, to really--we'll use 
our office or however you want to do this, but we really want 
to have a very intense and close working relationship with you 
to move forward on these issues, because there's a lot of 
overlapping that goes on here and delay.
    Shoreline East is obviously--I was pleased to hear you talk 
about this. There is a lot of interest in this from New London 
to Old Saybrook and of course this corridor, the tri-city 
corridor project, and I would just like to find how we can cut 
through a lot of this so I can prioritize what the needs may be 
so that we can start making some requests, and anticipating how 
we can get to that point of getting this up and moving.
    Mr. McHugh. Right.
    Chairman Dodd. So share with me--give me some timeframe 
lines, if you will, on Shoreline East New London to Old 
Saybrook, and tell me how you think we can get this, how 
quickly we can get this tri-city project from New Haven to 
Springfield up and going.
    Mr. McHugh. Very well. As I said earlier, the track--the 
foundation of a good railroad is good track, and we will have 
much of our track of proven programs done this summer, and we 
feel then that that's something we can check off as a necessary 
component to a stable and reliable railroad. The next thing 
we're going to need to do is Joe and his staff and a few at our 
staff are going to have to prioritize what the next steps are 
going to be, and I think double tracking has to be the next 
step. We have to have a plan----
    Chairman Dodd. The rights of way are there. We don't have 
to acquire land.
    Mr. McHugh. Yeah. Unfortunately, it was torn up 25 years 
ago, so we don't have to acquire land I think in just about 
every case. We're going to have to look at where we can begin 
that process, and I think, one, you can get a plan together for 
double tracking, and you ask yourself then and there do you 
anticipate the electrification of this, because as you move up 
the track, you move up the tract or down the track, you add 
your double track, you move your signal boxes, and you begin to 
pour the foundations for your pole lines to carry the wire, and 
I think it's probably--we have to sort this out, but that would 
probably be the next couple steps would be to advance a double 
track operation, and to advance the electrification. 
Electrification gives you hire speed operation. We can operate 
easily 110. Our diesels really only get up to 110, and it takes 
a while to do that. Electric operations allow you to accelerate 
faster and decelerate faster so your station stops are 
shortened, and you can pick up valuable times on the----
    Chairman Dodd. What about mag lev approaches, some of the 
more futuristic approaches.
    Mr. McHugh. Well, that is--I mean, what we can get by 
double tracking and adding catenary is going to be 
infinitesimal in terms of cost, and what it cost to build mag 
lev, and we would see it in our lifetime.
    Chairman Dodd. Yeah, OK.
    Mr. Marie. Yeah, if I could add to that real briefly. We 
had a good discussion about that this morning, Joe, and it's 
Connecticut, Amtrak and Massachusetts getting a core group of 
people together, three or four folks, and I think your idea of 
having a meeting down in Washington and kicking it off, and 
coming up with an investment strategy, I think, is sort of the 
way we're moving.
    We are going to have the right engineering people in the 
room, the right development people in the room so that we can 
start making sort of those shared decisions that we need to 
make on the investment strategy. So we hope to be able to do 
that in the next couple of months. We have to finish what's 
called a NEPA document, an environmental document here in the 
State, because there is going to be some parking and some other 
things that require us to do environmental analysis. That 
document is going to be completed February of next year.
    So it gives us some time to come up with the framework of 
the investment strategy, agreements, work with the Federal 
Government to see where we can, you know, come up with money to 
all this, and then start making the investment.
    You also mentioned Shoreline East. We are in a very good 
dialog with Amtrak about the work they need to get done, and we 
do have some work to do with the coastal maritime community as 
it relates to the opening and closing of these bridges. We want 
to achieve consensus with that community to ensure that we 
don't impact their businesses. So we have some hurdles to 
overcome in the next few months there. We're hoping to get some 
semblance of the service extended to New London later this year 
early 2010, and we're optimistic we are able to do that.
    Chairman Dodd. Yeah, let me mention--let me just, Joe, take 
advantage of the gathering here to say let's plan on maybe in 
May--we've got new leadership at the Federal Transit 
Administration as well as the Federal Railroad Administration. 
We got nominees that have been made now and I'll put together--
have you come down. We'll put together some meetings with them 
right away to begin that process.
    Mr. Marie. Sure.
    Chairman Dodd. Let me, if I can, the issue of--it's been 
raised before and the mayor's done a great job, in fact I think 
the numbers are fantastic, the number of people who actually 
walk, bicycle, utilize more traditional modes of transportation 
than otherwise being seen in the city. It's within raised, and 
I saw this is true in Europe, that there are trains that 
actually accommodate bicycles. They actually make it possible 
for you to take a bicycle with you. I don't know if we do that 
at all. Is there any talk about doing that so you are actually 
encouraging people to be able to then utilize an alternative 
means of transportation?
    Mr. Permut. We--let me start at least on the train side.
    Chairman Dodd. Yeah.
    Mr. Permut. We've just put in a new bicycle policy that 
will be going in effect May 3 to make it easier for people to 
bring bicycles on trains, so that will be in place. We are 
always balancing two things. Our trains--we don't have enough 
railcars. The trains are crowded, so we're balancing having 
enough space versus having bicycles. So we have to be careful 
with that. It's something we're looking at. When the M8s come, 
the new cars come, we are looking at putting in some type of 
racks for hooks for bicycles to get them out of the space where 
people walk or if, God forbid, when we have emergency 
evacuations, which do happen, we can't have bicycles blocking 
the way. So we're doing that. We have had, with mixed success 
in New York, programs to get more bicycle racks at the train 
stations. That's something we talked to the bicycle community 
about, and we are always hoping to figure out better ways to 
get more people to bicycle to the train stations.
    Chairman Dodd. Yeah.
    Mr. Marie. Senator, we are actually, as part of the our 
stimulus monies in the enhancement side actually investing a 
quite a bit in our bikeways and pedestrian walkways to improve 
conductivity to our stations. We need to do more at our 
stations to be able to give bikes the opportunity to park 
there, have people park their bikes there.
    As Howard mentioned, equipping the M8s, the M8 fleet, the 
new fleet coming in, with bike racks makes a lot of sense. It's 
not just Connecticut or New York that has the issue of this 
balance between allowing bikes at all times. You know, just 
about every new system that's opened up in the last--even a new 
commuter system or light rail system that's opened up in the 
last 20 years has fought this sort of the battle between 
allowing bikes during rush hour or the rush hours, as they are 
now, and having enough space on the train.
    So typically policies around the Nation have reflected that 
not allowing bikes during this sort of peak of peak rush hours, 
but allowing them off peak. So that's those are the types of 
things we are exploring now with Metro-North.
    Chairman Dodd. It almost seems to be counterintuitive. It 
seems that the time you want people during the rush hour so 
they are utilizing the alternative means of transportation.
    Mr. Marie. Yeah.
    Mr. DeStefano. So we expect next year to have bike stations 
where you can rent bikes at about five locations around the 
city. Washington is doing it, Velebs from Paris type of deal. 
So we think that's a good way to complement--one of the 
stations would be at Union Station. And the way transit systems 
can support that it can be one of the sponsors of that, right, 
Joe?
    Mr. Kilcoyne. And we do have bike racks on all of our 
buses, and they are all well used; and when we opened up the 
intermodal terminal in downtown Bridgeport, the bike racks we 
put there were almost immediately filled up so, you know, we 
can put another bike rack out there now.
    Chairman Dodd. John, do you have--Ron was talking about 
incentives as well, and I wonder if you have any thoughts on 
the incentivizing investments at the local or State level as 
well in this area.
    Mr. DeStefano. You know, look. Local zoning in this State 
is insane because of the way we do it and it's just--it is 
counterproductive and, most frankly, the thing that could be 
done is when you send your money, when Congress sends its 
money, it insists we have plans of development that support 
corridor developments. I go back to it. The point is exactly 
correct that everyone's made up here, does increase value along 
the line, and it also has to do with development.
    So for instance, the Federal government owns a lot of 
property around these train stations. Give you an example. 
Brewery Street Post Office here in New Haven. It's an outmoded 
asset, and it would be a shame if ConnDOT used it, for 
instance, for parking for its employees rather than build a 
parking garage rather so----I mean, you know, you can come up 
with a plan where you can see it would be good to help get 
funding for a parking garage for the rail yard, and we've got 
this incredible asset of land overlooking the harbor at the 
intersection of I-95 and the rail service, and it's just smart 
land use.
    Chairman Dodd. Yeah. Those are good suggestions. Let me ask 
in general do you have any questions at all you want to raise? 
Mitch, do you have any questions?
    Mr. Warren. No. I think if you want to talk about how we 
can specifically incentivize, follow-up with the mayor's point 
about incentivizing transportation-oriented development.
    Chairman Dodd. Well, that was sort of the question of just 
incentivizing things you've done, actually, John, in town, and 
that is incentivizing by developing, at the local level, the 
bikeways and so forth, encouraging people to utilize 
alternative means of transportation within the community 
itself, and I think that's very important. It compliments what 
we're trying to do, so it isn't a question of Federal dollars, 
but it can occur locally. I thank all of you, and we can spend 
all day with just this paneling, but we have a second panel I 
want to hear from as well on some of these issues.
    We'll stay in close touch with you and I'm very interesting 
ideas. Ron, you made some very good suggestions as well, and 
I'm going to want to prioritize. We're not going to have--it's 
going to be a battle already because of the deficits. I've 
mentioned in the Highway Trust Fund, and the historic battles 
between highway and transit, and obviously there are needs in a 
lot of areas, but I really look forward to this being an 
opportunity to break some new ground, and that's why I want to 
call it the authorization not the reauthorization.
    I mean, again, if we are relying just on gasoline tax 
revenues and States that have more gasoline tax revenues get 
more dollars, you just again have the self-fulfilling prophecy 
as to where all this ends up, and at a time where we're trying 
to move away from one alternative and I, again, as I mentioned 
in my remarks, in 1950s the interstate highway system did a 
remarkable job of increasing economic development in the 
country and without it, I don't know--we would be a shadow of 
ourselves economically.
    But I think we've arrived at a time when we need to 
recognize, as well, how important the role of transit can play 
in exactly the way the highway system did 50 years ago. In 
fact, if we don't do that, I think we leave ourselves--just to 
get the hours lost with people sitting in traffic, the amount 
of gasoline being used and fuel oil, the carbon footprint, all 
of the issues that people raise independently; and one of the 
reasons I suggested that they form in the White House a task 
force on sustainable development with the Secretaries of 
Housing, Transportation, Energy and Environment to be the core 
of it, and I'm going to have a hearing in fact with all four of 
those secretaries to come and talk specifically with how they 
interrelate with each other.
    In the past it's been a stovepipe approach where each 
department sort of deals with its own issues without thinking 
about the impact on the others, and so to get a real 
coordinated effort--and to the credit of the Secretary of 
Housing, he and Ray LaHood have actually formed a dual task 
force with Housing and Transportation, going to your point, 
John, about sustainable development and land use as we move 
forward. So we look forward to working with you very closely on 
all of this and I, again, thank you immensely for coming to 
spend the time and share some thoughts with us.
    Mr. Kilcoyne. Thank you.
    Chairman Dodd. Thank you. We'll move to our second panel as 
our first panel leaves, and I'll ask them to join us at the 
table here. First witness is Jim Butler, who is the Executive 
Director of the Southeastern Connecticut Council of Governments 
for the past 10 and a half years, and part of that he was 
employed with the Town of Groton as Director of Planning for 11 
years.
    Then we'll going to hear from Karen Burnaska, who is the 
coordinator for Transit for Connecticut, a coalition of 
statewide organizations dedicated to improving awareness of the 
benefits of increased bus transit, advocating increased use of 
bus services, also a member of Connecticut's Transportation 
Strategy Board and cochair of the Coastal Corridor 
Transportation Investment area.
    The third witness is Phil Madonna, who is the financial 
secretary of the Amalgamated Transit Union Local 281. Prior to 
his employment with the ATU, Mr. Madonna worked for CT Transit 
as a maintenance technician for 26 years.
    And last, we'll hear from Eric Brown, who is the associate 
counsel at the Connecticut CBIA, Connecticut Business and 
Industry Association. His primary responsibilities involve 
developing policy positions on environmental, transportation 
and land use issues for CBIA, so we welcome Mr. Brown, and 
thank you as well, thank you, all of you, for joining us here 
this morning and I hope I haven't overstayed--we are trying to 
move along, and not have people--as I said, we can spend all 
the time just with one panel or the other. So I am very 
grateful for all four of you to provide some background and 
ideas as we go forward with a major, I hope a major transit 
effort as part of the Surface Transportation Bill. So we'll 
begin, I think, with you, Mr. Butler.
    Mr. Butler. Good morning, Senator.
    Chairman Dodd. Good morning.
    Mr. Butler. Nice to see you again.
    Chairman Dodd. Bring those microphones closer. Again, 
people are having a hard time hearing in the back. Nice to see 
you again.

STATEMENT OF JAMES S. BUTLER, EXECUTIVE DIRECTOR, SOUTHEASTERN 
               CONNECTICUT COUNCIL OF GOVERNMENTS

    Mr. Butler. The Southeastern Connecticut Council of 
Governments for which I work represents 20 municipal in the 
southeast corner of the State where the region's metropolitan 
planning organization, which under Federal Surface 
Transportation law, makes us responsible for transportation 
improvements within our region. Thank you for convening this 
hearing in Connecticut, and for having me to participate a 
witness.
    I have been ask by your staff to provide prospective on a 
number of mass transportation issues facing our region. While 
our region is particularly well served by highways, 
southeastern Connecticut and somewhat transit poor. That this 
is the case as a function of history, geography, and our 
population density. However, times are changing, and over the 
past 20 years there has been an increasing demand for more 
transit service to, from and within southeastern Connecticut as 
two of the world's largest gaming facilities were constructed, 
new shopping centers and subdivisions built, roads became 
congested, and fuel prices began to increase.
    Traffic on some of the region's major State highways is 
increased by as much as 150 percent depending upon the 
highway's location, and in certain times of day or in a 
particular season a significant number of our region's roads 
are congested to the point that the amounts of traffic they 
carry exceed the capacity of the road. All this means that the 
region needs more transit; and while southeast area transit, 
our region's bus provider, capably serves it is nine member 
towns, it is a small system with low service levels that 
primarily serve the region's transit-dependent population, and 
is not considered a viable option by those who still can afford 
to travel by private automobile.
    Both casinos do offer privately operated transit 
alternatives to their patrons, but they still attract thousands 
of visitors daily who travel to the region by automobile at all 
hours of the day and night. The southeastern Connecticut region 
has long been blessed by the location of a number of 
transportation providers in proximity to one another in New 
London. We have called this confluence of modes the region's 
intermodal transportation center where high-speed, 
conventional, rail, ferry service to Block Island, Long Island 
and Fisher's Island, long haul, bus, taxi service and public 
and private parking services all serve the traveling public. 
However, the transportation services are all independently 
opened and operated, so there is little coordination between 
them that could make this a world class transportation center.
    Recognizing this fact, the Council of Governments and the 
Connecticut Department of Transportation initiated a study last 
year that is about halfway complete. They will identify 
physical and operational improvements to tie all these modes of 
travel together making it more convenient and safer for 
passengers as well as recommend transit-oriented development 
opportunities. To compound the fragmented nature these 
transportation services in New London, Union Station, a 
historic and architecturally significant railroad station, 
around which all the modes are located, is privately owned, the 
only privately owned station along the shoreline rail corridor 
in Connecticut.
    This is a problem, because while the current owners of the 
Union Station may wish to see the building remain a 
transportation center, they need to have the building generate 
revenue to pay for capital investments and their ongoing 
operating cost. The Council of Governments has had discussions 
with ConnDOT, and continues to intend to do so about the State 
of Connecticut either owning or creating some kind of public/
private partnership that will guarantee that this beautiful 
building remain a transportation center for many years to come.
    I was very glad to hear you note in your remarks and ask 
questions of Commissioner Marie and others about Shoreline 
East. Shoreline East currently operates limited service beyond 
Old Saybrook to New London. Although I live in New London, 
about two miles away from the train station, I bicycled there 
this morning, I had to drive to Old Saybrook, leave my car 
there to take the Shoreline East train to here in New Haven.
    Earlier this year, at the region's urging, ConnDOT 
successfully convinced Amtrak to allow Shoreline East fares on 
some Amtrak trains if a multi-ride ticket is purchased. While 
this is a start, the region is hopeful that ConnDOT will very 
soon implement the, solve the impediments to bring you more 
commuter trains to and from New London.
    In an editorial in the Day newspaper this past Sunday, 
ConnDOT Commissioner Marie was commended for his efforts toward 
this end and the region is grateful. But the region will 
continue to urge the State of Connecticut to reach an agreement 
with the marine interests concerning the requisite bridge 
closings and negotiate with Amtrak, the owner of the rail line, 
concerning the upgrades required to accommodate additional 
trains on this stretch of track. The southeastern Connecticut 
region needs, deserves and warrants train service commensurate 
with it with Metro-North service that ConnDOT provides for the 
southwest corner of the State, because region's tourism base is 
vital to the health of the State's economy.
    In 2005 our Council of Governments completed a study, which 
we called Intermodal Connection Study Southeast, fancy name for 
a proposed tourist transit system. This study developed a 
business plan for a high quality, dependable, seamless bus-
based transportation system linking rail, ferry and buses to 
the region's major tourist centers. A market analysis and the 
interpreted results of visitor surveys conducted during the 
course of this study, projected that enough visitors would use 
the system to make the investment in the system pay for itself.
    The study concluded that more people would visit region, 
the length of stay would increase, and people would visit more 
attractions if these linkages were better. A ridership of 
between 1.7 to 3 and a half million people annually was 
forecast. Because a major beneficiaries of the system, the 
casinos and the other major tourist attractions in Mystic, 
could not easily be convinced to pay for the system's $30 
million startup capital costs and annual operating costs of 
around $7 to $8 million. The study recommended that conduct of 
a 2-year pilot demonstration project to show the potential 
funders of the system that it would be successful. This pilot 
project would cost $12 million dollars over 2 years in 2005 
dollars.
    The Council of Governments remains convinced that the 
proposed tourist transit system would be well used and 
contribute significantly to improving our region's 
transportation system. To date we have been unsuccessful in 
identifying the full $12 million needed for ConnDOT to pilot 
the system.
    How would we improve the transportation system in 
southeastern Connecticut? Based on my previous comments, it 
should be clear that our region is very desirous of increased 
transit service in southeastern Connecticut. Our Council of 
Governments and the region's bus transit provider SEAT are now 
having discussions about how to expand service beyond the nine 
member towns that constitute SEAT. It is hoped that our study 
of the region's intermodal transportation center in New London 
will result in improvements that will allow even more 
passengers to travel into, out of, and through the region 
safely and efficiently.
    The full extension of Shoreline East in southeastern 
Connecticut will provide travelers to and from the region, an 
alternative to an increasingly congested I-95. And if the 
tourist transit pilot system project could be funded, we are 
convinced that those private businesses that would benefit from 
its operation would step up to the plate and pay for it similar 
to what L.L. Bean does up in Maine. But all of these transit 
improvements cost money; more money than the State of 
Connecticut can apply to just one of its 15 regions.
    So I guess the bottom line is the best that we can do is 
continue to plan, advocate, and provide support for the 
region's needs all the while being patient until such time as 
funding does become available to create a better and more 
transit-oriented transportation system in southeastern 
Connecticut. Thank you again for this opportunity, Senator.
    Chairman Dodd. Thank you very, very much, and I said that 
we want to help in any way we can on the Shoreline East and 
when you get to the point of--because the marine interests are 
not insignificant and obviously it is a major part of our 
economy as well, and so we want to work with them very 
carefully, particularly during their peak seasons. It's 
important to them. So let us know what we can do as well to 
help coordinate that effort----
    Mr. Butler. Thank you, sir.
    Chairman Dodd. ----so we can move through that. We 
appreciate you being here. And I remember having been involved 
years ago, we almost lost that train station in New London. It 
was a very close vote, more than 25 years ago, to actually tear 
at that building down, which would have been a great loss, an 
architectural gem, and by a very narrow vote, I forget the 
exact vote, of the City Council, they decided to keep the 
building, and as a result, we have a fabulous piece of 
architecture in New London. Almost it's--it's kind of almost a 
defining piece of architecture for New London in many ways, so 
let us know if we can be of help to you as well.
    Karen, thank you very much for joining us.

     STATEMENT OF KAREN BURNASKA, COORDINATOR, TRANSIT FOR 
                          CONNECTICUT

    Ms. Burnaska. Thank you. It's my pleasure, and as Ron 
mentioned, I am the coordinator of Transit for Connecticut, 
which is a statewide coalition of environmental, business, 
social service, planning, transportation organizations 
dedicated to increasing awareness of the benefits of bus 
transit and advocating increased funding for bus transit; and 
on behalf of the coalition, I thank you for inviting me to 
testify today.
    Chairman Dodd. Thank you for being here. Speak up, too, 
Karen, if you can, so the people can hear you in the back.
    Ms. Burnaska. OK. I am going to use an analogy that I took 
from a gentleman in Norwalk that Connecticut's transportation 
system is like a three-legged stool. The three legs are roads, 
rail, and bus. All three are needed for a balanced system and 
all three are in interconnected. On behalf of Transit for 
Connecticut, and with the support of One Region Fund, we 
completed the Bus Needs Analysis Study in 2007. That study 
detailed the benefits of the bus transit and also proposed an 
investment plan that would increase bus transit usage in 
Connecticut by 80 percent.
    This study gave various ways to increase bus transit 
service, increase hours of frequency, increase express bus 
service, increase interregional service, paratransit and demand 
response service, and also increase the connections with rail 
stations; and as I think you mentioned before, people need to 
be able to get to the train station, and when they get to the 
train station, they need to be able to get where they're going, 
and this is a big concern especially when it comes to parking.
    The 2008 study also detailed the many varied benefits of 
transit, and there are many benefits. The economic benefits. 
Transit provides access to jobs and a larger labor pool for 
employers to choose, and this is very important especially when 
looking at first time entry level positions and in the very 
congested conditions in southwest Connecticut.
    Better bus connections enhance the State's investment and 
the Federal investment in rail and multi-modal systems. There 
are significant financial savings for households who choose 
transit over a private automobile, and studies show that every 
dollar invested in transit yields $3 in economic benefits. 
There's also numerous environmental benefits.
    Increased bus transit reduces highway congestion. It 
decreases fuel consumptions, and it fights global warming 
pollution. It also reduces toxic diesel soot through clean 
vehicle technology, and it supports responsible growth around 
stronger transit centers and it fights sprawl. And as an added 
benefit to all of that, transit helps people of all ages. It 
increases mobility and choice for existing and new bus 
customers, nondrivers, the elderly and the disabled. It 
increases opportunities for better jobs as well as access to 
more medical, education, recreational and other specialized 
services. Bus transit/paratransit service, can reduce 
healthcare costs as seniors are able to age in place and remain 
in their homes.
    During this difficult financial time public transit is 
needed more than ever. Using transit provides direct savings to 
residents of the State. Individuals can save money by using 
public transportation instead of a private automobile. 
According to APTA, the American Public Transportation 
Association, households can save up to $8,700 annually by 
switching to public transportation. Employers who offer free 
parking could save more than 750 per parking space if it's no 
longer required, and people don't have to drive to work.
    According to Governor Rell's budget summary for 2003 to 
2005, for each elderly individual that can age at home instead 
of a nursing home because of the mobility and access to 
healthcare furnished by public transit, the State of 
Connecticut saves 3,500 to $4,000 per month. In addition, 
congestion costs commuters in Connecticut's urban areas between 
$340 and $590 per traveler in 2005, and that number represents 
additional fuel costs and the extra costs of travel time.
    In addition, lower levels of traffic may allow the State to 
save money through less expenditure related to road repair and 
maintenance as well as enforcement of traffic laws, and society 
as a whole benefits from lower levels of pollution and 
greenhouse gas emissions. A figure that we commonly use is a 
medium size car with an average mileage of 21 miles per gallon 
driven 10,000 miles a year produces five and a half tons of 
carbon dioxide emissions a year.
    In order to achieve the benefits of increased bus transit, 
an investment of capital and operating funds is needed. To 
achieve an 80 percent increase in bus ridership, Transit for 
Connecticut recommends, and this is as Ron Kilcoyne had 
previously said, $215 million in capital expenditure and an 
increase of $63 million in operating funds. While capital funds 
are needed to purchase rolling stock, improve facilities and 
shelters, upgrade communication systems and fare boxes, 
operating funds are critical to putting vehicles on the road 
and providing necessary service. A dedicated, reliable funding 
source is needed for all transportation projects if Connecticut 
is to achieve a 21st century transportation system and move 
forward, and assure that all three legs of our stool provide 
the necessary mobility for residents.
    I just would like to comment. This is not in the testimony, 
written testimony. What Mayor DeStefano had said is there 
really is a need to--although there is funding needed, and it 
always comes down to the money, funding is necessary, both 
operating and capital, so that the State can plan how it will 
prioritize its expenditures. They do need to look, as he said, 
at transportation corridors, see what growth they want, the 
State, what is best for the State in those particular 
corridors, determine the transportation investment needed, how 
much it will cost, and then be able to prioritize. But I look 
forward to continuing this discussion, and I thank you very 
much for your time and consideration.
    Chairman Dodd. Thank you, Karen, very, very much. Phil, we 
welcome you. It's nice to have you with us.
    Mr. Madonna. Same here.
    Chairman Dodd. If you can speak into that microphone, too, 
Phil, I would appreciate it.

  STATEMENT OF PHILIP MADONNA, JR., CHAIRMAN, ATU CONNECTICUT 
               STATE LEGISLATIVE CONFERENCE BOARD

    Mr. Madonna. OK. Mr. Chairman, I want to thank you for the 
opportunity to testify on behalf of the Amalgamated Transit 
Union. The ATU represents more than 2,000 workers in 11 cities 
across the State of Connecticut. Given the financial crisis 
facing transit systems used by Connecticut residents as well as 
others across the Nation, I would like to focus my remarks on 
funding issues and would respectfully request that my entire 
written testimony as well as the ATU's comprehensive transit 
reauthorization proposal entitled We Can Get There From Here, 
be made a part of the record.
    Chairman Dodd. It will be made part of the record. All of 
your documentation, I think, will be helpful.
    Mr. Madonna. Thank you. Record high gas prices in 2008 
caused millions of people to try public transit, and despite 
the recent drop in the price of the oil, many transit system 
continue to report capacity issues. Yet ironically, at a time 
when Americans are leaving their cars at home like never 
before, transit systems are being forced to implement painful 
service cuts and fare increases and layoff workers because of 
shortages in State and local revenues.
    In our testimony we cite all the reasons why Federal 
operating assistance is needed to help transit systems stay 
afloat during times like these. Yet ATU is aware of a long 
history of transit operating assistance and the ideological 
battles that have gone on in Congress for many years over this 
issue. Let's leave all that aside for now. Instead, let's talk 
about impact of steep fare increases and deep service cuts on 
working families across the Nation. Let's talk about how much 
of a burden it is for a person with disabilities who is already 
making far less than an able-bodied person to deal with his or 
her paratransit trip more than doubling in cost.
    Fare increases are having a devastating effect on working 
families. Between the increased price of food, healthcare, 
energy expense and other everyday necessities, middle class 
families are getting squeezed like never before, and as if the 
fare increases are not enough, the service cuts may actually be 
worse. Generally when routes get cut, transit systems tend to 
look toward those with low ridership, early morning, late 
night, and weekend service. People who work nontraditional 
hours who have no other means of transportation are 
disproportionately affected. A single mom who now gets her kids 
up at 4:30 in the morning to catch two buses in time to get her 
children to daycare and then herself to work cannot be expected 
to wait an additional hour for a transfer bus to arrive 
standing in the freezing cold with two kids in tow, but that's 
exactly what is happening out there. Our drivers nationwide 
have seen it firsthand. I hope the Members of the Committee can 
see how ridiculous the current situation is. State and local 
tax revenues are weighed down, wildly fluctuating fuel prices 
and insurance costs are busting transit agencies budgets.
    Even if the Federal Government gave Connecticut Transit the 
money to double the size of its existing fleet, it would 
probably have to keep a good portion of those buses in the 
garage. Transit systems simply do not have the operating money 
to run their current fleets. As a result, we are cutting 
service at a time when people are turning to transit in record 
numbers.
    The ATU supports giving local transit systems the 
opportunity to use their FTA funds for operating purposes. At 
the minimum, we recommend that the Committee consider allowing 
fuel and energy costs to be classified as capital expenses. Of 
course, there is more than one way to generate more operating 
assistance for transit agencies. One way, as we already 
discussed, is to change the Federal rules. Another is to 
encourage States and local communities, which bear the bulk of 
the responsibility for funding transit operations, to invest 
more.
    We hope the Committee will give strong consideration to the 
ATU draft bill that would create a flexible incentive grant 
program within FTA. Under this bill if a State increases its 
level of spending on public transportation, then it would 
receive bonus surface transportation funds. States like 
Connecticut that are already investing in transit would do very 
well under this program, and other States that are simply 
building new roads would be encouraged to change their ways. We 
think this approach is an excellent incentive for States and 
local governments to increase their level of transit operating 
expenses so that we can put more service on the streets and 
stop the senseless service cuts, fare increases and layoffs. 
Thank you very much for this opportunity to testify.
    Chairman Dodd. Thank you very much. Good testimony. 
Appreciate it.
    Mr. Madonna. Thank you.
    Chairman Dodd. Mr. Brown, welcome to the Committee. Nice to 
have you with us.

  STATEMENT OF ERIC J. BROWN, ASSOCIATE COUNSEL, CONNECTICUT 
               BUSINESS AND INDUSTRY ASSOCIATION

    Mr. Brown. Thank you very much. We appreciate your holding 
this hearing and inviting us to be a part of discussions today. 
What I would like to do in our brief time is give you some 
context of our involvement in the issue, and share our 
perspective on where Connecticut is at this point in addressing 
its challenges, discuss a little about the nature and cost of 
congestion from our perspective, and some of our views on the 
solutions, and also just comment briefly on the primary 
challenges we see going forward.
    CBI and its member companies have long recognized the 
importance of a safe and efficient transportation system, and 
we have worked with State officials and the legislature over 
many years to achieve that goal. However, it was in 1999 that 
our organization significantly elevated the priority of 
transportation following a meeting of our board of the 
directors with Michael Galice, who had just finished an 
incentive study of Connecticut's transportation challenges and 
the economic peril that our State faced as a result of those 
challenges.
    The report prepared for the Connecticut Regional Institute 
of the 21st Century concluded dire economic consequences for 
our State if actions were not taken to address traffic 
congestion, and to more seamlessly integrate our transportation 
system with regional, national, international corridors of 
commerce. Over the next several years CBI worked with the 
legislature and the Governor to intensify the focus on 
identifying, prioritizing, funding and implementing policies 
and projects to improve our transportation system.
    In 2000, the legislature created the Transportation 
Strategy Board as an instrument to insert more strategic 
economic thinking into our State's transportation planning. In 
subsequent years the legislature and the Governor allocated and 
approved several hundred of millions of dollars for 
transportation investments. These were important and helpful 
measures that have begun to improve Connecticut, and move it in 
a better direction. However, significant challenges do remain.
    In the mid 2000s the failed I-84 construction project along 
Waterbury/Cheshire corridor brought a higher degree of public 
scrutiny upon the operations of Connecticut's DOT. In 2007 
Governor Rell created a special commission to look broadly at 
the operations of DOT, and make recommendations for improving 
the effectiveness and efficiency of the agency. The commission 
produced an outstanding report, among other things, looked at 
what measures other State transportation departments had taken 
to improve their operations. The commission's report was 
presented to the legislature in February, 2008, and provides an 
excellent blueprint for going forward.
    One of the major recommendations of the report was to make 
intermodal travel a high strategic priority. The importance of 
that recommendation is supported by data from the latest report 
of key mobility measures from the Texas Transportation 
Institute's 2007 Urban Mobility Report, perhaps the Nation's 
most comprehensive comparative report regularly published on 
traffic congestion nationwide. According to the report road 
travelers, not just those traveling at peak hours in the 
Bridgeport/Stamford areas, averaged 31 hours of delay each 
year, and that that number was increasing at a ``much faster 
rate'' than similar Metropolitan areas around the country.
    In Hartford and New Haven areas the number dropped to 19 
hours of delay each year with ``much slower growth'' in other 
areas, and I think this speaks a little bit to your point about 
striving for modal neutrality where there's no sort of 
predestined way to go and certain areas of the country or, in 
our case, the State might want to focus resources on one mode 
more than another but there's no, as you said, predestined 
outcome.
    The costs associated with these delays are obviously 
substantial. The report estimates a $78 billion annual drain on 
the national economy. Connecticut undoubtedly contributes 
hundreds of millions of dollars each year to that figure. The 
causes for congestion and its adverse impacts on the economy 
and environment are multiple and can vary in different 
locations. Similarly, there's no one silver bullet to solve 
congestion problems.
    Unquestionably improving mass transit is one piece of the 
solution and Connecticut is clearly moving forward in that 
area. Obviously as with most other strategies for reducing 
congestion, there are significant costs associated with large 
scale transit projects. In addition to infrastructure and other 
capital costs, substantial State subsidies will likely be 
needed to support these projects once completed. CBIA supports 
expanding mass transit where it makes sense and makes the most 
sense to do so.
    Individual corridors and options must be carefully studied 
from a cost benefit prospective to ensure limited but 
substantial transportation dollars go to those projects that 
provide the greatest economic and social benefits. 
Additionally, we cannot become so focused on transit that we 
short shrift our highway and bridge needs. In addition to the 
sobering statistic provided earlier by Commissioner Marie, a 
recent statewide survey of Connecticut businesses found that 
about 70 percent of the respondents said that the most positive 
impact State transportation officials could have on helping 
their businesses would be improving the condition of existing 
roads, highways and bridges or expanding highway and road 
capacity. Expanding mass transit options garnered a 13 percent 
response.
    Going forward, Connecticut needs to closely examine the 
degree to which State funding will be needed to accomplish the 
goal of creating and maintaining a first class integrated 
multi-modal transportation system in Connecticut, and we will 
have to make tough decisions about the sources of that funding 
including exploring opportunities for public/private 
partnerships. We need to do a better job of refocussing our 
transportation planning from an interstate regional perspective 
and more appropriately balance those priorities with project 
lists created by multiple regional bodies within Connecticut 
that are appropriately but more narrowly focused on their local 
transportation needs. We need to rebuild the trust of our 
citizens that money raised for transportation projects will be 
spent on transportation projects, and that those projects will 
be of the highest priority, and will be implemented in an 
efficient and cost-effective manner.
    Under the outstanding leadership of Connecticut DOT 
Commissioner Joseph Marie, we are equally impressed with all 
our dealings with him so far. Working with the Governor, the 
General Assembly, our Congressional delegation, and a variety 
of other regional, national transportation entities, 
Connecticut is moving in the right direction, and we are 
optimistic that the State can one day be the envy of most or 
even all other States with respect to our transportation 
system. We look forward to working with them and the many other 
transportation stakeholders to help realize that vision. Again, 
thank you very much for this opportunity----
    Chairman Dodd. Thank you.
    Mr. Brown. ----to provide testimony and your leadership and 
support of this matter.
    Chairman Dodd. Well, let me just pick up on your last 
point, and I agree with you here where, you know, where there 
are counties in other States of the country that are larger 
geographically than our State. San Diego County is larger than 
Connecticut physically, not to mention the population is 
substantially more than we have, and we are located where we 
are with all of these potential arteries around for us to take 
advantage of the situation. So in many ways we have a wonderful 
opportunity right before us here to connect in a way that 
provides alternative modes of transportation for people, moving 
goods, services, as well as people and, I think, give us a 
chance to become sort of a model while other States could do or 
other regions of the country could do, and many of them are 
moving in the direction.
    I had a conversation with my Senate colleague from Texas, 
Kay Bailey Hutchinson, recently, and she was talking about this 
great interest she has in this, a light or high speed rail 
system between Houston, Dallas, and San Antonio with stops in 
Austin, that triangle, in a sense what a difference that could 
make and go to the point of sustainable development or land use 
development as well where then you'd be talking about a 
concentration of development occurring within that triangle as 
a result of building a mode system to allow people to be able 
to move between those major cities without having to rely on 
major highway construction as well.
    So there are a lot of people out there in places that we 
don't normally associate with transit that are, in a sense, 
thinking very, very progressively and very, very future 
oriented in terms of their needs.
    Let me ask, if I can, and in fact, Mr. Brown made a point 
about regional cooperation. In 1958 or 1959, some 50 years ago, 
Connecticut moved away from county government to city and town 
government, so we have 169 cities and towns in the State. We 
still have eight counties, but their political structure 
there's regional school districts and there's obviously some 
other areas we deal with regionally. We really don't--
Regionalism has not been a major focus of our attention, and 
obviously that's important, and you mentioned that very 
specifically, Jim, in your conversation in talking to us hear 
about a regional approach, and we have a tendency to think of 
transit issues as being sort of a Fairfield County issue in 
Connecticut because of our proximity to New York, obviously, 
and that's an obvious need, and so getting people--and a lot of 
congestion, obviously, on the roads as well.
    How can we better promote regionalism in this subject 
matter? Is this an area that invites the kind of cooperation 
between communities that we haven't otherwise seen in other 
areas.
    Mr. Butler. Senator, if I might, I don't think we need to 
invite it anymore, I think it's insisting on being in the house 
with us, if you will. I think our towns and cities are 
recognizing they need to work together. In fact. Regions need 
to work together. We have a very close partnership, as you can 
imagine, with the Connecticut Department of Transportation, 
because the financial straits we are all in demand that we work 
together now more than ever to see regional solutions happen.
    I mentioned our Regional Intermodal Transportation Center 
Study. The First Selectman of the Town of Bozrah said, ``I know 
that's down in New London and that's 20 miles from my town 
hall, but this is critical for our region'' so they get it. I 
think our chief elected officials get it. Our taxpayers, our 
citizens, our traveling public understand that we need to work 
together and transit and regionalism goes hand in hand, in my 
opinion.
    Chairman Dodd. Well, the fact you have--just with the 
Southeastern Connecticut Council of Governments, the fact that 
we are having these regional Council of Governments, I think, 
just speaks to that issue as well and chambers now, as well. 
There are communities that have their own chambers. There are 
more and more of them are region chambers as well, you're 
seeing that, so there--the incentives in the business community 
are there as well.
    Mr. Brown. There are certainly, Senator, but I would 
mention that while I think you comment regionalism has gotten 
kind of short shrifted, this year at the legislature up in 
Hartford it's a very high priority issue. There was, as you may 
know, a smart growth work group that went on over the last 
year, very broad cross-section of stakeholders, and there is 
very strong consensus that legislation is needed this year, and 
there are several bills out there that will incentivize 
regionalism within the State. So I think it is getting good 
attention this year.
    Chairman Dodd. That's good. Well, one of the things we 
discovered, I think a lot of communities are discovering the 
affordable housing, for instance; that they are discovering 
that people who would be or people who want to work in the 
trades and so forth that every community needs are finding it 
harder and harder to afford to live in communities, and also 
they discovered that carpenters and the plumbers and the 
roofers and other people that can sustain and maintain a 
community and its needs, no longer can afford to live in these 
communities.
    We have the highest rate of young people exiting our State 
of any State in the country because of cost, and so all of 
these issues really, I think, are causing people to think anew 
about housing needs, job creation in the future, so it speaks 
to it in many, many ways. In getting people off the roads, 
Karen, you spent a lot of time on all of these issues, and I 
think as someone pointed out earlier, even as gas prices 
dropped, this may have been Joe Marie mentioned this, I think, 
that even as gas prices came down--I think we all accepted the 
notion last summer, when the gas prices went to $4.50 or so a 
gallon, that people had no choice but to opt for a transit 
option given the impact financially on them. But even as those 
prices came down, ridership was maintained; that people didn't 
revert back to their own automobile. They now discovered that 
it wasn't, this wasn't a burden; that it was actually pleasant. 
It was fast. They were able to engage in other activities that 
they normally wouldn't be able to do if they were alone in 
their automobile. So it became sort of an attractive idea.
    But what do we need to do, now that gas prices are down 
again, but obviously it can go back up again very quickly, how 
do we encourage more public use of transit? How do we get 
people to be willing to try this in the absence of the kind of 
economic incentive we saw last summer?
    Ms. Burnaska. In order to get people to use transit, it has 
to be convenient, reliable, and safe. It has to get people to 
where they want to go, when they want to be there, and that 
means increasing the service I think the transit districts in 
the State, and CT Transit, have been very good at even with not 
having increased operational funds. They look at where the need 
is, and they move their routes around to try to meet the new 
demands of the workforce.
    And as I believe one of the speakers mentioned earlier, we 
don't have people who just work 9 to 5 Monday through Friday 
anymore. We have people working at night, and working on 
weekends, and those are the people we have to also service. But 
in order to increase service and I do believe you're right, 
when the gas prices went up, some people who might never have 
thought to get on a bus before have used it, and some of the 
commuter shuttles and the express bus routes into Hartford, 
where most have even seen more than a 5 percent increase--have 
seen a huge increase in ridership--and I think when people do 
get on them, if they can get them where they want to go and 
when they want to go there and they are reliable, people will 
use them.
    In many cases they are not as convenient as an automobile, 
but they do save them money over gas, insurance, parking. I do 
believe you need to improve and increase the frequency of the 
service in order to get more people to use it.
    Chairman Dodd. You know, Mr. Brown, I spent part of this 
past week, I was at Pratt & Whitney, the news up there about 
the F-22. I was at Sikorsky yesterday. These are now places 
where Electric Boat in Groton, but at Sikorsky and Pratt & 
Whitney there's a lot of employment. In fact, we have some 
relatively good news about it looks like things may be fairly 
stable for them for at least the next several years because of 
the announcements on defense work, but very crowded parking 
lots in these facilities, and I'm wondering if any thought has 
been given, by some of our larger private employers, about 
providing kind of bus, bus services coming out of the commuter 
parking lots and so forth. There's a way of--is that a cost 
factor?
    I was just looking at just the amount of land used just to 
accommodate the parking vehicles of employees and there, by the 
way, I'm thinking your point, the three shifts, there at 
Sikorsky they have three very active shifts going. So the idea 
of, obviously, a third shift gets, raises all sorts of 
complicated issues in terms of transit questions. But I wonder 
if there's been any thought or any discussion, I was wondering 
whether anyone looked at the economics of that from a business 
perspective as to whether or not providing their own private 
means of transit for employees has any benefit to the business 
involved.
    Mr. Brown. Right. Well, I know, for example, again, back in 
Fairfield County, some businesses have initiated their own 
service to connect their company with mass transit modes, train 
stations and so forth. There were some tax incentives available 
for doing that. I believe they went away, and I don't think 
they've returned. So, I mean, obviously that's--and it's a 
tough time to be doing that, but there has been strong interest 
in that in terms of connecting modes of mass transit.
    In terms of, you know, the place up in Windsor or something 
where you're, you know, trying to more go out into the 
neighborhoods and pick up people in their neighborhoods, I 
don't know empirically if any studies have been going on that. 
My sense is I think our data shows that, you know, people are 
pretty spread out, and live in a wide range of distances from 
there. As a matter of fact, I think I saw that 10 percent of 
employees in Connecticut come from, commute to other States, 
Massachusetts, Rhode Island, New York.
    So we do have that spread out mentality, and so I would 
imagine it would be a challenge, but certainly in some ways 
and, again, if it makes economic sense to do so, and for 
hanging onto good employees and so forth, I think you're right, 
businesses should look at it. They are looking at things like, 
you know, telecommuting and, you know, trying to be more 
flexible, and there are tax incentives for employers that offer 
employees, you know, for mass transit, to help supplement their 
mass transit costs. So there is some of that, but I agree, it 
needs to be----
    Chairman Dodd. That's an interesting, just, observation. I 
think you're probably right that people are spread out great 
distances, and just isn't necessarily absolutely convenient. 
But it just occurred to me I looked at how much land use and 
your statistics on the cost per parking space and so forth in 
terms of just economic growth and development or expansion, 
needs and so forth, I just question--that's interesting.
    Mr. Brown. I think as mass transit develops further, for 
example, New Haven, Hartford, Springfield rail, you'll see an 
expansion of that idea of connecting businesses with modes of 
mass transit.
    Chairman Dodd. That would make a lot of sense, yeah, 
obviously, as well.
    Ms. Burnaska. If I may, Pitney Bowes in southwest 
Connecticut, Pitney Bowes does run a shuttle from the Stamford 
rail station to its office, and there is a lot of cooperation 
with the Norwalk Transit District, who over the years, and I 
just pulled out some statistics in case you might ask, is that 
this the Norwalk area between 2007 to 2008, 275,000 commuters 
were shuttled back and forth, and this happens and there's 
shuttles--this is a rail station shuttle. It's not all 
supported by businesses, but some businesses are looking into 
it in Norwalk, Bridgeport, Fairfield, Stamford; for Shoreline 
East in Hartford, New Haven, Derby, and Danbury.
    So that is one thing I believe that the transit districts 
and the State is looking at in conjunction with businesses on 
how to alleviate the overcrowding at many of the parking areas 
of train stations.
    Chairman Dodd. I thought that our witness from Bridgeport 
talking about a number, it was a stunning number to me. Was it 
like almost like 30 or 40 percent of the population lived 
within a mile of where they worked and yet there aren't--there 
really isn't--there is no capacity to walk to get to your job, 
and that in itself seems----
    Ms. Burnaska. That is true and in Bridgeport--I don't know 
if Ron is still here--I believe 30 percent of his bus riders 
leave the bus and go to the train station to take the train to 
where they work so--and that the access to bus routes, though, 
in these cities that do have bus, a good bus service, is 
difficult, and that's why they are looking at more of a 
complete streets type of legislation with street coming in to 
allow bike lanes and sidewalks in areas and better access to 
transit.
    Chairman Dodd. Mr. Madonna, you've spent a lifetime in this 
business and industry.
    Mr. Madonna. Yes.
    Chairman Dodd. And 26 years, I think, is the number I 
recall saying you worked in the business.
    Mr. Madonna. Yes.
    Chairman Dodd. Tell us any thoughts you have on this, on 
increasing ridership, what needs to be done, how can we do a 
better job. Obviously there are financial questions, the 
operating costs, capital, I accept all of that, but beyond 
that.
    Mr. Madonna. Yeah, I agree with Karen. It starts with the 
service. You know, you're asking people to get out of their 
cars and get on the bus and come to work, and they need to do 
that conveniently. You don't want to add an hour in the morning 
and an hour in the afternoon to their day, and it's just not 
convenient. If you have the type of service that people can get 
to work within a reasonable amount of time, then you could 
start incentives for people, employer/employee incentives where 
maybe the employer could pay for half of a monthly bus pass, 
tax incentives, things like that and, you know, if you build 
it, they will come, you know, but I think it has to start with 
the improved service.
    Chairman Dodd. As well, I agree with that. Mr. Brown, do 
you have----
    Mr. Brown. Related to that, sort of the flip side of the $4 
gas price, getting people onto mass transit, I think it was the 
Dallas system that 15 when it was new, they decided for a 
certain period of time, it may have been as little as a week or 
two, to let people ride it for--it was free, wasn't it, yeah, 
for free, just to give people to say, you know, what I'll give 
this a shot and, you know, and a certain percentage of those 
people are going to stick with it so you have to think 
creatively like that, too.
    Chairman Dodd. You found out you can read that morning 
newspaper, and all the things you can't do on your own.
    Mr. Madonna. At CT Transit several years ago we had a tri-
transit--I think it was a day or a weekend. You got a voucher, 
and you got to ride the bus, and I think if you have incentives 
like that, but maybe give people a voucher for a week, they can 
really see how much money they can save by parking their car.
    Chairman Dodd. Yeah.
    Mr. Madonna. You need to get them--you need to get the ball 
rolling by getting them to get on the bus.
    Chairman Dodd. Yeah, and then it does become contagious 
even. If someone hasn't tried it, they see someone at work who 
has. This is pretty 16 good. It works well. I will got home on 
time. I got to work on time and, you know, sometimes it spreads 
as well. Well, I raise the issue of the--I don't know if CBI, 
if you prioritize any of these transit issues. They obviously--
the Shoreline East is very important to southeastern 
Connecticut to complete New London and Old Saybrook. The big 
one, obviously, for many us is this New Haven to Springfield, 
which is regional. Again, given the density of the population 
of that corridor and obviously doing what we can Metro-North 
and so forth makes some sense as well. Is there a priority 
sense that CBI has in any of these projects? Have you taken 
such a position?
    Mr. Brown. Well, we really haven't, to answer your 
question. We try not to get into the argument which project is 
more merit than another. What we push for is that there be 
some, and preferably as objective as possible, priority 
analysis, so whether it's using like economic models like the 
REMI model or whatever. What we've tried to do is to push for 
policies that kind of take some of the politics outs of it and 
say listen. From a purely economic and social benefit 
standpoint, you know, this project ranks above the next one; 
and whatever that is, we're for it as long as long as that 
prioritization took place. But we don't generally get in the 
business of, you know, picking one project over another.
    Chairman Dodd. I urge you to look as well--I mentioned 
before this infrastructure bank idea, which is we spent a lot 
of time trying to develop this idea. I tell you a quick 
anecdote. Bob Carey, Chuck Hagel, rather, and I from Nebraska, 
he just retired from the Senate, my Republican colleague from 
Nebraska, we were cosponsors of this idea, and we did all the--
we did 2 years of work in developing the idea, and we were 
deciding when to announce it, and Chuck Hagel, Senator Hagel 
came and said, ``Well, let's announce it--'' It was like the 
first week in August, 2007. I said, ``If we announce this in 
August, no one in the world will even pay any attention to this 
at all. Just no one will come, and you'll end up with maybe two 
reporters that will cover this 2-year effort we put into 
this.'' Well, he said, ``I would rather get it done now than 
rather wait until September.''
    So he prevailed in the argument, and we had the press 
conference and I was right. In fact, I was wrong. We didn't 
have two. We had one reporter show up to cover this wonderful 
idea we had spent so much time developing. That was at 10 
o'clock in that morning. By 5 o'clock that afternoon Senator 
Hagel and I were probably on every television set in America, 
because at 4 o'clock in the afternoon the bridge over the 
Mississippi collapsed in Minneapolis, and I forget how many 
people died, I think 19, something like that, people died, a 
hundred more were injured, and all of a sudden infrastructure 
was a major subject matter that evening and for days 
afterwards.
    You may recall people running around in every State 
determining whether or not the bridges were safe, the roads 
were safe, and everything else. So obviously if we had waited 
until September, we would have been accused of pandering 
responding to that situation than by having announced this 
thing 6 hours before it occurred. We looked as though we were 
onto something. I would urge you to take a look at this.
    We are trying to get more people more interested in this 
idea of being creative, how we can finance and fund, whether 
it's operating, in this case, capital expenses, in ways that 
are just not going to be available to us. We all know what kind 
of condition we are in economically. We know the investments 
being made to try and get the economy moving again. They are 
already going to put us behind substantially, and I'm one that 
believes these investments make sense at this point to try and 
get the economy moving.
    Nonetheless, they are going to put tremendous pressures on 
us to make investments in the coming days. So we need to be far 
more creative and imaginative if we are going to have any 
economic growth. If you can't make investments in human 
infrastructure and physical infrastructure, whether it's 
education or transit systems, the subject matter this morning, 
then that ability to grow in the 21st century is going to be 
severely curtailed by it.
    So this is one idea. There may be many others out there, 
but I would invite your attention to you to look at it and let 
us know, particularly CBIA would be interested and your 
thoughts on it. We have had testimony, Phil from organized 
labor and others, and the national Chamber, by the way, has 
taken a strong position in favor of it. So we have had a rather 
interesting collection of people testify before the first 
hearing I held on the subject matter endorsing this idea of 
leveraging private capital with public dollars to see if we 
couldn't get some of these efforts underway, and get over at 
least some of the hurdles, the financial hurdles we face. So I 
invite your attention to that.
    I want to thank you all. Listen. Can--again, we spent a lot 
of time on the subject matter, but you're helping us build a 
case and some ideas and thoughts, and I kept on used the line 
if they build it, they will come, and I was going to use that 
line with the Shoreline East, because I know one of the 
concerns we have is there enough ridership that will support 
that addition between New London and Old Saybrook; and I 
believe, again, if you look--like today, if you ran the first 
train tomorrow and said we are going to determine the success 
and failure on what happens in the first week, you might not 
get it. But if you build it, they will come, in my view, and 
you're seeing that kind of development.
    And what I find interesting--I don't in you paid as much 
attention, but to the point we're getting as much traffic going 
from Stamford east as you would normally think everyone is 
heading west to New York, so you're getting a lot of traffic 
and now with Pfizers in Groton, of course, and the work at 
Electric Boat and others, there's a lot of economic development 
not to mention, of course, the casinos, and that part of the 
State that are also attracting a lot of population movement. So 
I think there's a good argument to be made if we get this 
moving, it will really provide some real relief as well in that 
corridor.
    I thank all four of you. You've been very helpful to have 
your testimony, and I appreciate our audience that stayed 
around. I look out, I see some real people that have forgotten 
more about this than I'll probably ever know in the area of 
transit, and I appreciate their patience and participation here 
as well. We'll leave the record open. I'm going to make sure my 
other colleagues on the Committee, they may want to submit some 
questions to those of you as well. So we'll leave it open for a 
few weeks, and we'll submit some questions to you, if that's 
the case. I want to thank my staff. I want to thank Mitch 
Warren, who does a great job. Dawn, I thank you as well, and 
the clerk for the Committee, and Shannon, we thank you very, 
very much, a North Carolinian working for my colleague in 
Alabama so--you've been with him how many years now seven?
    Ms. Hines. Nine.
    Chairman Dodd. Nine years been with the Committee, and does 
a good job as well. We thank her for participating and with 
that, the Committee will stand adjourned. Thank you.
    [Whereupon, at 12:15 p.m., the hearing was adjourned.]
    [Prepared statements supplied for the record follow:]
               PREPARED STATEMENT OF JOHN DeSTEFANO, JR.
                                 Mayor,
                         New Haven, Connecticut
                             April 16, 2009
    Chairman Dodd and honorable Members of the Committee, my name is 
John DeStefano, Jr., and I am the Mayor of the City of New Haven, 
Connecticut. I am honored to appear before you today to share my 
insight on climate change and transportation, as these pressing matters 
relate to the future economic standing of the Nation, to the 
environmental health of the States and to the overall quality of life 
for our citizens. This is an opportunity to share with you the New 
Haven experience and to make a case for national support for an 
integrated and sustainable transportation framework.
The Situation in New Haven and Connecticut
    Connecticut's land use pattern is in many ways typical of the 
national experience. Central cities grew dramatically with the 
Industrial Revolution. Over time, however, residents settled further 
and further from the central core--first to suburbs, then to so-called 
``Edge Cities'' and even to exurbs. Over 80 percent of Connecticut 
workers now drive alone to work and overall vehicle miles traveled on 
Connecticut's heavily congested local roads increased nearly 50 percent 
from 1986 to 1995. \1\ From a climate change perspective, the 
cumulative effect of our land use decisions is staggering: 
transportation accounts for 40 percent of the Connecticut's greenhouse 
gas emissions. \2\
---------------------------------------------------------------------------
     \1\ Connecticut Economic Vitality and Land Use. Rep. New Haven, 
CT: Connecticut Regional Institute, 2003.
     \2\ Connecticut Climate Change: Working Together for a Climate We 
Can All Live With. July 2006. CTClimateChange. 15 Apr. 2009 http://
www.ctclimatechange.com/documents/FinalCT-2006-Inventory-V5.pdf.
---------------------------------------------------------------------------
    In New Haven, I am pleased to report a far more positive story. 
Over the past decade, New Haven has made great strides with dramatic 
improvements in the health of the city. Community indicators ranging 
from public safety to education and from economic growth to quality of 
life indicate positive change and long-term sustainability. The 
Downtown remains strong as evidenced by the 500-unit transit-oriented 
residential development now under construction at 360 State Street.
    Sustainable transportation systems are one of many factors 
contributing to New Haven's success in recent years. More people live 
in Downtown New Haven than in the downtowns of many larger cities, 
including Denver, Detroit, and Charlotte. \3\ Nearly half of the city's 
population does not drive alone to work; and, by percentage, more 
residents walk to work here than in any other New England city, 
including Boston. \4\ We have two passenger railroad stations and a 
major public bus system and many New Haveners simply do not need or 
want to own a car. Rather, on any given day, you will see cyclists, 
motorists, and pedestrians all sharing city streets in an ever more 
appropriate balance for a community street.
---------------------------------------------------------------------------
     \3\ Comprehensive Plan of Development. 15 October 2003. City of 
New Haven. Mayor John DeStefano, Jr., Mayor.
     \4\ Sohmer, Rebecca, and Robert Lang. Downtown Rebound. Fannie Mae 
Foundation and Brookings Institution Center on Urban and Metropolitan 
Policy, Census, May 2001.
---------------------------------------------------------------------------
New Haven's Economic Standing and Transit-Oriented Future
    Two of our leading institutions--Yale University and Yale-New Haven 
Hospital--are global leaders and this elevates New Haven to measure 
itself on that scale. Our competitive advantages are in three basic 
economic sectors: advanced fabrication, research and development, and 
higher education. To compete in the global marketplace, our challenge 
is to (1) support these sectors as they excel in their economic sector; 
(2) create an environment conducive for residential and cultural 
activity within walking distance of major employers; and (3) enhance 
our quality of life in terms of cultural enrichment and environmental 
health so that New Haven remains a destination city for the Creative 
Class. \5\
---------------------------------------------------------------------------
     \5\ ``Richard Florida--Creative Class.'' Creative Class The Source 
on How We Live, Work, and Play. Creative Class Group. 15 Apr. 2009 
http://www.creativeclass.com/richard_florida/.
---------------------------------------------------------------------------
    Since these economic sectors are concentrated in the central 
business district and medical district areas, the city recently 
released ``Downtown Crossing'', a 20-year development framework for New 
Haven. A central focus of this effort is to reconnect the city and 
build a critical mass of transit-oriented urban land use by converting 
Route 34 from a traditional highway to an at-grade urban boulevard. 
From there, the city plans to initiate a fixed rail streetcar system 
which extends pedestrian mobility from the northernmost reach of the 
Yale campus to Union Station and the medical district. In the future, 
the city will be woven together seamlessly in a more organic, 
pedestrian-centered environment.
    The economic impact associated with the short- and long-term 
development projects within walking distance of Union Station is 
promising. Short-term projects alone are expected to result in over 
1,800 jobs and $200 million in gross regional product at stabilization. 
\6\
---------------------------------------------------------------------------
     \6\ Jones Lang LaSalle. Economic Impact Analysis Transit-Oriented 
Development District Union Station. December 2008. Economic Development 
Corporation of New Haven. 15 Apr. 2009.
---------------------------------------------------------------------------
Route 34 East
    The Oak Street Connector (Route 34) was conceived in the 1950s as a 
link for commuters to and from the Valley and to address dramatically 
increasing traffic volumes. Companion urban renewal-era projects 
designed to eliminate blight and substandard conditions in the Oak 
Street and Church Street neighborhoods were intended to redevelop the 
districts with more contemporary structures and land uses.
    The section of Route 34 between the Air Rights Garage and 
Interstate 95 opened in 1959. \7\ Additional right-of-way was acquired 
to the west, but this section was improved only with a pair of frontage 
roads. During the period from project inception to ultimate closure, 
the Oak Street/Route 34 effort displaced over 880 families and cleared 
350 buildings. Adjoining neighborhoods were fractured, creating a clear 
division between the medical district and Downtown, as well as distinct 
residential communities to the north (Hill) and south (West River and 
Dwight) of the connector. \8\
---------------------------------------------------------------------------
     \7\ New Haven City Plan Department. 2007 Annual Report. 15 April 
2009 http://www.cityofnewhaven.com/CityPlan/pdfs/AnnualReports/
Annual%20Report%202007.pdf.
     \8\ New Haven City Plan Department. 2007 Annual Report. 15 April 
2009 http://www.cityofnewhaven.com/CityPlan/pdfs/AnnualReports/
Annual%20Report%202007.pdf.
---------------------------------------------------------------------------
    The concept plan restores these neighborhoods by converting Route 
34 to a community-scale urban boulevard and by converting excess right-
of-way for new homes and businesses. Likewise, the project provides 
economic opportunity through mixed use development and encourages 
sustainable transportation systems through a balance of bicycle/
pedestrian improvements and public transit enhancements.
    The Route 34 East project ultimately results in 16 acres for new 
development by constructing a new street grid consisting of six 
traditional intersections and new city blocks between College Street 
and Orange Street--thereby bridging the city's medical district, Union 
Station, and downtown into a seamless transit-oriented development 
zone. Over the long term, this signature project for the city will 
create thousands of new jobs within walking distance of transit stops. 
For these and many other reasons, this project is our highest priority. 
\9\
---------------------------------------------------------------------------
     \9\ Jones Lang LaSalle. Economic Impact Analysis Transit-Oriented 
Development District Union Station. December 2008. Economic Development 
Corporation of New Haven. 15 Apr. 2009.
---------------------------------------------------------------------------
New Haven Streetcar Project
    The city, in cooperation with Yale University, is proposing a new 
fixed-rail streetcar line generally along the College Street corridor 
of the University's central campus. The entire line is approximately 
four (4) miles, connecting the central campus with the Yale University 
and Yale-New Haven Hospital medical district. The streetcar project 
fills a gap in the local public transportation system, as no public 
transit service currently serves a heavy pedestrian corridor running 
between central campus and the medical district.
    As in Portland, Seattle, and other cities, the streetcar works from 
the national model of fixed rail transit in support of high density 
mixed use development. In New Haven, new growth is concentrated at the 
edges of the corridor, thereby enhancing the value public transit. At 
the northerly end, Yale University is planning to construct two new 
residential colleges, which when complete, will expand the 
undergraduate enrollment by approximately 15 percent. At Science Park, 
over one million s.f. (including 400 new residential units) are planned 
or under construction on the site of the abandoned Winchester Repeating 
Arms Factory. At the southerly end, the streetcar connects to the 
above-referenced Route 34 East development and, in Phase II, to 
historic Union Station.
Summary
    As demonstrated here in Connecticut and across the Nation, we are 
faced with decisions on how to reduce congestion and how to 
dramatically cut greenhouse gas emissions. I argue for a sustainable 
transportation system that accomplishes both objectives.
    The Committee is encouraged to focus on the goals: compete 
effectively in the global economy and reduce substantially the Nation's 
greenhouse gas emissions. Investing in sustainable transportation 
systems, particularly ones that link residential neighborhoods with a 
region's basic economic sectors, is a pathway to reach both of these 
goals. With that in mind, your engaged support for transit-oriented 
systems is very much appreciated.
    Thank you for the opportunity to speak and share with you the New 
Haven experience. I will be happy to answer any questions you may have 
on this matter.
                                 ______
                                 
                 PREPARED STATEMENT OF JOSEPH F. MARIE
                             Commissioner,
                Connecticut Department of Transportation
                             April 16, 2009
    Good morning. I am Joseph F. Marie, Commissioner at the Connecticut 
Department of Transportation. I want to thank you for convening this 
hearing and allowing me to discuss the current and future 
transportation investment needs in Connecticut.
    Our transportation infrastructure--our roads, bridges, ports, 
airports, buses, ferries, and trains--are essential to the economic 
well-being of our State and our Nation. In order to address the 
challenges in front of us and allow our citizens to prosper, our 
transportation system, while fundamentally safe and productive, must be 
preserved, strengthened, and enhanced.
    The Connecticut Department of Transportation (Department), is 
unique amongst other State transportation agencies, as it owns and 
operates not only a highway system but also owns and operates two (2) 
commuter railroads, the New Haven Line and Shore Line East services 
which carry over thirty-four (34) million passengers a year. The 
statewide bus services include twenty-one (21) bus operations, which 
carry over thirty-five (35) million passengers per year--the State owns 
three of the largest and supports the remaining 19 bus services. The 
State also owns and operates six (6) public airports including Bradley 
International Airport--New England's second largest airport, two ferry 
services and one deep water seaport. In addition, the State 
participates in subsidizing several bus transit operations, dial-ride 
services, job access mobility services and other transportation demand 
services. A truly intermodal--operational--transportation agency.
    Our transportation needs are many and all of this is taking place 
during a time when the cost of doing business is colliding with a 
current economic crisis.
    This will require tough choices ahead for our State and the Nation. 
I can tell you that we are not alone. I have had the chance to talk 
with many of my peers from around the country and our State is not 
alone.
    Many would argue that the state of our Nation's infrastructure has 
also reached crisis mode. In our State, the average age of our bridges 
is more than 50 years old and ranks as one of the highest in the Nation 
for age of bridges.
    Over the past several years, Governor Rell and the General Assembly 
have overwhelmingly endorsed bold, comprehensive, and multi-modal 
transportation initiatives that have provided a major start on long 
overdue measures to meet Connecticut's transportation needs and assist 
the Department in its mission.
    The Governor's 2005 Transportation Initiative was the largest 
capital investment in two decades in Connecticut's transportation 
system and included $667 million for new rail cars for use on the New 
Haven Line and Shore Line East; $300 million for new rail maintenance 
facilities; $187 million for operational improvements and congestion 
mitigation measures for I-95 between Greenwich and North Stonington; 
$150 million for improvements to other State and interstate roads; and 
$7.5 million for new transit buses.
    A year later, the Governor and General Assembly approved another 
multi-modal transportation bill that provided for important projects 
such as the New Britain--Hartford Busway and the New Haven-Hartford-
Springfield (NH-HFD-SPR) Commuter Rail Service including shuttle 
service to Bradley International Airport. Both projects had been under 
consideration for many years and outlined in the Department's Master 
Plan and will provide the needed expansion to support mobility and will 
support economic development. The 2006 initiative also supported the 
rehabilitation of rail passenger coaches for use in commuter service, 
the West Haven/Orange Rail Station and parking, capital improvements on 
the Branch Lines, parking improvements on the New Haven Line, Shore 
Line East, and the Branch Lines, highway infrastructure improvements 
projects and rail links to the port of New Haven.
    Again in 2007, the Governor and General Assembly continued their 
commitment to improve and enhance the transportation system in 
Connecticut. In particular, a ``Fix It First'' program for the 
rehabilitation and rebuilding of roads and bridges was established for 
fiscal years 2007 and 2008--$60 million for roads and $90 million for 
bridges. Rail station improvements identified in the New Haven Line 
Train Station Visual Inspection Report ($6 million total) and a parking 
garage at the Stamford Transportation Center.
    All these projects all have significant transportation benefits for 
travelers and commuters as well as opportunities for transit-orientated 
development and the Department has been aggressively working on their 
implementation since passage of that bill.
    The State of Connecticut has provided specific transportation 
funding investments that will build upon our regular Federal 
transportation program in order to continue a balanced approach so that 
Connecticut's transportation system enhances the general quality of 
life, economic development, and increase in productivity and movement 
of people and goods in a safe, efficient manner.
    In fact, in 2007, Connecticut had the highest per capita State 
investment in transit funding, followed by our border States--
Massachusetts and New York. The importance and significance of 
passenger rail service is clearly demonstrated in Connecticut.
    While we're enhancing and expanding transit services in State, we 
still have significant preservation challenges ahead.
ConnDOT's Capital Needs
    In order to provide a safe, efficient transportation system that 
meets the mobility needs of people and freight within the State and the 
region, the Department has identified a five point action plan that 
identifies the major areas for prioritizing and emphasizing investments 
for all modes of transportation:

  <bullet>  Preservation--State of Good Repair;

  <bullet>  System Modification (Safety);

  <bullet>  System Productivity--Efficiency;

  <bullet>  Economic and Environmental Impact--Quality of Life; and

  <bullet>  Strategic Capacity Improvements.

    While our needs on our highways and bridges are great, for purposes 
of this hearing, I'm going to focus on the capital needs for public 
transportation.
    On the rail side, the Department's major capital improvements 
needed for state of good repair and system capacity improvements 
include the following:

  <bullet>  New M8 Rail Cars--(380 cars): $686M (CT share) Funded

    <bullet>  M4/M6 Rehab/Replacement: $210M (CT share) Unfunded

  <bullet>  New Haven Rail Yard Expansion--

    <bullet>  Tier 1: $847M Funded

    <bullet>  Tier 2: Car Wash $ 57M Unfunded

    <bullet>  Tier 3: Deferred Elements $178M Unfunded

  <bullet>  Modernization of Catenary/Moveable Bridges--New Haven 
        Line--

    <bullet>  C1B: $140M Funded

    <bullet>  C1A: $600M Unfunded

    <bullet>  C2: $975M Unfunded

  <bullet>  Mainline Signal System: $310M Unfunded

  <bullet>  Track Program: $200M Funded

  <bullet>  Positive Train Control: $52M (CT Share) Unfunded

  <bullet>  New Haven-Hartford-Springfield: $600--$700M Unfunded

  <bullet>  Shore Line East Station Expansion: ($97M)$40M Funded/$57M 
        Unfunded

    Summary--Total: $5.052B; Funded: $1.913B; Shortfall: $3.139B.

    The projects I have noted reflect current estimates of major rail 
capital needs and does not account for other routine capital 
maintenance needs.
    It is important to note that in addition to these projects, there 
will likely be further system enhancements as a result of the 
Department's ongoing branch-line studies. Early estimates on the 
Danbury Branch alone are somewhere in the vicinity of $300 million with 
passing sidings, track realignment, electrification Norwalk-Danbury and 
extension to New Milford. Station and parking improvements and year of 
expenditure considerations would likely increase this amount. While no 
estimates have been developed to date for the New Canaan and Waterbury 
branches, there will also be significant improvements identified once 
the studies are complete.
    Shore Line East will also require necessary catenary and capacity 
enhancement improvements.
    On the transit side, the Department's major capital improvements 
needed for State of good repair and system capacity improvements 
include the following:

  <bullet>  Systemwide Bus Replacements: $270M (Partially Funded)

  <bullet>  Systemwide Bus Mid-Life Overhauls: $20M (Unfunded)

  <bullet>  New Britain-Hartford Busway: $569M (Partially Funded)

  <bullet>  CT Transit--Hartford Facility Rehab: $30M (Partially 
        Funded)

  <bullet>  Waterbury Bus Maintenance Facility: $120M (Partially 
        Funded)

  <bullet>  Northwest Transit District Maintenance Facility: $20M 
        (Partially Funded)

  <bullet>  Windham Transit District Maintenance Facility: $20M 
        (Partially Funded)

  <bullet>  Southeast Area Transit Maintenance Facility: $20M 
        (Partially Funded)

  <bullet>  Housatonic Area Transit Maintenance Facility: $3M (Funded)

  <bullet>  Greater Hartford Transit District--Union Station: $20M 
        (Partially Funded)

  <bullet>  Greater NH Transit District Maintenance Facility: $30M 
        (Unfunded)

  <bullet>  Milford Transit District Facility: $15M (Unfunded)

  <bullet>  Systemwide Intelligent Bus Investments (Fareboxes, radios, 
        AVL): $40M (Unfunded)

    Not included in what I have discussed is what it would take to 
modernize existing freight lines to support regional growth.
    Ridership on the New Haven Line is up 3.9 percent and 18.1 percent 
on Shore Line East. Ridership on our statewide transit system was also 
up 4 percent over the last 12 months. Connecticut has continually 
upgraded and improved its New Haven Line, over which Metro-North and 
Amtrak operates, to a tune of over $120 million annually.
    While the State has made significant investments over the past few 
years, our ability to keep pace with systems infrastructure 
requirements will be problematic. In order to expand rail service 
within the State, we will need additional Federal funding in the next 
authorization bill. If not, we're ultimately going to have to balance 
our state of good repair needs with system expansion.
    In all of these efforts, the Federal government is a critical 
partner in the success of these initiatives.
    Transportation Authorization. SAFETEA-LU provided Connecticut an 
estimated $3.2 billion for highways and $713 million for transit (FFY 
2004-2009). This amounts to about 66 percent of Connecticut's 
transportation program.
    AASHTO has calculated that Congress should fund a $545 billion 
multi-modal program, including highways, public transit, intercity 
passenger rail, and freight.
    The Department and the Northeast region both believe that there 
needs to be a strong Federal role in transportation policy and 
financial investment is essential to achieving the mobility that 
underlies the broader public policy goals. As Congress begins to debate 
the next transportation authorization bill, it's important that 
investment levels over the longer term correlate with documented needs.
    The Department has been working over the last few years with 
organizations such as the American Association of State Highway and 
Transportation Officials (AASHTO), the American Public Transportation 
Association (APTA), the Council of Northeast Governors (CONEG) and the 
Northeast Association of State Highway and Transportation Officials 
(NASTO) on authorization principles as well as program specific 
recommendations. It is fair to say there are many similarities in their 
surface transportation authorization principles that advocate for:

  <bullet>  A strong Federal role in a comprehensive national 
        transportation policy;

  <bullet>  An increased Federal financial investment;

  <bullet>  A financial commitment and strategy to preserve and 
        maintain the existing transportation infrastructure, including 
        highways, transit, and rail;

  <bullet>  Commit to policies that will ensure investments are made 
        strategically;

  <bullet>  Expanding revenue sources;

  <bullet>  Investing holistically;

  <bullet>  Improving program administration--Simplifying Federal 
        transportation programs and regulatory processes and reducing 
        project delivery time to create a more efficient and effective 
        transportation program;

  <bullet>  Integrating Federal policy and strategic investment for all 
        modes of passenger and freight transportation, including the 
        development and collection of adequate and appropriate data for 
        all modes; and

  <bullet>  Strengthening support for transit and intercity passenger 
        rail to provide energy efficient and environmentally sound 
        options for managing the carbon footprint of transportation 
        systems.

    We need policies that support maximum flexibility for the States 
and maintain the existing flexibilities of the current surface 
transportation programs that allow for the inclusion of rail projects. 
Given the magnitude and diversity of needs, State and local governments 
should be provided with the maximum discretion to make the investments 
that are right for our State, local, and regional requirements
    Continuation or modification of surface transportation 
authorization transit programs are necessary. For example, the 
Department recommends simplifying the New Starts and Small Starts 
Program, continuation of the Railroad Rehabilitation and Improvement 
Financing (RRIF) Loan Program, the Rail Line Relocation and Improvement 
Program and the Fixed Guideway Modernization Program. The current 
formula for Fixed Guideway is extremely beneficial to States like 
Connecticut and New York whose transit systems operate over established 
older networks.
    Transit is a particularly important regional asset in the 
Northeast, providing mobility for ten billion riders annually within 
and among communities, both urban and rural. Effective transit systems 
can provide energy efficient and environmentally sound options for 
managing the carbon footprint of transportation systems.
    Public transportation also contributes to creating economic growth. 
APTA estimates that every $10 million in public transportation capital 
investment yields $30 million in increased business sales, and that 
every $10 million in operating investment in public transportation 
yields $32 million in increased business sales. Further, every $1 
taxpayers invest in public transportation generates $6 in economic 
returns.
    Transit is clearly an integral part of the national transportation 
system and must continue to receive sustained, assured, dedicated 
Federal funding.
    Thank you for giving me this opportunity to discuss Connecticut's 
current and future transportation needs as you begin the process of 
drafting surface transportation authorization legislation. I will be 
happy to answer any questions you may have.
                                 ______
                                 
                  PREPARED STATEMENT OF HOWARD PERMUT
                               President,
                        MTA Metro-North Railroad
                             April 16, 2009
    Good morning, Chairman Dodd, Members of the Committee. I am Howard 
Permut, President of Metro-North Railroad and I appreciate the 
opportunity to testify today on ``A 21st Century Transportation System: 
Reducing Gridlock, Tackling Climate Change, and Growing Connecticut's 
Economy.''
    I was appointed President in July of 2008, but I am by no means a 
newcomer to Metro-North. In fact, I was part of the original Metro-
North management team and have seen first hand what is necessary to 
create a viable transportation system and how that system, in turn, can 
help create a vibrant regional economy.
    Metro-North service has made it possible for this region to remain 
strong and to grow. The business community has choices that are the 
envy of the rest of the country. They can elect to house their 
corporate offices in the middle of Manhattan or in the middle of cities 
and towns that were considered part of suburbia not too long ago. Our 
solid schedule and reliability has facilitated the creation of 
employment centers in White Plains, Greenwich, Yonkers, and Stamford. 
The city of New Rochelle has developed an entire new residential 
district around our train station. Fordham station in the Bronx is our 
4th busiest station--and it is mostly used by people heading away from 
New York City to jobs in Westchester and Putnam counties. When the Dia 
museum was seeking a location, it chose Beacon, New York--adjacent to 
our train station there.
    Metro-North is no longer just a ``commuter'' railroad serving the 
traditional New York City-centric business market. More than 50 percent 
of our customers every year are travelling either to work locations 
outside the city's limits or taking discretionary trips to the theater, 
museums, or summer homes as far away as the Berkshires--trips that help 
fuel the rest of the region's economy.
    The railroad is also a lifeline to ensuring mobility while reducing 
reliance on the automobile. Every day, almost 4,000 people travel to 
Stamford from points east. Without Metro-North service to carry these 
people, you would need to add one lane in each direction on I-95 to 
handle the additional cars on the road. Investing in a safe, reliable, 
efficient railroad to do this work and reduce traffic seems like a 
better bet.
    Before I go further, however, let me put Metro-North's role here 
into some context. Metro-North was created in 1983 as a wholly owned 
subsidiary of the Metropolitan Transportation Authority in New York.
    Through a comprehensive and complex service agreement between the 
MTA and the Connecticut Department of Transportation, Metro-North 
assumed the operation of the New Haven line commuter service from 
bankrupt or near-bankrupt freight carriers.
    The New Haven Line itself is largely a 4-track railroad, 75 miles 
long with 36 stations in Connecticut and 8 in New York. Most of the 
stations in Connecticut are owned or managed by local communities.
    We assumed operation of this and its sister lines in New York, the 
Hudson and Harlem, after years of underfunding. The lack of investment 
brought those operations to the brink of disaster.
    Annual on-time performance averaged 80 percent--barely. Annual 
ridership was falling--roughly 42 million. It wasn't difficult to 
figure out why. Rail cars were dirty, dark, hot in the summer, cold in 
the winter, and breaking down more frequently than they were running. 
Forget a seat for every customer. There was barely standing room for 
every customer. The power systems--both the system that distributed the 
electricity and the ones that fed electricity to the trains--were old, 
inefficient, and insufficient for a modern railroad's needs. We were 
afraid to conduct customer surveys. Letters told us clearly enough what 
our customers thought of us.
    Today, while we would all agree that there are still improvements 
to be made to Metro-North and the New Haven Line, the infrastructure is 
in better shape than it's ever been.
    Last year, on-time performance systemwide was 97.5 percent; New 
Haven Line performance was 97.0 percent. Metro-North also posted 
another record ridership year and doubled the amount of riders since 
our inception. Over 84 million customers travelled systemwide in 2008, 
with 37.9 million on the New Haven Line alone.
    ConnDOT has begun replacing the catenary system--the overhead wires 
that power the trains--section by section. Funding has also been 
secured to order 300 new railcars that will begin to arrive next year. 
These railcars will replace 40-year-old vehicles that we continue to 
triage but which are undeniably past their useful life. They will also 
add much needed seats for customers who have been flocking to our New 
Haven Line service.
    And we began conducting surveys in the late 1980s. Last year we hit 
two milestones. A total of 94 percent of our customers on all three 
lines indicated they were satisfied with our service. And we were 
particularly gratified that, for the first time, 90 percent of New 
Haven Line customers gave us a ``thumbs up.''
    By constant vigilance and attention to detail, Metro-North has 
become an important part of the communities it serves. However, it 
would be dangerous to take our contribution to the region's economy and 
mobility for granted.
    As an active participant in the evolution of both Metro-North and 
the New Haven Line, I can tell you with certainty that there is no 
magic wand that will make these types of improvements possible. You 
need certain ingredients to be successful.
    First, you need good partnerships. We are fortunate to have 
leadership at the Connecticut Department of Transportation working with 
us to improve public transportation in general and our railroad 
specifically.
    Second, you need a committed workforce. A company cannot achieve 
the levels of reliability, satisfaction, and quality and get the return 
business we get without most everyone pulling together to produce a 
premier product. We have 5,800 employees at Metro-North. Over 1,500 are 
Connecticut State residents. Almost 1,400 work within the State's 
borders. I'd say we have a vested interest in doing our best.
    Third, you need a plan that is strategic, comprehensive and that 
moves your organization toward achieving what's important.
    And when you combine all these ingredients and prepare to execute 
your plans, you'd better have one last thing. You'd better have the 
money to carry them out.
    I'm not talking about funding individual projects. I am talking 
about a stable, sufficient, dedicated, multi-year funding stream. It 
makes everything possible. Our experience at Metro-North is the 
example.
    Since our creation in 1983, we committed ourselves to identifying 
and executing investments that have addressed our State of good repair 
(SOGR) issues, and accordingly have allowed us to reduce maintenance 
needs, operate as efficiently as possible and reduce reliance on 
taxpayer subsidies. As a result, our fare operating ratio has gone from 
38 percent to 55 percent--which means that more than half of our 
expenses are now covered from fares, one of the highest ratios in the 
country.
    We were also fortunate to have benefitted from visionary leadership 
in New York State when then MTA Chairman Richard Ravitch worked with 
State lawmakers to create a dedicated, stable means of funding 
infrastructure investment. These 5-year capital programs have allowed 
us to replace equipment, rebuild bridges, tunnels and track, install 
modern, efficient technology solutions for everything from reliable 
train operations to adding capacity to increasing customer amenities.
    In all, we have invested $6.3 billion in our system. Those 
investments have gotten us this far. Don't be fooled, however, into 
believing that we are done. We are far from it.
    Metro-North is currently finalizing its 20-Year Needs Assessment. 
In an unconstrained world, we estimate that we will need to invest $12 
billion in our infrastructure and rolling stock for the railroad to 
maintain SOGR and to keep meeting the needs of this region, exclusive 
of the need to expand Metro-North to regions we don't serve today. In 
the 2010-2014 timeframe alone, we are looking to fund projects totaling 
$1.9 billion.
    Whether you look at the 20-Year Needs or the next 5 years, the type 
of projects break down the same way. Almost 90 percent of that amount 
is required to either bring us to a state of good repair or to replace 
equipment and infrastructure that is at the end of its useful life. 
Approximately 7 percent of that amount has been identified for projects 
that will help us increase ridership or that will add capacity to carry 
additional riders.
    Metro-North has also identified billions of dollars to build 
projects that expand our reach and further improve mobility in the 
region. These expansion projects include providing service from Metro-
North's system to Penn Station, building a public transportation system 
across the Tappan Zee Bridge and across the I-287 corridor, and 
increasing Metro-North service in Orange County, New York and extending 
it to Stewart Airport.
    When we turn to Connecticut, we see the potential for a further 
rebirth of commuter rail service. Metro-North has just completed a 
study of our communication and signal systems to determine what 
improvements will be needed to meet the New Haven Line's service 
requirements through 2030. This study would also include Amtrak's 
Northeast Corridor Service and those Shoreline East trains that operate 
to and from Stamford on the main line. Metro-North has already replaced 
outmoded signal locations and vital signal cables. We have completed 
the design of the new system as far as Greenwich. ConnDOT just awaits 
additional funding to extend this improvement further into Connecticut.
    As a result of last year's Railway Safety Act we will also incur 
significant costs to install a Positive Train Control (PTC) system on 
virtually all parts of our railroad. PTC was mandated by Congress in 
the wake last year's collision in Chatsworth, California. It will 
require us to design and install an additional feature to the signal 
system on our trains and tracks with the intent to further minimize the 
risk of a similar accident. This re-engineering must be carefully and 
precisely done so as not to compromise the system you're trying to 
improve. Initial estimates put the cost of this system in the half-a-
billion range and the work must be done by 2015. This is an ambitious 
schedule WITH funding--and currently no funding has been identified. 
Frankly, we will be looking at funding sources at the Federal level to 
help us meet this Federal mandate.
    Another essential project that is underway is the Catenary 
Replacement project for the entire New Haven Line. The New York State 
section has been completed. The preponderance of this critical power 
structure, however, is located in the State of Connecticut. ConnDOT has 
been progressing this work and approximately 36 percent of the overhead 
wire has already been replaced. This project also benefits the 
Northeast Corridor.
    In addition to the current commitment for 300 new railcars, we have 
begun discussing an option to buy additional cars to expand service.
    Lastly, in addition to investing in railcars, Connecticut DOT 
understands that it is equally important to invest in modernizing the 
facilities that are required to repair them and the infrastructure that 
allows them to operate at their best.
    ConnDOT is managing and funding investments in our shops and yards 
in New Haven and Bridgeport. The shop needed to make running repairs 
was completed last year. A new facility to conduct the rigorous 
acceptance testing required to put the new M-8 cars in service is being 
built and will be ready when the cars arrive. A shop dedicated to 
component changeouts, which will greatly help facilitate repairs of 
major units like traction motors and trucks and return cars to service 
more quickly, is at the 90 percent design level and will be advertised 
for bids shortly. The expansion of the East Bridgeport Yard to store 
additional trains is at the 30 percent design level and is proceeding 
well.
    And last but not least, ConnDOT is working with United Illuminating 
to ensure that we have sufficient power on the railroad to operate the 
additional service that the New Haven Line so desperately needs.
    A full funding strategy and comprehensive project implementation 
plan are being formulated by ConnDOT for all of these improvements. 
Similarly, we await legislative movement in New York on a funding plan 
for the needs we know we have to address during the next 5 years. I 
continue to be optimistic that a plan will be approved and funded in 
both States shortly.
    Why? I am convinced that the elected officials understand the 
importance of public transportation to the region's economy. I know the 
business leaders in this area understand it. And, frankly, we are a 
lifeline to many of your State's residents--our customers.
    Yes, it's a lot of money. And yes, it is a lot of money to invest 
in one part of your infrastructure. But it is not only an important 
investment in the railroad's future. It is also an important investment 
in the region's economic health and the quality of life that it 
provides. Metro-North's history is illustrative of that fact.
    And, in this case, history must repeat itself. Or we will all be 
poorer for it.
    We look forward to working with you, Mr. Chairman, your staff, and 
other partners in Congress to address some of these issues in the 
upcoming surface transportation reauthorization bill later this year. 
On behalf of the Metro-North and the entire MTA family, I thank you for 
your interest and your support.
    Thank you. I will be happy to answer any question you may have.
                                 ______
                                 
                    PREPARED STATEMENT OF JOE McHUGH
                            Vice President,
        Government Affairs and Corporate Communications, Amtrak
                             April 16, 2009
Amtrak in Connecticut
  <bullet>  Northeast Corridor and Springfield Line

    <bullet>  46 daily trains (Acela, NE Regional, Vermonter, 
        Springfield Shuttle)

    <bullet>  1.6 million boardings and alightings from 12 stations in 
        FY08

  <bullet>  Important economic presence

    <bullet>  Spent $67.3M for goods and services in FY08

    <bullet>  Employed 544 Connecticut residents, $39.8M payroll

  <bullet>  Several major engineering projects in coming years:

    <bullet>  Replacement of Niantic River bridge ($100M)

    <bullet>  Replacement of two bridges in Stonington and at Miamicock 
        River; major repairs to others

    <bullet>  Station improvements (ADA compliance, accessibility, 
        security)

    <bullet>  Total stimulus investment of nearly $142.8M

  <bullet>  Formerly a double-tracked 62 mile line, now single track 
        with some passing sidings

  <bullet>  Expect to complete 2 year recapitalization project in FY09

    <bullet>  Currently replacing ties--up to 130,000 in current and 
        previous FY--will allow us to lift some speed restrictions and 
        bring track to SOGR

    <bullet>  Will need continued investment to attain state of good 
        repair, including:

      <bullet>  Hartford Viaduct (must replace to double-track the 
        line)

      <bullet>  Connecticut River Bridge

      <bullet>  Grade crossing needs

  <bullet>  12 daily passenger train movements (Amtrak)

  <bullet>  About 10 daily freight movements

  <bullet>  Planning for capacity needs of this line is ongoing

    <bullet>  NEC Master Planning process

    <bullet>  Involves Amtrak, State DOTs, and partner rail authorities

  <bullet>  CDOT interested in operating commuter services

  <bullet>  Amtrak is considering service improvement on the route in 
        the long term

    <bullet>  Master plan process extends through 2030

    <bullet>  Route designated for development as a high speed 
        intercity corridor

    <bullet>  Need to reserve capacity for an hourly intercity 
        frequency

  <bullet>  Scale of the proposed commuter operation is not yet 
        determined

    <bullet>  Capital needs will depend on desired frequency

    <bullet>  Even basic operations will require some additional 
        infrastructure

    <bullet>  For denser operations (e.g., multiple frequencies per 
        hour), will almost certainly need to double track

  <bullet>  Any track reconfiguration plans must accommodate freight 
        and intercity needs, and will require FRA approval

  <bullet>  Intercity operations limited by agreements that set a 
        ceiling on number of daily trains

    <bullet>  Designed to limit traffic over movable bridges during 
        boating season

    <bullet>  Originally 34 Amtrak trains per day

  <bullet>  Raised to 38 per day in 2003

    <bullet>  Some SLE trains eliminated

    <bullet>  In exchange, SLE passriders allowed on certain Amtrak 
        trains

  <bullet>  CDOT began SLE commuter rail expansion plan in 2007

    <bullet>  Phase I (add'l frequencies, weekend service) summer 2008

    <bullet>  Phase II (extend all trains to New London) bridge 
        restrictions limit frequencies

    <bullet>  Phase III (electric, bidirectional service by 2012) 
        requires additional M-8 EMUs and likely infrastructure 
        modification (electrical generation capability is a potential 
        need), including electrification of station sidings and added 
        interlockings

  <bullet>  Amtrak wants to work with CDOT to develop the Springfield 
        line

  <bullet>  This line is representative of the types of improvements we 
        would like to make in coming years

    <bullet>  Faster service

    <bullet>  Reduced trip time

    <bullet>  More frequencies

    <bullet>  Incremental development

    <bullet>  Enhance intermodalism

  <bullet>  The time is now

    <bullet>  Federal funding

    <bullet>  Federal and State policy

    <bullet>  Strong support from the Administration
                                 ______
                                 
                   PREPARED STATEMENT OF RON KILCOYNE
                        Chief Executive Officer,
                       Greater Bridgeport Transit
                             April 16, 2009
Introduction
    Good morning Senator. My name is Ron Kilcoyne and I am the General 
Manager/Chief Executive Officer for Greater Bridgeport Transit. In 
addition to my role at the GBT, I have spent 29 years working in the 
provision of public transportation--promoting its importance in healthy 
communities. In addition to my work at the GBT, I serve at the Chairman 
of the Bridgeport Chamber of Commerce, Chairman of the Land Use and 
Transportation subcommittee of the City of Bridgeport's sustainability 
effort (BGreen 2020), Chairman of APTA's Urban Design Standards 
subcommittee as well as APTA's Systems Management, Operations and 
Planning subcommittee.
    Thank you for the opportunity to offer testimony at this morning's 
hearing. Forums such as these ensure that the comments of public 
transit providers and others interested in the role public 
transportation plays (and will play) in healthy communities, the 
Nation's energy, environmental and economic policies are considered.
    I would also like to thank you for your efforts on our behalf. Your 
commitment to public transportation can be seen throughout our system. 
Today, thousands of riders are traveling to work and school using 
services made possible under the JARC program, new interregional bus 
service has been established along the congested I-95 corridor in south 
western Connecticut (providing over 100,000 trips per month), riders in 
the Bridgeport region are benefiting from the new bus station in 
Downtown Bridgeport and GBT is beginning design work on a project to 
improve and expand our maintenance facility to allow for growth over 
the next 15 years--all made possible through your commitment and with 
funding under SAFETEA-LU.
    My testimony will focus first on the overarching benefits of public 
transportation in many areas of critical importance to our future at 
the national, State and local levels. More importantly, I would like to 
comment on the capital and operating needs of public transportation and 
how these may be considered and address in upcoming legislation. I will 
conclude with specific recommendations for future funding using a 
Connecticut example.
Overarching Benefits of Public Transportation
    The need for increased investment in public transportation has 
never been greater. Public transportation will necessarily play an 
increasing role in addressing some of the Nation's most pressing issues 
including reducing dependence on foreign oil, improving our environment 
and decreasing demand for nonrenewable resources, helping to put people 
back to work, providing access to essential community resources for 
people from all walks of life and providing an immediate alternative 
for those not wanting to join congested highways.
    Investment in public transportation in Bridgeport has lead to new 
services to major employment centers, extended service spans helping 
second and third shift workers and our services are heavily utilized--
we have experienced an 11 percent growth in ridership in the last 6 
months of 2008 and the growth continues.
    More and more, people are turning to public transportation as their 
mobility choice and we need to expand the services to meet the new 
demand and take advantage of all of the benefits public transportation 
brings to healthy communities--there has never been a better time than 
now.
    As I stated in my introduction, I have been involved at the policy 
level with the American Public Transportation Association (APTA) for 
many years. APTA has conducted their own research regarding the impacts 
of public transportation and assembled the findings of others. While I 
will not dwell on these facts as they are readily available in much 
greater detail, I would like to briefly cover some of the benefits of 
public transportation regarding:

  1.  Dependence on Foreign Oil--Riders using public transportation 
        save the Nation the equivalent of 4.2 billion gallons of 
        gasoline annually. Public transportation riders also save the 
        equivalent of 900,000 automobile ``fill-ups'' every day. These 
        benefits grow as the cost of fuel rises.

  2.  Public Transportation and Moving the Economy--For every $1 
        billion invested in federally aided public transportation 
        projects approximately 30,000 jobs are created. The funding 
        from the ARRA will create over 250,000 jobs for Americans. 
        Secretary LaHood had it right when he said ``We are the Federal 
        agency most responsible for keeping people working.'' Every $10 
        million invested in capital returns up to $30 million in 
        business sales alone and every $1 invested in public 
        transportation returns $6.

  3.  Public Transportation and Our Environment--Public transportation 
        services offer an immediate alternative to people wanting to 
        reduce their ``environmental footprint.'' A rider switching 
        from a 20-mile roundtrip commute will cut his/her CO2 emission 
        by 4,800 pounds per year and public transportation ``saves'' 37 
        million metric tons of CO2 annually. These are some of the 
        benefits of using public transportation and they will grow in 
        the future as transit providers transition to more fuel 
        efficient or new technology vehicles. In addition, many 
        agencies are incorporating environmentally friendly elements 
        into the design of their facilities and stations. At 
        Bridgeport, our new facility expansion project will be designed 
        for LEED (Leadership in Energy and Environmental Design) 
        certification.

  4.  The Importance of Transit-Oriented Development and Healthy 
        Communities--Americans living in areas served by public 
        transportation save 541 million hours of travel time and 340 
        million gallons of fuel annually. Public transportation is a 
        critical component of the City of Bridgeport's Transit-Oriented 
        Development (TOD) and sustainability efforts that are now in 
        full swing. The City of Bridgeport is determined to reduce its 
        carbon footprint and improve urban air quality. It is reducing 
        minimum parking requirements and is actively seeking dense 
        infill without increasing roadway capacity all of which will 
        require a significant increase in transit use. Public 
        transportation provides an immediate alternative to 
        contributing to congestion, and dependable accessibility for 
        people of all walks of life (seniors, riders with disabilities, 
        students, employees). Households cost are reduced significantly 
        for those choosing public transportation.

  5.  Local Benefits--The local benefits of bus transportation that we 
        provide in the Bridgeport region have been great--ridership is 
        growing, JARC and DSS funding has been used to implement new 
        services. Some limited new State investment in bus transit has 
        allowed for service improvement. We have a queue of projects 
        ready for implementation and this will continue this if the 
        capital and operating investment is there. Other transit 
        providers around the State have service improvements ready to 
        go. There is clearly a need for greater and more reliable 
        investment in public transportation.
Public Transportation Needs
    The benefits of public transportation are clear. In Bridgeport, 
throughout Connecticut and across the country, people, for the reasons 
I just mentioned, are finding public transportation (all modes) an 
attractive alternative to driving alone. How then do we sustain this 
momentum and reap the environmental, economic development, and energy 
rewards the increased use of public transportation can bring? By 
recognizing the importance and increasing capital and operating 
investment--increasing Federal funding and offering creative incentives 
to encourage increased State and local investment in transit operations 
and improved coordination with land uses. We need to fund the efficient 
expansion of our public transportation services and improve access to 
them--this is true locally in Bridgeport and throughout the Nation.
    Capital and Operating Needs--Before the infusion of capital funding 
under the ARRA, it was difficult to secure the local match for projects 
(other than rolling stock and facilities) to be funded under FTA 
formula or discretionary programs. This difficulty is likely to 
continue after the initial ARRA funding is exhausted. The Connecticut 
Department of Transportation has been enormously cooperative in helping 
the Bridgeport region with their 2009 and 2010 capital plans and today 
we are working with the Department on several large capital projects 
including the replacement of 15 buses and the possible purchase of 
buses to expand our fleet. However, additional Federal funding and 
additional local match are required to meet the current and future 
capital needs. Transit agencies also struggle with the inability to 
plan service improvements and expansions on a predictable and reliable 
schedule. There have been occasions where additional operating 
investments are proposed without the required capital investment and 
there have been occasions where capital funding is made available with 
no associated operating funding.
    Encouraging New Operating Investment--The next surface 
transportation authorization legislation should include, as a major 
component, incentives, conditions or new programs that encourage States 
and local governments to invest more in public transportation 
operations. There are several alternatives to explore in this area 
including:

  1.  Incentives--The creation of an incentive program for States to 
        invest in new and expanded transit operations. This could 
        include bonus grants to States and/or regional entities that 
        have the highest levels of transit service and highest 
        increases in transit service as well as incentive payments to 
        States that allow gas tax and other road user fees eligible for 
        transit use. H.R. 1827 is a good start. However, there are ways 
        it could be improved. First, it should reward outputs (e.g., 
        service hours per capita or ridership per capita) instead of 
        inputs (dollars spent) to assure that the investment is 
        resulting in desired outcomes and to use a measure that has the 
        same value in all locales. Second, the amount of these 
        incentives needs to be increased to have impact. However, the 
        bill does allow for the incentives to be used for either 
        transit or road use. While we don't want to encourage new 
        roads, this is good since recipients are more likely to be 
        motivated by this program.

  2.  Conditions--Conditions may be placed on any new funding available 
        through authorization which would require new investment in 
        transit operations. In order to access funding from a number of 
        ``pools'', local and State governments would be required to 
        commit higher levels of service in new or existing public 
        transportation modes. As with incentives conditions should be 
        based on outputs rather than inputs.

  3.  Modifications to Programs/Regulatory Requirements--ARRA requires 
        no State or local match and these projects are moving quickly. 
        Consideration should be given to modifying local match 
        requirements for the capital programs so that State and local 
        governments would be able to match capital funding with new 
        investment in operations. This alternative helps to address the 
        capital vs. operating ``catch 22'' I mentioned above. States 
        and local governments would be encouraged to identify new and 
        creative sources of operating investment and would be assured 
        that the requisite capital elements of the service would be in 
        place.

  4.  A combination of all of these alternatives may have the biggest 
        impact.

    Access to Public Transportation--How accessible is our public 
transportation system? The extent to which our services in Bridgeport 
and across the State are ``accessible'' or available goes beyond our 
ability to implement new routes or add or extend service hours. It must 
be considered as part of planning, development and urban design 
efforts. There is a need at all levels to incorporate public 
transportation access to stations, stops and new developments as they 
are being planned. Consideration should be given to creating incentives 
or conditions on funding which encourage or require close land use/
public transportation planning. The incentives and conditions referred 
to above for increased State and local investment in transit can be 
used as models of developing the incentives and conditions for assuring 
States and local governments address the access to transit issue as 
well.
Specific Recommendations
    Capital Funding--At the State level, there is a need to commit to 
longer term capital planning/funding for facilities and rolling-stock. 
Consideration should be given to longer term ``authorizations'' with 
annual appropriations and minimum guarantees. This would allow for 
steady and efficient growth of the State's transportation 
infrastructure.
    Local (State) Needs--To illustrate the need for increased levels of 
transit service, Transit for Connecticut, a coalition of businesses, 
the Connecticut Fund for the Environment, AARP and over 30 other 
agencies, has conducted a study which evaluated the need for additional 
capital and operating investment in public transportation. The study 
concluded that the State would require a steady increase in operating 
investment to reach an additional $63 million to provide optimum (bus) 
transit levels (1.8 million hours of service) and an additional $215 
million in the associated capital investment. I have included this 
report and its executive summary as an attachment to my testimony.
    National Needs--In the upcoming authorization--no less than $123 
billion over the course of 6 years coupled with strong guarantees is 
recommended. There is also a need to ensure steady and predictable 
funding from the Highway Trust Fund or new revenue streams as revenues 
from Federal motor fuels taxes declines. Ironically, partially as a 
result of the successes in public transportation and other efforts to 
reduce VMT (Americans drove 90 billion fewer miles in the last 11 
months of 2008), Congress will need to change the Nation's approach 
toward funding the transportation infrastructure.
    Flexibility--While under the authorization all transportation 
programs should grow at the same, we would like to see some level of 
flexibility in the 5310 (Capital), 5316 (JARC) and 5317 (NFI) programs, 
allowing locally coordinated human service transportation planning 
groups determine the most appropriate approach to investment of these 
funds in their respective regions. Combining these three programs into 
one will result in more effective use of the funds.
    I hope that my comments are of value during the dialogue that will 
take place as authorization and other legislation is being considered. 
I will be available at any time if you or your staff has any questions 
or require any additional or support materials. Thank you again for the 
opportunity to comment and for all of you efforts on our behalf.
                                 ______
                                 
                 PREPARED STATEMENT OF JAMES S. BUTLER
                          Executive Director,
            Southeastern Connecticut Council of Governments
                             April 16, 2009
    Good morning, Mr. Chairman and Members of the Committee, my name is 
Jim Butler and I am the Executive Director of the Southeastern 
Connecticut Council of Governments (SCCOG), which represents 20 
municipalities in the southeast corner of the State. We are the 
region's Metropolitan Planning Organization (MPO), which under Federal 
surface transportation law makes us responsible for planning 
transportation improvements in our region. Thank you for convening this 
field hearing in Connecticut, and for asking me to participate as a 
witness.
    I have been asked to provide perspective on a number of 
transportation issues facing our region including:

  <bullet>  Transit needs in southeastern Connecticut

  <bullet>  Congestion of traffic on highways from tourism and other 
        factors

  <bullet>  Intermodal facilities in the region

  <bullet>  Extending Shore Line East from Old Saybrook to New London

  <bullet>  SCCOG's Proposed Tourist Transit System

  <bullet>  How to improve the transportation system with transit in 
        southeastern Connecticut
Transit Needs in Southeastern Connecticut/Congestion of Traffic
    While our region is particularly well served by highways, 
southeastern Connecticut is somewhat transit poor. That this is the 
case is a function of history, geography, and our population density. 
However, times are changing, and over the past 20 years there has been 
an increasing demand for more transit service to, from, and within 
southeastern Connecticut as two of the world's largest gaming 
facilities were constructed, new shopping centers and subdivisions were 
built, roads became more congested, and fuel prices began to increase. 
Traffic on some of the region's major State highways has increased by 
as much as 150 percent depending upon the highway's location, and at 
certain times of day or in a particular season a significant number of 
the region's roads have Volume to Capacity ratios in excess of 1.0, 
meaning they are congested to the point that the amounts of traffic 
they are carrying exceed the capacity of the road. All this means that 
the region needs more transit, and while the Southeast Area Transit 
(SEAT), our region's bus provider, capably serves its nine member 
towns, it is a small system with low service levels that primarily 
serves the region's transit-dependant population and is not considered 
a viable alternative by those who still can afford to travel by private 
automobile. Both casinos do offer privately operated transit 
alternatives to their patrons, but they still attract thousands of 
visitors daily that travel to the region by automobile at all hours of 
the day and night. In addition to SEAT, there are some small 
paratransit providers in the region, but these are intended to provide 
transportation services to the elderly, handicapped persons, and other 
persons that do not have access to a private automobile.
Intermodal Facilities in the Region
    The southeastern Connecticut region has long been blessed by the 
location of a number of transportation providers in proximity to one 
another in New London. We have called this confluence of modes the 
region's Intermodal Transportation Center where high speed and 
conventional rail, ferry service to Block Island, Long Island, and 
Fishers Island, long haul bus, taxi service, and public and private 
parking facilities all serve the travelling public. However, the 
transportation services are all independently owned and operated so 
there is little coordination between them that could make this a world 
class transportation center. Recognizing this fact, the SCCOG and the 
Connecticut Department of Transportation (ConnDOT) initiated a study 
last year that is about halfway complete, that will identify physical 
and operational improvements to tie all these modes of travel together, 
making it more convenient and safer for passengers. To compound the 
fragmented nature of these transportation services, Union Station, the 
historic and architecturally significant railroad station around which 
all the modes are located, is privately owned, the only privately owned 
station along the shoreline rail corridor in Connecticut. This is a 
problem because while the current owners of Union Station may wish to 
see the building remain as a transportation center, they need to have 
the building generate revenue to pay for their capital investments and 
ongoing operating costs. The SCCOG has had discussions with ConnDOT, 
and intends to continue to do so, about the State of Connecticut either 
owning or creating some kind of public-private partnership that will 
guarantee that this beautiful building remain a transportation center 
for many years to come.
    In addition to the existing facility in New London, a second 
intermodal center is planned in the City of Norwich, with construction 
scheduled to begin later this year. This project will create a new 
facility for SEAT buses just outside downtown, and will also provide 
parking for several hundred automobiles. With its location on Hollyhock 
Island, it has the potential to serve rail and provide access to the 
Thames River.
Extending Shoreline East From Old Saybrook to New London
    Shoreline East currently operates limited service beyond Old 
Saybrook to New London. Earlier this year, at the region's urging, 
ConnDOT successfully convinced Amtrak to allow Shoreline East fares on 
some Amtrak trains if a multi-ride ticket is purchased. While this is a 
start, the region is hopeful that ConnDOT will very soon solve the 
impediments to bringing more commuter trains to and from New London. In 
an editorial in The Day newspaper this past Sunday, ConnDOT 
Commissioner Joseph Marie was commended for his effort toward this end, 
and the region is grateful. But the region will continue to urge the 
State of Connecticut to reach an agreement with the marine interests 
concerning the requisite bridge closings (currently limited to a 
maximum of 39 Amtrak, two Shoreline East trains, and two freight trains 
per day as required of Amtrak in 1996 when the rail line was 
electrified), and to negotiate with Amtrak, the owner of the railroad, 
concerning the upgrades required to accommodate additional trains on 
this stretch of rail line. The southeastern Connecticut region needs, 
deserves, and warrants train service commensurate with the Metro-North 
service that ConnDOT provides in the southwest corner of the State 
because the region's tourism base is vital to the health of the State's 
economy.
SCCOG's Proposed Tourist Transit System
    In 2005, SCCOG completed a study named Intermodal Connections Study 
Southeast. This study developed a business plan for a high-quality, 
dependable, seamless, bus-based transportation system linking rail, 
ferry, and buses to the region's major tourist centers. A market 
analysis that interpreted the results of visitor surveys conducted 
during the course of the study projected that enough visitors would use 
the system to make the investment in the system pay for itself. The 
study concluded that more people would visit the region, their length 
of stay would increase, and people would visit more attractions if 
linkages were better. A ridership between 1.7 to 3.5 million people 
annually was projected. Because the major beneficiaries of the system, 
the casinos and other major tourist attractions, could not easily be 
convinced to pay for the system's $24-31 Million start-up capital cost 
and annual operating cost of $6.5-$8.6 Million, the study recommended 
the conduct of a 2-year pilot project to demonstrate to potential 
funders of the system that it would be successful. This pilot project 
would cost $12 Million over the 2 years. While SCCOG remains convinced 
that the proposed tourist transit system would be well used and 
contribute significantly to improving the region's transportation 
system, to date we have been unsuccessful in identifying the full $12 
Million (in 2005 dollars) needed to conduct the pilot project.
How To Improve the Transportation System With Transit in Southeastern 
        Connecticut
    Based on my previous comments, it should be clear to see that our 
region is very desirous of increased transit service in southeastern 
Connecticut. Our Council of Governments and the region's bus transit 
provider SEAT are now having discussions about how to expand bus 
service beyond the nine towns currently served. It is hoped that our 
study of the region's intermodal transportation center in New London 
will result in improvements that will allow even more passengers to 
travel into, out of, and through, the region safely and efficiently. 
The full extension of Shore Line East into southeastern Connecticut 
will provide travelers to and from the region an alternative to an 
increasingly congested I-95. And if the tourist transit system pilot 
project could be funded, we are convinced that those private businesses 
that would benefit from its operation would step up to the plate and 
pay for it, similar to what L.L. Bean does up in Maine. But all of 
these transit improvements cost money; more money than the State of 
Connecticut can apply to just one of its 15 regions. So I guess the 
bottom line is, the best that we can do is to continue to plan, 
advocate, and provide support for the region's needs, all the while 
being patient, until such time as funding does become available to 
create a better and more transit-oriented transportation system in 
southeastern Connecticut.
    Thank you again for the opportunity to provide this testimony.
                                 ______
                                 
                  PREPARED STATEMENT OF KAREN BURNASKA
                              Coordinator,
                        Transit for Connecticut
                             April 16, 2009
    My name is Karen Burnaska and I am Coordinator for the Transit for 
Connecticut Coalition administered by Connecticut Fund for the 
Environment. The Transit for Connecticut Coalition is a statewide 
coalition of business, social service, environmental, planning, 
transportation, and civic organizations dedicated to increasing 
awareness of the benefits of bus transit and advocating for increased 
funding for bus transit. On behalf of the Coalition, I thank you for 
the opportunity to testify today.
    Connecticut's transportation system is like a three-legged stool: 
the three legs being roads, rail, and bus. All three are needed for a 
balanced system and all three are interconnected.
    With the support of the One Region Funders' Group and its 
Connecticut partners, the Fairfield County Community Foundation and the 
Emily Hall Tremaine Foundation, Transit for Connecticut completed a bus 
needs analysis study in March of 2007. The study detailed the benefits 
of bus transit and proposed an investment plan that would increase bus 
ridership by over 80 percent.
    The study stated various ways to improve bus transit in 
Connecticut:

  <bullet>  increase hours of service and frequency of service;

  <bullet>  provide more weekend service;

  <bullet>  expand paratransit service;

  <bullet>  increase express bus service;

  <bullet>  implement Bus Rapid Transit along major corridors;

  <bullet>  increase interregional bus services; and

  <bullet>  increase commuter connections to rail stations in order to 
        complement and enhance the State's investment in rail service.

    The study detailed the many and varied benefits of increased bus 
transit.
Economic Benefits
  <bullet>  transit provides greater access to jobs and a larger labor 
        pool for employers;

  <bullet>  better bus connections enhance the State's investments in 
        rail and multi-modal systems;

  <bullet>  there are significant financial savings for households who 
        choose transit over a private automobile;

  <bullet>  studies show that every $1 invested in transit yields $3 in 
        economic benefits.
Environmental Benefits
  <bullet>  increased bus transit reduces highway congestion, decreases 
        fuel consumption and fights global warming pollution;

  <bullet>  reduces toxic diesel soot through clean vehicle technology;

  <bullet>  supports ``responsible growth'' around stronger transit 
        centers and fights sprawl.
Helps People of All Ages
  <bullet>  increases mobility and choice for existing and new bus 
        customers, nondrivers, the elderly, and disabled;

  <bullet>  increases opportunities for better jobs as well as access 
        to more medical, education, recreation, and other services;

  <bullet>  specialized services can reduce healthcare costs as seniors 
        are able to ``age in place'' and remain in their homes.

    During this difficult financial time, public transit is needed more 
than ever. Using public transit provides direct savings to residents 
and the State.

  <bullet>  Individuals can save money by using public transportation 
        instead of a private vehicle. According to the American Public 
        Transportation Association (APTA) American households can save 
        up to $8,754 annually by switching to public transportation.

  <bullet>  Employers who offer free parking could save more than $750 
        per parking space that is no longer required.

  <bullet>  According to Governor Rell's Budget summary for FY2003-
        FY2005, for each elderly individual that can age at home 
        instead of a nursing home because of the mobility and access to 
        health care furnished by public transit, the State of 
        Connecticut saves $3,500-$4,000 per month.

  <bullet>  In addition, congestion cost commuters in Connecticut's 
        urban areas between $343 and $592 per traveler in 2005. This 
        number represents additional fuel costs and the cost of extra 
        travel time.

  <bullet>  Lower levels of traffic may allow the State to save money 
        through less expenditure related to road repair and 
        maintenance, as well as enforcement of traffic laws.

  <bullet>  Society as a whole benefits from lower levels of pollution 
        and greenhouse gas emissions. (A medium sized car with an 
        average mileage of 21 mpg, driven 10,000 miles per year, 
        produces approximately 5\1/2\ tons of carbon dioxide a year.)

    In order to achieve the benefits of increased bus transit, an 
investment of capital and operating funds is needed. To achieve an 80 
percent increase in bus ridership, Transit for Connecticut recommends 
an increase of $215 million in capital expenditures and an increase of 
$63 million in operating funds. While capital funds are needed to 
purchase rolling stock, improve facilities and shelters, upgrade 
communication systems and fareboxes, operating funds are critical to 
putting vehicles on the road and providing necessary service. A 
dedicated, reliable funding source is needed for all transportation 
projects if Connecticut is to achieve a 21st Century transportation 
system and move our State and its residents forward.
    Thank you for your time and consideration.
                                 ______
                                 
               PREPARED STATEMENT OF PHILIP MADONNA, JR.
                               Chairman,
           ATU Connecticut State Legislative Conference Board
                             April 16, 2009
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify today on behalf of the Amalgamated Transit Union 
(ATU). My name is Phil Madonna. I currently serve as Chairman of the 
Amalgamated Transit Union's (ATU) State Legislative Conference Board 
here in Connecticut.
    ATU is the largest labor organization representing public 
transportation, paratransit, over-the-road, and school bus workers in 
the United States and Canada, with more than 185,000 members in over 
270 locals throughout 46 States and 9 provinces. Here in Connecticut, 
we represent more than 2,000 active and retired members in the transit, 
paratransit, intercity, and school bus industries. In addition to New 
Haven, which is where I am based, we represent the workers in Hartford, 
Stamford, New London, Bridgeport, Mystic, South Windsor, Derby, 
Danbury, Milford, and Rocky Hill. My Local, ATU Local 281, was 
chartered in 1902, and most of our local divisions throughout the State 
were established well before the creation of Connecticut Transit 
(CTTRANSIT).
    For more than 100 years, ATU has been proud to serve the mobility 
needs of Americans, playing an important role in most legislative 
efforts affecting the public transportation industry during the past 
century, from requiring closed vestibules for streetcars in the 1890s, 
to the creation of a Federal role for public transportation in 1964, to 
passing the Intermodal Surface Transportation Efficiency Act of 1991 
(ISTEA) and the Transportation Equity Act for the 21st Century (TEA 
21), which recognized that local communities should be primarily 
responsible for the transportation choices that ultimately affect them. 
Our century-long commitment to transit safety and security issues has 
led to many of the innovative improvements within the industry, 
including better bus designs and braking systems, exact fare, and 
Federal penalties for assaulting public transportation workers. And, we 
have championed the need for increased funding and expanded service at 
the Federal, State, and local levels.
    We are pleased to offer our views on the upcoming surface 
transportation reauthorization bill, which are summarized in our 
comprehensive proposal, entitled ``We Can Get There From Here.'' Our 
10-point plan calls for increasing transit funding, developing programs 
to increase ridership, creating transit workforce development programs, 
improving paratransit services, as well as other critical steps that 
the Federal government can take to improve the delivery of transit here 
in Connecticut and nationwide.
    However, given the current funding crisis facing public 
transportation systems used by Connecticut residents as well as others 
across the Nation, I will today focus my attention on just two issues: 
the need for Federal transit operating assistance and ways that we can 
encourage States and local governments to invest more in transit.
Transit in Crisis
    Record high gas prices in 2008 caused millions of people to try 
public transportation, and despite the recent drop in the price of oil, 
many transit systems continue to report capacity issues.
    Americans took 10.7 billion trips on public transportation in 2008, 
the highest level of ridership in 52 years and a modern ridership 
record. This represents a 4 percent increase over the number of trips 
taken in 2007 on public transportation. Yet, ironically, at a time when 
Americans are leaving their cars at home like never before, public 
transportation systems are being forced to implement painful service 
cuts and fare increases and lay off workers because of shortages in 
State and local revenues.
Fare Increases, Service Cuts
    All across the Nation, transit systems are reluctantly carrying out 
some of the steepest fare increases and deepest service cuts in recent 
history. Unfortunately, we do not have to look very far for examples of 
drastic cuts that are hurting middle class families. The New York 
Metropolitan Transportation Authority (MTA) has announced that it will 
consolidate late-night Metro-North train service to Stamford and other 
Fairfield County towns and end New Canaan ticket window service.
    The proposal would also eliminate two weekday afternoon trains 
between New Haven and Grand Central Terminal that stop at Stamford. The 
agency is also set to raise subway and bus fares to ease its budget 
woes, inflicting pain on thousands of Connecticut residents who commute 
to New York. Meanwhile, Connecticut's Metro-North customers regularly 
complain about too few seats aboard rush-hour trains, a lack of heating 
and air conditioning and a shortage of station parking on the New Haven 
Line.
    Furthermore, even though businesses are sprouting up along the 
Route 25 corridor from Danbury to Bridgeport, there continues to be a 
major gap in transit service. The proposed Danbury-Bridgeport bus line, 
which would have cost $1.4 million to create, was one of several 
candidates for $5 million the State planned to spend on bus service 
enhancement in 2009. But faced with a State budget deficit that grew to 
about $350 million, Governor Rell last fall recommended that the State 
postpone the much-needed plan to enhance the State's commuter bus 
lines. Housatonic Area Regional Transit, based in Danbury, proposed the 
Danbury-Bridgeport service, which it would have run in tandem with the 
Greater Bridgeport Transit Authority. But without the operating revenue 
to run the service, two of the largest cities in western Connecticut 
will continue to have no public transportation between them.
    And no one is immune from the cuts. Here in New Haven, transit 
district officials announced plans last fall to scale back the hours 
and eliminate Sunday service for the Regional Rides Program because of 
a budget shortfall. The service, which offers door-to-door 
transportation for elderly and disabled residents in 13 area towns, is 
facing a deficit. These cuts were necessary despite the program's 
overwhelming success--the number of riders doubled from 10,000 in 2006, 
the program's first year, to 20,000 by the end of 2008.
Working Families Hurt the Most
    Nationwide, fare increases are having a devastating affect on 
working families. Between the increased price of food, health care, 
energy costs, and other everyday necessities, middle class families are 
getting squeezed like never before. Americans, especially seniors 
living on fixed incomes, simply cannot afford transit fares in the 
neighborhood of private taxis. In October, 2008, for example, 
Bridgeport was forced to raise base fares from $1.50 to $1.75 and day 
passes from $3 to $4.
    And as if the fare increases are not enough, the service cuts may 
actually be worse. Generally, when routes get cut, transit systems tend 
to look towards those with low ridership--early morning, late night, 
and weekend service. People who work nontraditional hours, typically 
minorities who have no other means of transportation, are 
disproportionately affected. The single mom who now gets her kids up at 
4:30 in the morning to catch two buses in time to get her children to 
daycare and then herself to work cannot be expected to wait an 
additional hour for that transfer bus to arrive, standing in the 
freezing cold with two kids in tow. But that is exactly what is 
happening out there. Our drivers nationwide have seen it firsthand.
Operating Assistance Is Needed
    Throughout the United States, our buses are overflowing with 
passengers. As mentioned above, the people who turned to transit to 
beat the high cost of gas in 2008 are sticking with us. Ridership is at 
a 50-year high.
    That is the good news. The bad news is that the transit industry 
cannot handle the increased demand. Our members report having to leave 
people behind at bus stops because vehicles are at capacity. In 
Chicago, they were recently tearing out seats on subway trains to make 
room for more people. As one CTTransit official said last year during 
the height of our most recent fuel crisis, ``If suddenly ridership were 
to increase by 25 to 30 percent overall, we'd be really, really 
struggling.'' \1\
---------------------------------------------------------------------------
     \1\ Transit at Capacity, Connecticut Post Online (Bridgeport, 
Connecticut), June 27, 2008.
---------------------------------------------------------------------------
    Indeed, some Connecticut routes will soon be on a standing-room-
only basis, if they are not there already.
    But instead of adding new service to meet increased demand, transit 
systems are being forced to do the exact opposite--they are cutting 
routes and punishing people for leaving their cars at home by 
increasing fares.
    Mr. Chairman, I hope the Members of the Committee can see how 
ridiculous the current situation is. Ridership numbers are going 
through the roof. We have a tidal wave of new passengers, more farebox 
revenue, basically every general manager's wildest dream come true. We 
could not have asked for a better situation. Yet in many places--not 
all but many--we find ourselves unable to cope with the change in 
Americans' travel habits.
    The question is: why? The answer is simple. It is about money. 
State and local tax revenues are way down. Wildly fluctuating fuel and 
energy prices and insurance costs are busting transit agency budgets.
    Unfortunately, this problem will not be solved by simply 
appropriating more capital dollars. Even if the Federal government 
provided CTTRANSIT and other systems with enough money to double the 
size of their existing fleets, the agencies would probably have to keep 
a good portion of those buses in the garage.
    Transit systems simply do not have the operating money to run their 
current fleets. Current law generally prohibits most major transit 
systems from using their Federal Transit Administration (FTA) funds for 
operating assistance. Therefore, as a result, we are cutting service at 
a time when people are turning to transit in record numbers! This is 
insane!
    Transit systems need flexibility in the use of their Federal funds 
so they can stay afloat and avoid balancing their budgets on the backs 
of working people--transit riders and employees--who do not have any 
more to give. People are paying more and getting much less. This has to 
stop! Given the challenges faced by transit systems from coast to 
coast, ATU supports giving local transit systems the option to use 
their FTA funds for operating purposes. At a minimum, we recommend that 
the Committee consider allowing fuel and energy costs to be classified 
as capital expenses.
Encouraging State Investment
    Of course, there is more than one way to generate more operating 
assistance for transit agencies. One way (as discussed above) is to 
change the Federal rules. Another is by encouraging States and local 
communities--which bear the bulk of the responsibility for funding 
transit operations--to invest more.
    Too many States are shortchanging transit at a time when their 
residents are looking for more travel options. Just seven States are 
responsible for more than 80 percent of all State transit funding. The 
other States fund transit at an average of just over $42 million 
annually. In fact, nearly one-fifth of States fund transit at less than 
$1 million annually, and four States do not provide funding at all. \2\
---------------------------------------------------------------------------
     \2\ California, Illinois, Maryland, Massachusetts, Pennsylvania, 
New Jersey, and New York provided $7.7 billion of the $9.5 billion that 
States appropriated for transit in 2005. Survey of State Funding for 
Public Transportation--2005, prepared by the U.S. Department of 
Transportation Bureau of Transportation Statistics.
---------------------------------------------------------------------------
    In recent years, the lack of State funding has caused transit 
crises in a number of areas. For example, State Legislatures and 
Governors in California, Illinois, Massachusetts, Ohio, Pennsylvania, 
and Rhode Island, among others, have had to consider so-called 
``rescue'' packages just to avoid massive service cuts, layoffs, and 
fare increases.
    In addition, even as the Federal surface transportation program has 
sought to become more flexible--allowing States to use Federal highway 
funds for transit projects, and transit funds for highway projects--the 
States have not followed suit with respect to the use of their own 
funds. Thirty-four States still restrict all highway trust fund 
resources solely for highway purposes. While 23 States have such 
restrictions in their State constitutions, \3\ eleven are limited in 
their use of transportation funds due to long-standing statutory 
provisions. \4\
---------------------------------------------------------------------------
     \3\See the State constitutions of Alabama, Arizona, Colorado, 
Georgia, Idaho, Iowa, Kansas, Kentucky, Maine, Minnesota, Missouri, 
Nevada, New Hampshire, North Dakota, Ohio, Oklahoma, Oregon, 
Pennsylvania, South Dakota, Utah, Washington, West Virginia, and 
Wyoming.
     \4\ See highway-only statutes in Alaska, Arkansas, Florida, 
Hawaii, Indiana, Mississippi, Montana, Nebraska, New Mexico, South 
Carolina, and Tennessee.
---------------------------------------------------------------------------
    The Federal government needs to play an active role in leveraging 
State and local investment--encouraging States and local governments to 
invest in public transportation. Generating more non-Federal revenue is 
the key to putting more transit service on the streets.
    ATU recommends the establishment of the ``Flexibility Incentive 
Grant'' (FIG) program within the FTA. \5\ This program would provide 
additional Federal surface transportation dollars to States that 
increase their own level of funding for bus, rail, and ferry services.
---------------------------------------------------------------------------
     \5\ As provided under H.R. 1827, 111th Congress.
---------------------------------------------------------------------------
    Some States (like Connecticut, see below) are already investing in 
public transit, and they would be rewarded for doing so under this 
program. Other States which have not yet seen the benefits of expanded 
bus and rail service would be given an incentive to invest in more than 
just new highway construction. Under this bill, everyone wins.
    The FIG Program would allocate Federal transportation funds to 
States that (1) increase spending on public transportation; (2) create 
a transportation trust fund that distributes funds for public transit; 
or (3) unlock their existing highway trust fund by distributing 
transportation dollars for both highways and transit.
    The money allocated under the FIG program would be bonus money--so 
it would not impact formula or capital funds received by urbanized 
areas or States from other Federal transit programs. And, as the name 
of the program suggests, the Federal dollars awarded through this new 
program would be flexible, meaning that they could be used by States 
for any highway or transit project. In summary, if a State increases 
its level of spending on public transportation, then it receives extra 
Federal surface transportation funds that it may use as it sees fit. 
Significantly, under the proposed program, other non-Federal resources 
(local government funds) may also be counted towards the States' total.
    The idea is derived from a recent Federal highway program which 
granted Federal transportation dollars to States as a reward for 
increasing their level of seatbelt usage, based on a national average. 
Similarly, the FIG Program would award flexible transportation dollars 
to States on the condition that they raise their level of spending on 
public transportation.
    This is a new concept for the Federal transit program. Rather than 
simply granting funds to States and cities on the condition of a 
nominal local match, we would be providing them with a real incentive 
to put some of their own resources towards expanding public transit 
services. State and local transportation funding needs to become more 
flexible. We can make that happen with a Federal incentive--a FIG 
grant.
Connecticut Would Fare Well Under the FIG Program
    In 2006, the State legislature passed a $2.3 billion transportation 
package which would fund mass transit improvements across the State 
without requiring tolls or increasing the gas tax. The bill authorized 
the State to issue up to $1 billion in special tax obligation bonds for 
the projects. The prior year, lawmakers approved the Governor's 10-
year, $1.3 billion initiative, which included money for new rail cars 
for Metro-North, and 25 new CTTRANSIT buses.
    If the FIG program had been in place during that period, 
Connecticut would have been rewarded with bonus Federal transportation 
dollars for funding public transportation at the State level. ATU 
supports the establishment of the Flexibility Incentive Grant (FIG) 
program within FTA to encourage States to invest in public 
transportation.
Conclusion
    Before Congress makes decisions on new policies and revenue streams 
for the SAFETEA-LU reauthorization bill, it must first set its 
priorities. Most importantly, what is the overall goal of our surface 
transportation program?
    Do we want to remain stuck in endless traffic jams, polluting our 
air, and wasting billions of dollars on fuel that we purchase from 
Middle Eastern nations that raise the price of oil at their pleasure? 
Or, are we ready to provide Americans with new public transportation 
options that can help us to save our planet, reduce our dependence on 
foreign oil, and spend more time with our families?
    Based on recent trends, ATU and its allies believe that Americans 
are ready to modify their travel habits and embrace transit like never 
before. Congress can help facilitate these overdue changes through the 
creation of bold, well funded, and innovative programs.
    Without question, hard choices are going to have to be made along 
the way, and the cost will be enormous. However, the potential to 
improve our quality of life and preserve this world for the next 
generation should guide us through the substantial challenges that lie 
ahead.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
                  PREPARED STATEMENT OF ERIC J. BROWN
                           Associate Counsel,
             Connecticut Business and Industry Association
                             April 16, 2009
    Mr. Chairman and Members of the Committee, my name is Eric Brown. I 
serve as associate counsel for the Connecticut Business and Industry 
Association (CBIA). CBIA represents the interests of approximately 
10,000 small, medium, and large-sized businesses throughout 
Connecticut. Approximately 90 percent of our members have fewer than 50 
employees.
    CBIA and its member companies have long recognized the importance 
of a safe and efficient transportation system and we have worked with 
State officials and the legislature over many years to achieve that 
goal. However, it was in 1999 that our organization significantly 
elevated the priority of transportation following a meeting of our 
board of directors with Michael Gallis who had just finished an 
intensive study of Connecticut's transportation challenges and the 
economic peril our State faced as a result of those challenges. The 
report, prepared for the Connecticut Regional Institute for the 21st 
Century, concluded dire economic consequences for our State if actions 
were not taken to address traffic congestion and to more seamlessly 
integrate our transportation system with regional, national, and 
international corridors of commerce.
    Over the next several years, CBIA worked with the legislature and 
the Governor to intensify the focus on identifying, prioritizing, 
funding, and implementing policies and projects to improve our 
transportation system.
    In 2000, the legislature created the Transportation Strategy Board 
as an instrument to insert more strategic economic thinking into our 
State's transportation planning. In subsequent years, the legislature 
and the Governor allocated and approved several hundreds of millions of 
dollars for transportation investments.
    These were important and helpful measures that have begun to move 
Connecticut in a better direction. However, significant challenges 
remain.
    In the mid-2000s, the failed I-84 construction project along the 
Waterbury-Cheshire corridor brought a higher degree of public scrutiny 
upon the operations of Connecticut's Department of Transportation (CT 
DOT).
    In 2007, Governor Rell created a special commission to look broadly 
at the operations of the CT DOT and make recommendations for improving 
the efficiency and effectiveness of the agency. The commission produced 
an outstanding report that, among other things, looked at what measures 
other State transportation departments had taken to improve their 
operations. The commission's report was presented to the legislature in 
February of 2008 and provides an excellent blueprint for going forward.
    One of the major recommendations of the report was to ``make 
intermodal travel a high strategic priority.''
    The importance of that recommendation is supported by data from the 
latest report of key mobility measures from the Texas Transportation 
Institute's 2007 Urban Mobility Report--perhaps the Nation's most 
comprehensive comparative report regularly published on traffic 
congestion nationwide.
    According to the report, road travelers (not just those travelling 
at peak hours) in the Bridgeport-Stamford areas averaged 31 hours of 
delay each year and that number is increasing at a ``much faster rate'' 
than similar metropolitan areas around the country.
    In the Hartford and New Haven areas, the number drops to 19 hours 
of delay each year with ``much slower growth'' than other similar 
areas.
    Costs associated with these delays are obviously substantial. The 
report estimates a $78 billion annual drain on the national economy. 
Connecticut undoubtedly contributes hundreds of millions of dollars 
each year to that figure.
    The causes for congestion and its adverse impacts on the economy 
and environment are multiple and can vary in different locations. 
Similarly, there is no one ``silver bullet'' to solve congestion 
problems. Unquestionably, improving mass transit is one piece of the 
solution and Connecticut is clearly moving forward in that area. 
Obviously, as with most other strategies for reducing congestion, there 
are significant costs associated with large-scale transit initiatives. 
In addition to infrastructure and other capitol costs, substantial 
State subsidies will likely be needed to support these projects once 
completed.
    CBIA supports expanding mass transit where it makes the most sense 
to do so. Individual corridors and options must be carefully studied 
from a cost-benefit perspective to ensure limited but substantial 
transportation dollars go to those projects that provide the greatest 
economic and social benefits.
    Additionally, we can not become so focused on transit that we short 
shrift our highway and bridge needs. In a recent statewide survey of 
Connecticut businesses, about 70 percent of the respondents said that 
the most positive impact State transportation officials could have on 
helping their businesses would be improving the condition of existing 
roads, highways, and bridges or expanding highway and road capacity. 
Expanding mass transit options garnered 13 percent.
    Going forward, Connecticut needs to closely examine the degree to 
which State funding will be needed to accomplish the goal of creating 
and maintaining a first-class, integrated, multimodal transportation 
system in Connecticut, and we will have to make tough decisions about 
the sources of that funding. We need to do a better job of refocusing 
our transportation planning from an interstate regional perspective and 
more appropriately balance those priorities with project lists created 
by multiple regional bodies within Connecticut that are appropriately 
but more narrowly focused on their local transportation needs. We need 
to rebuild the trust of our citizens that money raised for 
transportation projects will be spent on transportation projects and 
that those projects will be of the highest priority and will be 
implemented in an efficient and cost-effective manner.
    Under the outstanding leadership of CT DOT commissioner Joseph 
Marie working with the Governor, the General Assembly, our 
Congressional delegation, and a variety of regional and national 
transportation entities, Connecticut is moving in the right direction 
and we are optimistic that the State can one day be the envy of most or 
even all other States with respect to our transportation system. We 
look forward to working with them and the many other transportation 
stakeholders to help realize that vision.
    Thank you very much for this opportunity to provide testimony to 
the Committee.
                                 ______
                                 
                   PREPARED STATEMENT OF DAVID KOORIS
                         Connecticut Director,
                       Regional Plan Association
                             April 16, 2009
    May name is David Kooris and I am the Connecticut Director of 
Regional Plan Association, the Nation's oldest regional planning 
organization. For over 80 years RPA has identified regional strategies 
to address challenges and opportunities that do not respect political 
borders.
    This statement highlights the importance of prioritizing the 
strategic investments that position our national, local, and personal 
economies for the next age of prosperity.
    Even the current levels of stimulus spending are dwarfed by the 
mounting lists of potential capital projects in every community across 
the Nation. In this period of economic peril, with daunting 
environmental challenges looming on the horizon, we cannot afford to 
bet our future wealth on investments that do not create communities of 
value for the future while meeting the needs of today. A sustainable 
investment strategy would improve Connecticut's access to global 
gateways, solidify its regional centers, connect neighborhoods, 
coordinate housing and transportation, and engage the public 
constructively in the decision making process.
    Transportation emissions make up 40 percent of the State's 
greenhouse gas emissions that contribute to global warming. Congestion 
around our job centers imposes a blunt tax on doing business and living 
in our State. About a third of our bridges are structurally deficient. 
Stamford's is the highest priced rental market in the country, while 
pockets of extreme poverty and segregation in our urban areas will 
significantly impact our workforce competitiveness in decades to come. 
Targeted enhancements to Connecticut's mobility system, in coordination 
with a coherent housing and neighborhood policy, would work to mitigate 
the impacts of this perfect storm of challenges looming on 
Connecticut's horizon.
    For too long, infrastructure decisions have emphasized one 
objective--safe and fast automobile access--at cost to all others. We 
can no longer afford to make investments with such limited impact and 
return.
    Connecticut has a phenomenal legacy of compact walkable town 
centers--each with its own unique character--linked by one of the most 
robust transit networks on the continent. For the past 50 years we have 
neglected these assets while energy was cheap and climate change a 
topic of science fiction. But global warming has begun and volatile 
energy prices will decimate those communities whose development 
patterns and mobility systems depend on the private automobile. Our 
State faces these challenges with a leg up on the competition. Will we 
identify the key investments which build on our inherent advantages in 
the age of carbon constraint, or will we squander our limited 
resources?
    Connecticut has been called an economic cul-de-sac because we lack 
international airports or freight terminals. While our corporate 
headquarters and world class universities act as global gateways for 
information and talent, we are physically disconnected from the major 
ports and airports in greater New York and Boston. Our coastal 
communities tie into the Northeast Corridor, but the Capitol region is 
offset from this economic spine; Springfield-Hartford-New Haven-New 
York rail enhancements would attach Hartford at the hip to the region's 
economic core and provide intercity connectivity at less than half the 
carbon emissions per passenger mile compared to automobiles while 
creating hundreds of permanent jobs.
    At the intersections between the global economy and our State--in 
places like Hartford, Stamford, and New Haven--regional centers act as 
hubs for local transit networks and are centers of innovation which 
drive the economies of communities in their immediate vicinity. Our 
centers have concentrated employment, education, entertainment, and a 
mixture of housing options necessary for our parents to age in place 
and our children to return home and raise families of their own. 
Occurring at nexuses in the existing mobility network, these regional 
centers contain infrastructure representing generations of investment 
and embodied energy. Present efforts can be most effective by 
leveraging these resources to build up the sustainable communities of 
the future. Investment in these regional centers will ensure a high 
economic and social return, not just for our cities but for the 
overall.
    Radiating out from these centers must be a network of complete 
streets, better utilizing existing and new public corridors by 
balancing pedestrian, bike, and transit infrastructure alongside lanes 
for automobiles. Busways and express buses link regional centers to 
other downtowns while bike lanes and sidewalks permeate the economic 
vitality and vibrancy of these nodes of activity into the surrounding 
neighborhoods. Our research has demonstrated the pronounced impact that 
transit access has on property values within a half mile of commuter 
rail; innovative strategies are necessary to filter this value into the 
surrounding neighborhoods. With priority placed on those routes which 
link existing activity centers to one another and to neighborhoods in 
need of sustainable access to jobs, a mobility field will be created 
incrementally which strings together the communities of the State with 
greener and more efficient transportation.
    However, we will probably not have the resources necessary to bring 
a bus or sidewalk to every far-flung outpost of our current settlement 
patterns, so we must ensure that new housing, offices, and shops are 
located within reach of the mobility field we are now beginning to 
create. While a generation of investment has brought road access to 
nearly every corner of the State, dependence on the automobile has also 
wreaked havoc on personal economies exacerbated by energy price 
fluctuations. With the highest priced rental market in the Nation and 
low affordability statewide, lowering households' transportation and 
energy costs is as important as providing affordable housing. An 
``affordable'' house in an automobile dependent neighborhood did little 
good for a family last summer when the need to use a car for every trip 
all but obliterated any savings on monthly rent. Development that is 
oriented towards our regional centers, towards our transit system, and 
toward our sidewalks and neighborhood parks is a necessary step towards 
providing affordable and quality housing for all residents of this 
State.
    The investments and policy changes necessary to achieve sustainable 
communities cannot rest with the decisions of insiders alone, but must 
be the product of an open and robust dialogue that engages all the 
members of the Connecticut community. As RPA has demonstrated around 
the tri-state region, involving people early, often, and honestly to 
collaboratively formulate a blueprint for the State's future will 
result in investment decisions and policies that reinforce existing 
communities, reduce future energy demand and carbon emissions, and 
capitalize on the social fabric that intimately knows the assets and 
opportunities in each neighborhood.
    Through coordinated planning for land use and transportation we can 
achieve growth without increased emissions, encourage economic 
development without sacrificing neighborhood character, enhance 
mobility without dividing communities, enable revitalization without 
gentrification, and move towards the Connecticut of the future, based 
on the foundations of the past, and without sacrificing the Connecticut 
of today.
    Thank you for the opportunity to submit this testimony.

</pre></body></html>
